<html>
<title> - FISCAL YEAR 2011 RESEARCH AND DEVELOPMENT BUDGET PROPOSALS AT THE ENVIRONMENTAL PROTECTION AGENCY (EPA) AND THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION (NOAA)</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                     FISCAL YEAR 2011 RESEARCH AND
                  DEVELOPMENT BUDGET PROPOSALS AT THE
                 ENVIRONMENTAL PROTECTION AGENCY (EPA)
                        AND THE NATIONAL OCEANIC
                 AND ATMOSPHERIC ADMINISTRATION (NOAA)

=======================================================================

                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 10, 2010

                               __________

                           Serial No. 111-84

                               __________

     Printed for the use of the Committee on Science and Technology




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



     Available via the World Wide Web: http://www.science.house.gov

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
   55-842PDF              WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        MICHAEL T. McCAUL, Texas
JIM MATHESON, Utah                   MARIO DIAZ-BALART, Florida
LINCOLN DAVIS, Tennessee             BRIAN P. BILBRAY, California
BEN CHANDLER, Kentucky               ADRIAN SMITH, Nebraska
RUSS CARNAHAN, Missouri              PAUL C. BROUN, Georgia
BARON P. HILL, Indiana               PETE OLSON, Texas
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
JOHN GARAMENDI, California
VACANCY









                            C O N T E N T S

                             March 10, 2010

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........    12
    Written Statement............................................    13

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    13
    Written Statement............................................    15

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    16

                                Panel I:

Dr. Paul Anastas, Assistant Administrator, Office of Research and 
  Development (ORD), U.S. Environmental Protection Agency
    Oral Statement...............................................    17
    Written Statement............................................    19
    Biography....................................................    21

Discussion
  Electronic Waste...............................................    22
  EPA's Endangerment Finding.....................................    23
  Research on Social Behavioral Sciences.........................    24
  The Science of Ocean Acidification.............................    25
  Criticism and Support for the Science of Climate Change........    26
  The Scientific Method and Scientific Integrity.................    29

                               Panel II:

Dr. Jane Lubchenco, Administrator, National Atmospheric and 
  Oceanic Administration
    Oral Statement...............................................    33
    Written Statement............................................    35
    Biography....................................................    42

Discussion
  Greenhouse Gas Monitoring and Verification.....................    43
  Establishing the National Climate Service......................    44
  Ocean Acidification............................................    47
  Permitting and Regulatory Issues...............................    48
  Structure of the National Climate Service......................    49
  Recreational Fishing...........................................    50
  The Chesapeake Bay.............................................    51
  The NPOESS Program and Joint Polar Satellite System............    52
  Asian Carp in the Great Lakes..................................    53
  A NOAA Organic Act.............................................    53
  Some General Comments..........................................    55
  The Relocation of NOAA's Pacific Operations....................    56
  Satellite and Space Transportation Capacities..................    57
  The Science of Climate Change..................................    58
  The NOAA Aquarius Lab and Harmful Algal Blooms.................    62
  More on the NPOESS Program.....................................    63
  Fishing Catch Shares...........................................    65
  Closing........................................................    66

              Appendix: Answers to Post-Hearing Questions

Dr. Paul Anastas, Assistant Administrator, Office of Research and 
  Development (ORD), U.S. Environmental Protection Agency........    68

Dr. Jane Lubchenco, Administrator, National Atmospheric and 
  Oceanic Administration.........................................    76

 
   FISCAL YEAR 2011 RESEARCH AND DEVELOPMENT BUDGET PROPOSALS AT THE 
  ENVIRONMENTAL PROTECTION AGENCY (EPA) AND THE NATIONAL OCEANIC AND 
                   ATMOSPHERIC ADMINISTRATION (NOAA)

                              ----------                              


                       WEDNESDAY, MARCH 10, 2010

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 2:23 p.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

               Fiscal Year 2011 Research and Development

                 Budget Proposals at the Environmental

                Protection Agency (EPA) and the National

             Oceanic and Atmospheric Administration (NOAA)

                       wednesday, march 10, 2010
                         2:00 p.m. to 4:00 p.m.
                   2318 rayburn house office building

PURPOSE

    On Wednesday, March 10, 2010 at 2:00 p.m. the House Committee on 
Science and Technology will hold a hearing to examine the 
Administration's Fiscal Year 2011 budget requests for the Environmental 
Protection Agency's (EPA) Science and Technology (S&T) Programs and the 
National Oceanic and Atmospheric Administration (NOAA).

WITNESSES

Panel I
Dr. Paul Anastas, Assistant Administrator, Office of Research and 
Development (ORD), U.S. Environmental Protection Agency

Panel II
Dr. Jane Lubchenco, Administrator, National Atmospheric and Oceanic 
Administration

BACKGROUND

Overall FY 2011 Budget Request for EPA
    The President's FY 2011 budget request for the Environmental 
Protection Agency (EPA) is $10 billion, a reduction of 2.7 percent 
compared to the FY 2010 enacted levels. The table below shows the eight 
primary accounts of the Agency's budget. The Environmental Programs and 
Management (EPM) account funds the agency's air, water, waste, toxics 
and pesticides programs. The Superfund account supports clean up of 
hazardous waste sites. The Superfund account also includes funds for 
Superfund enforcement to develop and test new methods for clean up and 
set clean-up standards, and funds for the Inspector General's office to 
address Superfund issues. The State and Tribal Assistance Grants (STAG) 
account provides grants to States and local communities to support 
water and sewage treatment infrastructure construction and 
improvements. The largest reduction in the Agency's request is in the 
STAG account.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


FY 2011 Science & Technology Account: Office of Research and 
        Development
    The Administration's budget request for S&T is $847 million. This 
includes $605 million for the Office of Research and Development (ORD), 
S&T activities conducted by other program offices (e.g. Office of Air, 
Office of Water), as well as $25 million requested for S&T activities 
associated with the Superfund program. In the past, the Superfund S&T 
funds were drawn primarily from the Superfund trust that was funded by 
the dedicated Superfund tax. Since the expiration of the tax, this fund 
no longer exists and all funds must be appropriated from the general 
treasury.
    Approximately 68 percent of S&T funding is for EPA's ORD, which is 
the primary research arm of the agency. Typically, most of the 
remaining S&T funds go to the Office of Air and Radiation, and a 
smaller amount to the Office of Water and to the other program offices.
    ORD conducts and sponsors both fundamental research in 
environmental science and more targeted research to inform EPA's 
regulatory programs. For example, ORD provides scientific information 
to support and implement the Clean Water Act. ORD also develops the 
scientific risk information for the agency's Integrated Risk 
Information System (IRIS), a database of human health effects of 
certain chemicals. This program is used by EPA, individual states, and 
other government agencies to determine hazardous waste site clean up, 
drinking water, and other health-based standards. ORD develops the 
scientific underpinning for EPA's air quality standards in areas such 
as particulate matter and ozone. ORD also investigates the 
environmental implications of emerging areas such as nanotechnology and 
endocrine disruptors.
    ORD carries out these responsibilities by conducting intramural 
research at EPA's laboratories, awarding contracts, and supporting 
fellowships and research at colleges and universities through the 
Science to Achieve Results (STAR) grant program. The tables below 
provide breakouts of ORD funds among the various research programs at 
ORD, as well as further detail on STAR grants and fellowships program.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Within the context of a decrease in funding for EPA as a whole, the 
FY 2011 budget proposes increases for a range of intramural and 
extramural research and development activities.

        <bullet>  $88 million for the STAR Program, an increase of $26 
        million over the FY 2010 enacted levels, to invest in the next 
        generation of environmental scientists and to leverage wider 
        scientific community expertise on key issues.

        <bullet>  $20 million for research to support the safe 
        development of nanomaterials.

        <bullet>  $10.3 million, an increase of $6 million, for green 
        water infrastructure research to address storm water 
        management.

        <bullet>  $1 million in extramural contracts for Electronic 
        Waste and Electronic Design.

        <bullet>  $4.4 million to study the impact of hydraulic 
        fracturing technology on ground water quality and implications 
        for public health and the environment.

        <bullet>  $85 million, an increase of $3.4 million, for the 
        Next Generation Monitoring Network for ambient air pollutants.

        <bullet>  $17 million for endocrine disrupting chemicals 
        research and $22 million for computational toxicology. Both are 
        important for human health and ecological risk assessment. The 
        budget proposals are an increase of $6 million and $2 million, 
        respectively.

        <bullet>  As with the FY 2010 budget, the FY 2011 budget again 
        proposes the elimination of the Superfund Innovative Technology 
        Evaluation (SITE) Program and the Environmental Technology 
        Verification (ETV) program. Both programs support the 
        development and testing of innovative environmental 
        technologies for cleanup of hazardous substances. The SITE 
        program was created in the Superfund statute.

        <bullet>  The FY 2011 President's Budget reflects the merging 
        of the Air Toxics and NAAQS programs into a Clean Air program 
        which will focus on multi-pollutant sources and effects rather 
        than sources and effects of individual pollutants.

EPA-Science Advisory Board (SAB) FY 2011 budget analysis
    The EPA's Science Advisory Board (SAB) supports the investment in 
research reflected in the President's budget request. However, the SAB 
argues that the marginal increases in clean air and global change 
research will not allow EPA to develop research to support regulatory 
strategies resulting from the Agency's greenhouse gas Endangerment 
Finding. The SAB is also concerned that the decrease of 14 full-time 
employees and $2 million for the Ecological Services Research Program 
threatens the future of the program and the research needed to 
understand the causal links between stressors and changes in ecosystem 
processes. The SAB argues that repeated cuts in funding for ecological 
research have drastically reduced the agency's ability to monitor and 
protect the nation's ecosystems. The President's budget request also 
proposes a near $1 million decrease for susceptible population and 
cumulative risk ($2.5 million) research; some believe this reduction 
undermines the environmental justice initiatives and announcements made 
by the Administrator of EPA, Lisa Jackson. The EPA budget request 
includes little to no proposed investment in the social, behavioral, 
and decision sciences which many believe are important to continued 
climate change, ecosystem, and environmental justice research.

OVERALL FY 2011 BUDGET REQUEST FOR NOAA

    The President's FY 2011 budget request for the National Oceanic and 
Atmospheric Administration (NOAA) is $5.5 billion for discretionary 
appropriations, a 17 percent increase above the FY 2010 enacted levels, 
and $5.7 billion in direct obligations. NOAA's mission includes weather 
forecasting, climate prediction, and the management of fisheries, 
coastal and ocean resources. In addition, NOAA is responsible for 
mapping and charting coastal areas and providing other navigation 
support services through the National Ocean Service (NOS). NOAA 
conducts research in support of these missions including atmospheric, 
coastal, and oceanic sciences, climate and air quality research, 
ecosystem research, and fisheries and marine mammal research. NOAA also 
operates a constellation of satellites that monitor and transmit data 
for weather forecasting, climate prediction, space weather forecasting, 
and earth and ocean science research through the National Environmental 
Satellite Data and Information Service (NESDIS).
    Table 1 shows the six primary accounts or line offices of the 
agency's budget. The National Weather Service (NWS), the Office of 
Oceanic and Atmospheric Research (OAR), the National Environmental 
Satellite, Data, and Information Service (NESDIS), and Program Support 
received increases in the FY 2011 request. The Administration's budget 
proposes to decrease funding for the National Ocean Service (NOS) and 
the National Marine Fisheries Service (NMFS).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


National Weather Service (NWS)
    NWS provides weather, hydrologic, and climate forecasts and 
warnings for the United States, adjacent waters, and ocean areas. NWS 
provides a national infrastructure to gather and process data worldwide 
from the land, sea, and air.
    The request for NWS is a less than one percent net increase of $3.4 
million over the FY 2010 enacted budget. The Administration is 
requesting a $10.4 million increase for the NWS Operations, Research 
and Facilities (ORF) accounts and $7 million decrease for the NWS 
Procurement, Acquisitions and Construction (PAC) accounts. Although the 
Administration is requesting an overall marginal increase for NWS, 
there are a number of reductions for specific line items in the PAC 
account.
    The Administration requested increase in the ORF accounts is within 
the Local Warning and Forecasts Program for: (1) the completion of the 
required IT security improvements to the National Critical Space 
Weather System and Aviation Weather, (2) Next Generation Air 
Transportation System (NextGen) development activities, and (3) 
improvement aviation weather services.
    The requested increases in the ORF accounts are partially offset by 
decreases in funding. There are several programs proposed for 
elimination that are designated by Congress for funding and are 
routinely eliminated by the Administration as ``Congressional 
earmarks.'' A number of these programs have been funded for many years 
and support on-going forecasting services (e.g., Susquehanna River 
Basin Flood System). A project that was eliminated is the U.S. Weather 
Research Program's Hemispheric Observing System Research and 
Predictability Experiment (THORPEX), a multi-year international field 
experiment to improve two to ten-day forecasts done in cooperation with 
international partners and numerous U.S.-based research organizations 
($1.5 million).
    The President's FY 2011 request proposes to continue support in the 
following areas: strengthening the U.S. Tsunami Warning Network ($23 
million); completing and sustaining a growing network of NOAA weather 
radios ($12.6 million); and operation and maintenance of the Advanced 
Weather Interactive Processing System (AWIPS) ($39 million), the 
Automated Surface Observing System (ASOS) ($11 million), and the Next 
Generation Weather Radar (NEXRAD) ($46 million). AWIPS is specialized 
software that enables forecasters to prepare accurate, timely weather 
forecasts and warnings. ASOS is composed of the sensors needed to 
measure and record significant weather conditions. NEXRAD is the radar 
system that shows patterns and movement of weather conditions.
    There are longstanding concerns that the incremental funding 
increases that NWS receives may not be sufficient to cover all 
operational and maintenance requirements for current weather 
forecasting equipment. This may be especially problematic if the United 
States experiences a year of severe weather events and frequent or 
intense hurricanes, resulting in damage or loss to weather monitoring 
and forecasting equipment.

National Environmental Satellite Data and Information Service (NESDIS)
    The President's budget request for the National Environmental 
Satellite Data and Information Service (NESDIS) is $810.5 million, a 
nearly 60 percent increase over the FY 2010 enacted levels. Overall, 
the Administration request would reduce the NESDIS Operations, Research 
and Facilities (ORF) account by $9 million (4.5 percent) relative to 
the FY 2010 enacted budget, and increase the NESDIS Procurement, 
Acquisition and Construction (PAC) account by $819 million (68 percent) 
over the FY 2010 enacted budget.

NESDIS ORF

    The ORF budget for NESDIS is divided into two accounts: 
Environmental Satellite Observing Systems, and NOAA's Data Centers & 
Information Services.
    The Environmental Satellite Observing System account contains the 
programmatic funding for management, processing, analyzing, and 
archiving the data received from all of NOAA's weather monitoring 
equipment--both ground-based and space-based. The requested increases 
of $4.8 million over the FY 2010 appropriation would support the 
routine replacement and upgrading of ground based equipment and 
software and to maintain the continuity of data on sea ice used to 
forecast sea ice changes to support navigation. However, the budget 
request does not seem to demonstrate an investment in ocean vector wind 
studies. With the recent demise of the QuikSCAT satellite, the Tropical 
Prediction Center lost an important data source for its marine wind 
forecast products. The Center also employed QuikSCAT data in the early 
stages of predicting hurricane tracks. NOAA has not yet made a decision 
whether to proceed with the Extended Ocean Vector Wind Mission 
recommended by the National Research Council's Earth Sciences Decadal 
Survey.
    The Data Centers and Information Services account funds data 
processing and analyses at the agency's major data centers: the 
National Climatic Data Center (Asheville, North Carolina); the National 
Oceanographic Data Center (Suitland, Maryland) and the National 
Geophysical Data Center (Boulder, Colorado). This account also supports 
a number of regional climate centers that provide data and information 
services. The centers must also prepare to support the increase in 
delivery rates and quantities of information as NOAA's new satellite 
systems enter operation. The Administration's budget proposes to reduce 
this data centers and services account by $13.7 million below the FY 
2010 enacted budget.

NESDIS PAC

    The budget for NESDIS is dominated by acquisitions for NOAA's two 
weather satellite systems: the Polar-Orbiting Environmental Satellites 
(POES) which orbit the earth and provide information for medium to 
long-range weather forecasts; and the geostationary satellites (GOES) 
which gather data above a fixed position on the earth's surface and 
provide information for short-range warnings and current weather 
conditions. To maintain the continuity of weather forecasting data as 
older satellites retire, a new series of satellites are under 
development for both systems. Increases and decreases in the PAC 
account reflect the different phases of the satellite acquisition.
    There is a proposed increase of $62.5 million above the FY 2010 
enacted budget for the current series of GOES satellites, GOES-R, to 
support the continued development and procurement of this new series, 
which is currently scheduled for launch in 2015. The GOES-R satellite 
series was originally scheduled for launch in 2014. Cost overruns have 
plagued this program, and in 2006 the GOES-R series was projected to 
cost $5 billion more than the original estimate of $6.2 billion. NOAA 
consequently restructured the program to achieve cost reductions, and 
obtained independent cost estimates for the program. The Administration 
now estimates the cost of the new GOES series at $7.62 billion through 
2028. Cost savings were achieved by reducing the number of satellites 
in the series (from four to two) as well as removing one of the major 
sensors, reducing the capabilities of the satellites.
    The PAC account also reflects the $678.6 million requested increase 
for the Joint Polar Satellite System (JPSS) \2\. The JPSS total request 
of $1.1 billion contributes to the nearly 60% increase of the NESDIS 
line office over the FY 10 enacted level. This increase is a sizable 
portion of the agency's total $806 million proposed growth in FY 2011.
---------------------------------------------------------------------------
    \2\ The JPSS satellite program was formerly known as the National 
Polar-Orbiting Operational Environmental Satellite System, NPOESS.
---------------------------------------------------------------------------
    Originally, NOAA was part of a tri-agency effort \3\ to develop the 
NPOESS satellite program. NPOESS data and products are considered 
``mission-critical'' for both civilian and military weather forecasting 
and climatology needs; however, the program had major problems 
throughout. Since 2002, oversight by Congressional committees, 
Government Accountability Office (GAO) reports, and independent review 
teams have documented problems with satellite instrumentation, 
cooperation among the agencies involved, and the program's life-cycle 
cost; GAO's most recent testimony to the S&T Committee indicated that 
total cost estimates had grown to $15 billion and were not yet 
stabilized.
---------------------------------------------------------------------------
    \3\ NOAA, the National Aeronautics and Space Administration (NASA), 
and the Department of Defense (DoD) collaborated to develop NPOESS. 
This tri-agency effort was abandoned in February 2010 by OSTP, and 
NOAA/NASA are moving forward with the ``JPSS'' program.
---------------------------------------------------------------------------
    Due to these serious management issues, schedule slips, and cost 
over-runs, the Administration's FY 2011 budget contains a major 
restructuring of NPOESS. This decision will dissolve the integrated 
program into two separate programs: a military program managed by the 
Department of Defense; and a civilian program managed by NOAA/NASA. The 
NOAA/NASA program is now known as JPSS and it will be responsible for 
satellites flying in the afternoon orbits while DOD satellites will be 
responsible for the morning orbits. The United States will rely on 
European satellites for operational weather observations for the 
remaining orbit. Satellite procurement will be separated for each 
program; however, both programs will deliver data to a common ground 
system, and NOAA will continue to operate all satellites while in orbit 
\4\. The United States has already invested nearly $6 billion in the 
overall system, and developed five sensors to date.
---------------------------------------------------------------------------
    \4\ NOAA has been operating the Defense Meteorological Satellites 
for DOD since May 1998.
---------------------------------------------------------------------------
    In addition to procuring these satellite systems, the 
Administration is requesting $49.4 million to restore high priority 
climate sensors that were de-manifested from the NPOESS program in 2006 
as a result of the Nunn-McCurdy mandated restructuring of the program.
    NOAA oversees several satellite systems in addition to GOES and 
POES. The Deep Space Climate Observatory (DSCOVR), formerly known as 
Triana, has a request of $9.5 million to initiate refurbishment of the 
satellite and to develop a Coronal Mass Imager to maintain continuity 
of solar wind data used for geomagnetic storm warnings. The total life 
cycle of DSCOVR is projected to be $85 million.
    The JASON satellite series is managed in partnership with the 
European Organization for the Exploitation of Meteorological Satellites 
(EUMETSAT). The JASON-3 satellite FY 2011 budget request is a $30 
million increase over the FY 2010 enacted level of $20 million to 
continue the development of this altimetry satellite that will provide 
data for ocean climatology and hurricane intensity forecasting.

Oceanic and Atmospheric Research (OAR)
    The office of Oceanic and Atmospheric Research (OAR) is the primary 
research arm of NOAA, representing over half of all NOAA research 
programs. OAR conducts the scientific research, environmental studies, 
and technology development necessary to improve NOAA's operations. OAR 
activities are carried out through seven NOAA laboratories and via 
extramural research activities at 30 National Sea Grant colleges and 
universities. The Administration proposes to increase funding for OAR 
by nearly $16 million, approximately a four percent increase above the 
FY 2010 enacted funding levels. The OAR PAC account is flat funded; 
therefore, all requested increases in the OAR FY 2011 budget are in the 
ORF account.

        <bullet>  An increase of $6 million in the Phased Array Radar 
        and Tornado Severe Storm Research.

        <bullet>  An increase of $5 million in Weather and Air Quality 
        Research.

        <bullet>  An increase of $29 million in competitive research 
        programs including the National Integrated Drought Information 
        (NIDIS).

        <bullet>  The Administration requests $11.6 million in funding 
        for the Integrated Ocean Acidification Research program. This 
        work will enhance current knowledge to improve adaptive 
        strategies and management of living marine resources impacted 
        by ocean acidification.

    These increases are offset by a few reductions:

        <bullet>  A marginal decrease of $500,000 from the National Sea 
        Grant Program.

        <bullet>  A decrease of $3 million from Ocean Exploration and 
        Research. The Administration continues the merger of the 
        National Undersea Research Program (NURP) with the Ocean 
        Exploration Program.

        <bullet>  A $4 million decrease for the Partnership Programs of 
        Climate Research.

        <bullet>  A $5.5 million decrease for the Partnership Programs 
        of the Weather & Air Quality Research.

National Ocean Service (NOS)
    The National Ocean Service (NOS) protects the National Marine 
Sanctuaries and advocates coastal and ocean stewardship. The NOS also 
introduced electronic nautical charts which interface with Global 
Positioning Systems (GPS) to enhance the safety and efficiency of 
navigation of U.S. waterways. The President's FY 2011 request would 
reduce overall funding for NOS programs by $28 million, or five 
percent, compared to the FY 2010 enacted budget.
    The NOS ORF account is reduced by $22 million. Navigation Services 
has a proposed decrease of $12 million. The Ocean Resources, 
Conservation and Assessment account has a proposed net reduction as 
compared to the FY 2010 enacted budget of $17 million. This includes a 
$24 million reduction in the Ocean Assessment Program (OAP), and $3 
million decrease in Response and Restoration. The Ocean Assessment 
Program includes a decrease in funding for the Integrated Ocean 
Observing System (IOOS) Regional Observations of $12 million. The FY 
2011 budget request for the Ocean and Coastal Zone Management accounts 
would receive an increase of $15 million along with a $10.5 million 
increase for the National Centers for Coastal Ocean Science (NCCOS). 
The NOS-PAC accounts are also reduced by $6.5 million. This includes a 
cut in the Marine Sanctuaries Construction ($8.5 million) and an 
increase of $5 million in the acquisition of the Coastal and Estuarine 
Land Conservation Program.

Program Support
    The Program Support line office supports corporate services and 
agency management. This includes the Under Secretary's office, the 
office of the Chief Financial Officer, the Program, Planning and 
Integration Office, and the NOAA Education Program. Overall, the 
Administration requests an increase in the Program Support account of 
$29.2 million (a six percent increase over the FY 10 enacted funding 
level).

        <bullet>  Most of this increase is due to continued 
        construction of facilities under the PAC accounts ($24.8 
        million), in particular the Pacific Regional Center in Honolulu 
        ($14 million).

        <bullet>  NOAA Education Program FY 2011 budget request is 
        reduced significantly below its FY 2010 funding level of $53.8 
        million to a proposed funding level of $20.8 million for FY 
        2011.

                  The Competitive Education Grants request was 
                decreased by $7 million.

                  The Education Partnership and Minority Serving 
                Institutes Program is flat funded.

                  Eleven education programs are proposed to be 
                eliminated, including the JASON education and outreach 
                program.
    Chairman Gordon. This hearing will come to order. Good 
afternoon. I want to welcome everyone to today's hearing on the 
Administration's Fiscal Year 2011 Budget Request for the 
Environmental Protection Agency and the National Oceanic and 
Atmospheric Administration.
    When air and water pollution become a threat to our public 
and economic health, we need strong science and research 
programs at NOAA and EPA to help us understand the problems and 
respond.
    EPA leads the Nation's environmental science research 
education and assessment efforts. These investments have been 
critical to protecting the environment as well as our own 
health since the 1970s. Four years ago the Agency's research 
budget sustained a five percent cut. The fiscal year 2011 
request proposes to reduce EPA's overall budget, however, we 
are pleased to see a slight increase in funding for research 
and development.
    We also applaud the Administration for substantial 
increases in funding in the STAR Grant and Fellowship Program. 
As this committee prepares to reauthorize the America COMPETES 
Act, it is equally important for our Federal agencies to 
recognize the value in investing in our future science, 
scientists, and engineers.
    However, the budget request appears to lack funding in 
certain areas that are key to protecting our environment, both 
now and in the future. For example, research on global change 
and ecological services is important to improving the quality 
of life of every American. I don't see this reflected in EPA's 
research budget, and I look forward to discussing this with you 
further this afternoon.
    Now, another agency that is essential to improving our 
understanding of the environment is NOAA. NOAA provides 
Americans with a daily weather forecast, severe weather 
warnings, coastal conditions, and climate information. The 
wintry weather that we have been experiencing in DC and the 
tsunami warnings that were issued across the Pacific provided 
clear examples of what NOAA may be famous for, weather and 
storm forecasts.
    NOAA's dedicated scientists use cutting-edge research and 
tools to provide the public, city planners, emergency managers, 
and other decision makers with reliable information. NOAA's 
missions are large and diverse. Sound investments are needed in 
the agency's workforce, equipment, and research and education 
programs. For the first time in a long time the budget request 
for NOAA has been increased. This is a step in the right 
direction.
    That said, most of the increase is allotted for the 
satellite system, NPOESS, which is now known as JPSS, the Joint 
Polar Satellite System. For the ones of us that have followed 
NPOESS for awhile, we think it is probably good to have another 
name.
    This committee certainly understands the importance of 
mission-critical satellite programs. We depend on satellites 
for forecasting, observation, and understanding of climate and 
weather phenomena. However, this budget proposal still lacks 
the level of funding needed for NOAA to actually fulfill all of 
its diverse missions.
    Likewise, EPA has a great deal of work to do. It is time to 
move these agencies, their missions, and our country forward by 
giving them the resources they need to fulfill their 
responsibilities. In today's hearing we will hear from both 
agencies on separate panels. I look forward to discussing the 
Administration's budget proposal with each of you.
    [The prepared statement of Chairman Gordon follows:]
               Prepared Statement of Chairman Bart Gordon
    Good Afternoon. I want to welcome everyone to today's hearing on 
the Administration's FY 2011 Budget Request for the Environmental 
Protection Agency (EPA) and the National Oceanic and Atmospheric 
Administration (NOAA). When air and water pollution become a threat to 
our public and economic health, we need strong science and research 
programs at NOAA and EPA to help us understand the problem and respond.
    EPA leads the nation's environmental science, research, education 
and assessment efforts. These investments have been critical to 
protecting the environment as well as our own health since the 1970s. 
Four years ago, the agency's research budget sustained a five percent 
cut. The fiscal year 2011 request proposes to reduce EPA's overall 
budget. However, we are pleased to see a slight increase in funding for 
research and development.
    We also applaud the Administration for the substantial increase in 
funding for the STAR Grant and Fellowship Program. As this Committee 
prepares to reauthorize the America COMPETES Act, it is equally 
important for our Federal agencies to recognize the value in investing 
in our future scientists and engineers.
    However, the budget request appears to lack funding in certain 
areas that are key to protecting our environment, both now and in the 
future. For example, research on global change and ecological services 
is important to improving the quality of life for every American. I 
don't see this reflected in EPA's research budget. And I look forward 
to discussing this with you further this afternoon.
    Now, another agency that is essential to improving our 
understanding of the environment is NOAA. NOAA provides Americans with 
daily weather forecasts, severe weather warnings, coastal conditions, 
and climate information. The wintery weather that we've been 
experiencing in DC. and the tsunami warnings that were issued across 
the Pacific provide clear examples of what NOAA may be most famous 
for--its weather and storm forecasts.
    NOAA's dedicated scientists use cutting-edge research and tools to 
provide the public, city planners, emergency managers and other 
decision makers with reliable information. NOAA's missions are large 
and diverse. Sound investments are needed in the agency's workforce, 
equipment, and research and education programs.
    For the first time in a long time, the budget request for NOAA has 
been increased. This is a step in the right direction. That said, most 
of this increase is allotted for the satellite system, NPOESS, which is 
now known as JPSS, the Joint Polar Satellite System.
    This Committee certainly understands the importance of this 
mission-critical satellite program. We depend on satellites for 
forecasting, observation, and understanding climate and weather 
phenomena. However, this budget proposal still lacks the level of 
funding needed for NOAA to actually fulfill all of its diverse 
missions. Likewise. EPA has a great deal of work to do. It is time to 
move these agencies, their missions. and our country forward by giving 
them the resources they need to fulfill their responsibilities.
    In today's hearing we will hear from both agencies on separate 
panels. I look forward to discussing the Administration's budget 
proposal with each of you. At this time, I would like to recognize our 
distinguished Ranking Member, Mr. Hall of Texas for his opening 
statement.

    Chairman Gordon. And with that I would like to thank you 
for being here, and now I want to yield to my friend from 
Texas, the Ranking Member, Mr. Hall.
    Mr. Hall. Mr. Chairman, thank you, and I think I thank you 
for holding this hearing. I would like to welcome our witnesses 
here today one at a time, and I look forward to hearing their 
testimony. That ought to be all I have to say, but I will go on 
and redress this since I haven't had a chance to read it until 
I got here today, but I wrote it.
    In the last three weeks we have held budget hearings on 
NASA, the Office of Science and Technology Policy, and the 
Department of Energy, and each of these hearings Administration 
has proposed radical changes to longstanding science and 
technology policies with very little detail or clear direction 
forward and with billions of dollars at stake. We have seen 
this with NASA and human spaceflight as well as DOE with Yucca 
Mountain.
    The two agencies before us today follow that trend, and I 
am concerned about several of the proposed changes in their 
budgets. NOAA has recently made announcements that move the 
agency in a dramatically new direction. As a final arbiter of 
this inner-agency project, OSTP announced their decision to 
dissolve the National Polar Orbiting Operational Environmental 
Satellite System or NPOESS, thereby severing a 16-year effort 
between NOAA, NASA, and the Department of Defense to create a 
single, next-generation system of weather satellites.
    And the decision to split the program into two parts with 
NOAA and NASA responsible for the afternoon orbit and DOD 
responsible for the morning orbit comes as a bit of a surprise. 
It is even more surprising that this decision was reflected in 
NOAA's budget request but was not reflected in DOD's request. 
DOD has not announced whether it plans to use legacy technology 
or build a new satellite for this orbit. Their decision comes 
without a full transition plan, a detailed cost estimate, or an 
idea of how a joint grant system will impact data coming from 
potentially two different satellite systems. This committee has 
been engaged from the beginning on this issue, and it will need 
to exercise substantial oversight before we can approve of 
moving forward.
    I am also concerned about the recent announcement regarding 
the creation of a NOAA Climate Service. NOAA's announcement 
indicated that the Agency would be creating a new line office 
and reorganizing research by moving labs, data centers, and 
observing networks into the new office. I am not supportive of 
this change, and as Ranking Member I believe that this 
committee should have an opportunity to examine this proposal 
in detail. I do not think it is appropriate for a change of 
this magnitude to be decided on solely by the Appropriations 
Committee through a reprogramming request.
    I am also uncomfortable with the idea that this budget 
requests $47 million dollars under the Ocean and Atmospheric 
research budget line when this funding is intended to go into 
the new line office.
    Finally, I am troubled that the EPA has recently made some 
landmark decisions that could dramatically alter the U.S. 
economy. The Endangerment Finding, which states that carbon 
dioxide endangers public health and welfare, that was finalized 
last December, if allowed to stand could wreck havoc throughout 
the economy. Last December after the Agency's announcement, 
when I introduced House Resolution 954, which expresses a sense 
to the House of Representatives regarding the scientific 
protocols, data collection, methods, and peer review standards 
for climate change research which are necessary to preclude 
future infringements on the public trust.
    After the release of the e-mails from the Climate Research 
Unit at the University of East Anglia and several admissions by 
IPCC regarding its conclusion, our trust in what the experts 
have called the, ``gold standard,'' of climate science is 
severely shaken. The fact that the Administrator did not 
conduct her own extensive review of the scientific literature 
as is required for adjustments to the National Ambient Air 
Quality Standards raises a red flag.
    It makes us wonder and makes us question why such a 
thorough review was not undertaken, why similar protocols were 
not followed for a decision of this magnitude. There are many 
questions we have about this decision, not the least of which 
is its validity. Decisions made without the appropriate or, for 
that matter, legally required justification, often result in 
obvious and not so obvious unintended consequences.
    When determining how to spend taxpayer dollars one expects 
the Administration would provide detailed analysis, 
information, and transparency.
    I look forward to listening to our witnesses and learning 
the basis for which many of these decisions were made.
    Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    Thank you, Mr. Chairman, and thank you for holding this hearing 
today on the President's 2011 budget requests for the National Oceanic 
and Atmospheric Administration and the Environmental Protection Agency. 
I would like to welcome our witnesses here today and I look forward to 
hearing their testimony.
    In the last three weeks, we have held budget hearings on NASA, the 
Office of Science and Technology Policy (OSTP), and the Department of 
Energy.
    In each of these hearings, the Administration has proposed radical 
changes to long-standing science and technology policies with very 
little detail or clear direction forward and with billions of dollars 
at stake. We have seen this with NASA and human space flight, as well 
as DOE with Yucca Mountain. The two agencies before us today follow 
that trend, and I am concerned about several of the proposed changes in 
their budgets.
    NOAA has recently made announcements that move the agency in 
dramatically new directions. As the final arbiter of this interagency 
project, OSTP announced their decision to dissolve the National Polar-
orbiting Operational Environmental Satellite System, or NPOESS, thereby 
severing a 16-year effort between NOAA, NASA and the Department of 
Defense to create a single next-generation system of weather 
satellites. The decision to split the program into two parts--with NOAA 
and NASA responsible for the afternoon orbit and DOD responsible for 
the morning orbit--comes as a bit of a surprise. It is even more 
surprising that this decision was reflected in NOAA's budget request 
but was not reflected in DOD's request.
    DOD has not announced whether it plans to use legacy technology or 
build a new satellite for their orbit. This decision comes without a 
full transition plan, a detailed cost estimate, or an idea of how a 
joint ground system will impact data coming from potentially two 
different satellite systems.
    This Committee has been engaged from the beginning on this issue, 
and it will need to exercise substantial oversight before we can 
approve of moving forward. I am also concerned about the recent 
announcement regarding the creation of a NOAA Climate Service. NOAA's 
announcement indicated that the agency would be creating a new line 
office and reorganizing research by moving labs, data centers and 
observing networks into this new office. I am not supportive of this 
change, and as Ranking Member, I believe that this Committee should 
have an opportunity to examine this proposal in detail. I do not think 
it is appropriate for a change of this magnitude to be decided on 
solely by the Appropriations Committee through a reprogramming request.
    I am also uncomfortable with the idea that this budget requests $47 
million under the Oceanic and Atmospheric Research budget line when 
this funding is intended to go to the new line office.
    Finally, I am troubled that the EPA has recently made some landmark 
decisions that could dramatically alter the U.S. economy. The 
endangerment finding, which states that carbon dioxide endangers public 
health and welfare, that was finalized last December, if allowed to 
stand, could wreak havoc throughout the economy. Last December, after 
the Agency's announcement, I introduced House Resolution 954 which 
expresses the sense of the House of Representatives regarding the 
scientific protocols, data collection methods, and peer review 
standards for climate change research which are necessary to preclude 
future infringements of the public trust.
    After the release of the emails from the Climate Research Unit at 
the University of East Anglia, and several admissions by the IPCC 
regarding its conclusions, our trust in what the experts have called 
the ``gold standard'' of climate science is severely shaken. The fact 
that the Administrator did not conduct her own extensive review of the 
scientific literature as is required for adjustments to the National 
Ambient Air Quality Standards raises a red flag. It makes us question 
why such a thorough review was not undertaken; why similar protocols 
were not followed for a decision of this magnitude. There are many 
questions we have about this decision, not the least of which is its 
validity.
    Decisions made without the appropriate or, for that matter, legally 
required justification, often result in obvious and not so obvious 
unintended consequences. When determining how to spend taxpayer 
dollars, one expects the Administration would provide detailed 
analysis, information, and transparency. I look forward to listening to 
our witnesses and learning the basis for which many of these decisions 
were made. Thank you again, Mr. Chairman. I yield back.

    Chairman Gordon. Thank you, Mr. Hall. That is exactly the 
reason we are having this hearing so that you can ask those 
very legitimate questions.
    If there are Members who wish to submit opening statements, 
your statements will be added to the record at this point.
    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good morning. Thank you, Mr. Chairman, for holding today's hearing 
on the Fiscal Year 2011 (FY 11) research and development budget 
requests for the Environmental Protection Agency (EPA) and the National 
Oceanic and Atmospheric Administration (NOAA).
    First, the President's FY 11 budget calls for $10 billion for the 
EPA, a $278 million reduction from Fiscal Year 2010 (FY 10). While the 
overall EPA budget has decreased, I am pleased to see the 
administration continues will invest $605 million in research and 
development, which will ensure EPA's regulations are informed by 
science-based research and reflect up-to-date information. However, the 
State and Tribal Assistance Grant (STAG), which provides grants to 
state and local communities to support water and sewage treatment 
infrastructure construction and improvement, had the largest reduction. 
STAG grants are critical to the communities in Southern Illinois, and I 
am concerned this decrease will have an impact on rural access in 
Illinois and throughout the nation.
    In addition, I was pleased to see the Administration's budget 
increases funding for the Science to Achieve Results (STAR) grants 
program. The additional $26 million will allow EPA to dramatically 
increase research grants and fellowships for students around the 
country, ensuring that we continue to develop new ways of protecting 
public health and the environment. I have seen the impact of STAR 
grants in Southwestern and Southern Illinois, where students at 
Southern Illinois University-Edwardsville are currently using a STAR 
grant to uncover the environmental impact of toxic metals in frogs. I 
would like to hear from Assistant Administrator Anastas how EPA will 
utilize this new funding to expand the reach of the STAR grant program.
    Second, the President requests $5.5 billion for NOAA in the FY 11 
budget, an $806 million increase from FY 10. The majority of this 
expanded funding will be put towards the acquisition of two weather 
satellite systems, which provide necessary civilian and defense weather 
observations. My congressional district in Southern Illinois frequently 
faces extreme weather conditions, including tornados and ice storms 
that can destroy property, take out electricity for long periods of 
time, and even take lives. I appreciate the efforts of NOAA and NASA to 
continually update and improve the technology of these satellite 
systems to increase warning times for extreme weather events. I have 
concerns about the additional $62.5 million investment in the 
geostationary satellite, GOES-R. This program has been behind schedule 
and over budget for several years, which the Committee discussed in a 
hearing last year. I would like to hear from Administrator Lubchenco 
how NOAA plans to keep GOES-R on schedule and on budget as the 2015 
target launch date approaches.
    Finally, I am concerned about the marginal increases included in 
the budget for the National Weather Service (NWS). The 0.34 percent 
increase in funding from FY 10 may not be sufficient to cover the costs 
and needs of the NWS in FY 11. In particular, I am concerned about the 
impact of this funding on NWS' role in the development of Next 
Generation Air Transportation System (NextGen) because an enhanced 
weather reporting system through NWS is vital to improving air 
transportation. I would like to hear from Administrator Lubchenco, how 
this funding level in FY 11 will impact NWS' role in implementing 
NextGen.
    I welcome Assistant Administrator Anastas and Administrator 
Lubchenco, and I look forward to their testimony.

Panel I
    Now it is my pleasure to introduce our witness on our first 
panel. Dr. Paul Anastas is the Assistant Administrator of the 
Office of Research and Development [ORD] at EPA. Before joining 
ORD, Dr. Anastas was the Director of the Center for Green 
Chemistry and Green Engineering at Yale University and the 
Chief of the Industrial Chemistry Branch in EPA's Office of 
Prevention, Pesticides, and Toxic Substances. So welcome and 
since you are new on the block, is this the first time you have 
testified before a committee?
    Dr. Anastas. Only the first as----
    Chairman Gordon. As the new Administrator. Well, we welcome 
you here, and you pretty well know the rules, I am sure, that 
your written statement will be made a part of the record. We 
welcome your oral statement. We normally try to limit that to 
five minutes, but as the only panelist I think you should take 
what you need, and then I am sure Mr. Hall will have some good 
questions for you.

STATEMENTS OF PAUL ANASTAS, ASSISTANT ADMINISTRATOR, OFFICE OF 
 RESEARCH AND DEVELOPMENT (ORD), U.S. ENVIRONMENTAL PROTECTION 
                             AGENCY

    Dr. Anastas. Well, thank you, and good afternoon, Chairman 
Gordon, Ranking Member Hall, and the distinguished Members of 
the Committee. My name is Paul Anastas. I am the Assistant 
Administrator for the Office of Research and Development at the 
U.S. EPA, and it is a pleasure to be with you to discuss the 
fiscal year 2011 President's budget for ORD, as it is called.
    In my 60 days since being sworn in as Assistant 
Administrator, I have seen that ORD is a leader in cutting-edge 
environmental and human health research, providing a scientific 
basis to EPA's decisions to support our mission and to protect 
human health and the environment.
    We focus our efforts and resources on those areas where we 
can make the most value in identifying hazards, quantifying 
exposures, assessing risks, and enhancing environmental risk 
management decisions that both protect against and mitigate 
risks.
    ORD is unique in the environmental science community 
because we conduct research across the various disciplines, the 
spectrum of disciplines necessary to support environmental and 
human health decision making. ORD conducts mission-critical 
research that is multi-disciplinary, integrated, and rigorously 
peer-reviewed. We also synthesize research, conduct 
assessments, and provide impartial advice to ensure EPA uses 
science credibly in its decisions.
    President Obama has proposed a budget of $10 billion to the 
U.S. Environmental Protection Agency in a time of significant 
economic challenges faced by families across this Nation. The 
proposed budget aims to increase efficiencies across the Agency 
while at the same time allowing us to continue our critically-
important work. The proposed budget clearly demonstrates that 
science is one of the priorities for the Agency. The Office of 
Research and Development's total budget request is $605.7 
million, an increase of $11 million over the 2010 enacted 
budget.
    In January, Administrator Jackson laid out her themes to 
guide our work at the EPA for the coming year and beyond. She 
expressed to me personally that ORD will play a critical role 
in addressing these priorities, which include taking action on 
climate change, improving air quality, ensuring the safety of 
chemicals, cleaning up our communities, protecting America's 
waters, expanding the conversation on environmentalism and 
working for environmental justice, and building strong state 
and tribal partnerships.
    We are proposing $14 million for fellowships through the 
Science and Technology to Achieve Results, the STAR Program, an 
increase of $6 million over the fiscal year 2010 enacted level. 
This will enable EPA to award approximately 240 new fellowships 
and support an ongoing 120 through the STAR Fellows Program. 
New fellowships will be awarded through nationwide competition 
in academic areas of top priority including nanotechnology, 
climate and clean air issues, and green infrastructure.
    In this budget we are also proposing $17.4 million for 
research on endocrine disrupting chemicals, including a $7 
million increase in STAR grants. These resources will help 
accelerate the application of the latest state-of-the-art 
innovations to advance assessment and management of EDCs and 
other emerging contaminants of concern.
    We are also requesting a $21.9 million budget for 
computational toxicology research. This includes an increase of 
$1.8 million to develop the next-generation tools that will 
greatly accelerate the evaluation of chemicals and the agency's 
Endocrine Disruptor Screening Program.
    In the area of electronics, our 2011 budget includes a $1 
million investment to lay the groundwork for research efforts 
on sustainable design methods and management strategies for 
electronic devices to mitigate human exposure and environmental 
releases from the recycling and disposal of electronic waste.
    Natural gas plays a role in our Nation's energy future. 
Hydraulic fracturing is one way of accessing this resource. 
Recently there have been concerns raised and questions asked 
about whether hydraulic fracturing may impact ground water and 
surface water.
    To address these questions, the President's budget includes 
$4.4 million for hydraulic fracturing research, an increase of 
$2.5 million. We are proposing to begin the research in fiscal 
year 2010.
    We are also proposing a $10.3 million budget for green 
infrastructure research. These resources fund research to 
advance the design of sustainable solutions to clean water 
challenges faced by state and municipalities. Consistent with 
the President's goals of addressing the grand challenges of the 
21st century, EPA's Research Program has the potential to spur 
innovative solutions for America's aging water infrastructure 
through approaches that could help produce significant long-
term cost savings.
    I would like to conclude by providing you with my views on 
the way that we at the Office of Research and Development view 
our work. Sustainability is our true north. Innovation is our 
most powerful tool. All science and technology alone cannot 
lead us to a sustainable civilization. The path towards 
sustainability must have scientific and technological 
innovation as essential elements. This means that our work at 
EPA must not merely review, assess, and quantify problems. It 
must inform the design of innovative new products, processes, 
and systems that incorporate sustainability as a design 
criterion, such as the important areas of green chemistry and 
green engineering.
    Our work must be catalytic to inform and empower the 
broader collection of people who seek to protect the 
environment. Research is a promise that if we engage in the 
often-difficult scientific endeavor, we can understand the 
world better and will be better able to make the world a better 
place.
    I look forward to working with the Committee to address the 
current and emerging environmental issues that will help our 
agency protect human health and the environment. Thank you for 
the opportunity to appear before you here today.
    [The prepared statement of Dr. Anastas follows:]
                   Prepared Statement of Paul Anastas
    Good morning Chairman Gordon, Ranking Member Hall, and other 
members of the Committee. My name is Paul Anastas. I am the Assistant 
Administrator for Research and Development (ORD). It is a pleasure to 
be here with you this morning to discuss EPA's FY 2011 President's 
Budget the Office of Research and Development.
    ORD is a leader in cutting-edge environmental and human health 
research, providing the scientific underpinnings to EPA's decisions in 
support of our mission to protect human health and the environment. We 
focus our efforts and resources on those areas where we can add the 
most value to identifying hazards, quantifying exposures, assessing 
risk, and enhancing environmental risk management decisions that both 
prevent and mitigate risks.
    ORD is unique in the environmental science community because we 
conduct intramural and extramural research across the entire spectrum 
of disciplines necessary to support environmental and human health 
decision making. ORD conducts mission critical research that is multi-
disciplinary, integrated and rigorously peer-reviewed. We also 
synthesize research, conduct assessments, and provide impartial advice 
to ensure EPA uses science credibly in its decisions.

Introduction

    President Obama has proposed a budget of $10 billion for the U.S. 
Environmental Protection Agency. At a time of significant economic 
challenges faced by families across the nation, the proposed budget 
aims to increase efficiencies across the Agency while at the same time 
allowing us to continue our critically important work.
    The proposed budget clearly demonstrates that science is one of the 
priorities for the Agency. The Office of Research and Development's 
total budget request is $605.7 million, an increase of $11 million over 
the 2010 enacted.
    In January, Administrator Jackson laid out her themes to guide our 
work for the coming year and beyond. She expressed to me personally 
that ORD will play a critical role in addressing these priorities. 
These themes provide a framework to guide our research efforts and help 
the Agency achieve measurable results to protect human health and the 
environment. Important ways the EPA's research and development effort 
supports these themes include:
    Taking Action on Climate Change--ORD research on the impacts of 
climate change on health and the environment has been used as the 
scientific foundation for Agency decisions. Our future efforts will 
provide the scientific roadmap EPA needs to reduce greenhouse gases and 
help our nation adapt to the effects of climate change.
    Improving Air Quality--ORD provides timely scientific information 
that supports Agency decisions to reduce harmful air pollution. Our 
future research efforts to better understand and prevent the effects of 
air pollution will ensure that our nation's communities have healthier 
air to breathe.
    Assuring the Safety of Chemicals--Our work in chemical assessment 
provides the foundation for our regulatory actions that improve the 
management of chemicals. Our fundamental research in this area in the 
coming year and beyond will transform not only the pace, but also the 
depth of our analysis.
    Cleaning Up Our Communities--Our science informs Agency decisions 
on effective ways to clean up communities all across our nation. This 
research, and the expert scientific consultation that ORD scientists 
and engineers offer, will provide critical tools and information needed 
by the Agency to meet the environmental challenges posed by 
contaminants in local communities. Additionally, our research on human 
exposure and exposure metrics will help schools and communities design 
risk mitigation strategies.
    Protecting America's Waters--ORD researchers develop both 
analytical methods needed to evaluate chemical and microbial 
contaminants in water distribution systems and approaches for managing 
watersheds and controlling sources of water quality impairment. Our 
future water research will advance methods and practices to promote the 
safety and sustainability of the nation's water resources.

2011 Budget Highlights

Strengthening Science, Technology, Engineering and Mathematics (STEM) 
        Education
    We are proposing $14 million for fellowships through the Science to 
Achieve Results (STAR) program, an increase of $6 million over the FY 
2010 enacted level. This will enable EPA to award approximately 240 new 
STAR fellowships and support an estimated 120 continuing STAR fellows. 
New fellowships will be awarded through nationwide competition in 
academic areas that are top priorities for EPA including 
nanotechnology, climate and clean air issues, and green infrastructure.

Assuring the Safety of Chemicals
    We are proposing $17.4 million for research on endocrine disrupting 
chemicals (EDC), including an increase of $7 million in STAR Grants. 
These resources will help to accelerate the application of the latest 
state of the art innovations to advance the assessment and management 
of EDCs and other emerging contaminants of concern.
    We are proposing $21.9 million for computational toxicology 
research. This includes an increase of $1.8 million to develop the 
next-generation tools that will greatly accelerate the evaluation of 
chemicals in the Agency's Endocrine Disruptor Screening Program (EDSP).

E-Waste
    Our 2011 budget includes $1 million to lay the groundwork for 
research effort on sustainable design methods and management strategies 
for electronic devices to mitigate human exposure and environmental 
releases from the recycling and disposal of electronic waste.

Protecting America's Waters
    Natural gas plays a role in our nation's energy future. Hydraulic 
fracturing is one way of accessing that resource. This process involves 
drilling a well, dewatering the formation, and then injecting fluids 
under high-pressure to fracture the rock so gas can be extracted. 
Recently, concern has been growing that hydraulic fracturing may impact 
ground water and surface water quality which may threaten human health 
and the environment. To address those concerns, the president's Budget 
includes $4.4 million for hydraulic fracturing research, an increase of 
$2.5 million. We are proposing to begin the research in FY 2010.
    We are proposing $10.3 million for green infrastructure research, 
including an increase of $5 million in STAR Grants. These resources 
will fund green chemistry and green engineering approaches to advance 
the design of sustainable solutions to clean water challenges faced by 
EPA's Office of Water, states, and municipalities. Consistent with the 
President's goals of addressing the ``grand challenges'' of the 21st 
century, this EPA research program has the potential to spur innovative 
solutions to America's aging water infrastructure challenges though 
approaches that could have significant long term cost savings.

Conclusion

    I would like to conclude by providing you with my views on the way 
we at EPA's Office of Research and Development approach our work. 
Sustainability is our true north. The work that we do--the research, 
the assessments, the policy development--is part of ensuring that we 
have a sustainable society; a sustainable civilization. While science 
and technology alone cannot lead us to a sustainable civilization, the 
path toward sustainability must have scientific and technological 
innovation as essential elements.
    This means that our work at EPA must not merely review, assess, and 
quantify problems; it must inform the design of innovative new 
products, processes, and systems that incorporate sustainability as a 
design criterion. The traditional, piece-by-piece approach to research 
has enabled a tremendously deep understanding of our world. We will 
complement this approach with an integrative systems approach. Our work 
must be catalytic to inform and empower the broader collection of 
people who seek to protect the environment. Research is a promise that 
if we engage in the often difficult scientific endeavor, we can 
understand the world better and be able to make the world a better 
place.
    I look forward to working with the Committee to address current and 
emerging environmental problems that will help our Agency protect the 
environment and human health. Thank you for the opportunity to appear 
before you today.

                       Biography for Paul Anastas
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Paul Anastas, Ph.D. is the Assistant Administrator for EPA's Office 
of Research and Development (ORD) and the Science Advisor to the 
Agency. Known widely as the ``Father of Green Chemistry'' for his 
groundbreaking research on the design, manufacture, and use of 
minimally-toxic, environmentally-friendly chemicals, Dr. Anastas has an 
extensive record of leadership in government, academia, and the private 
sector.
    At the time he was nominated by President Obama to lead ORD, Dr. 
Anastas was the Director of the Center for Green Chemistry and Green 
Engineering, and the inaugural Teresa and H. John Heinz III Professor 
in the Practice of Chemistry for the Environment at Yale University's 
School of Forestry and Environmental Studies. Prior to joining the Yale 
faculty, Dr. Anastas was the founding Director of the Green Chemistry 
Institute, headquartered at the American Chemical Society in 
Washington, DC. From 1999 to 2004 he worked at the White House Office 
of Science and Technology Policy, concluding his service there as the 
assistant director for the environment. Dr. Anastas began his career as 
a staff chemist at EPA, where he rose to the positions of chief of the 
Industrial Chemistry Branch, and director of the U.S. Green Chemistry 
Program. It was during his work at EPA that Dr. Anastas coined the term 
``green chemistry.''
    Trained as a synthetic organic chemist, Dr. Anastas' research 
interests have focused on the design of safer chemicals, bio-based 
polymers, and new methodologies of chemical synthesis that are more 
efficient and less hazardous to the environment. A leading writer on 
the subjects of sustainability, green chemistry, and green engineering, 
he has published ten books, including ``Benign by Design,'' Designing 
Safer Polymers,'' ``Green Engineering'' and his seminal work with co-
author John Warner, ``Green Chemistry: Theory and Practice.''
    Dr. Anastas has been recognized for his pioneering work with a host 
of awards and accolades including the Vice President's Hammer Award, 
the Joseph Seifter Award for Scientific Excellence, the Nolan Sommer 
Award for Distinguished Contributions to Chemistry, the Greek Chemical 
Society Award for Contributions to Chemistry, the Inaugural Canadian 
Green Chemistry Award, a Scientific American 50 Award for Policy 
Innovation, the John Jeyes Award from the Royal Society of Chemistry, 
and an Annual Leadership in Science Award from the Council of 
Scientific Society Presidents. He was a Special Professor at the 
University of Nottingham and an Honorary Professor at Queens University 
in Belfast where he was also was awarded an Honorary Doctorate.
    Dr. Anastas earned his B.S. from the University of Massachusetts at 
Boston and his M.A. and Ph.D. in chemistry from Brandeis University.

                               Discussion

    Chairman Gordon. Thank you, Dr. Anastas. At this point we 
will begin our first round of questions. The Chair recognizes 
himself for five minutes.

                            Electronic Waste

    Last year this committee and the House on a large 
bipartisan basis passed the Electronic Waste Research and 
Development Act, which dealt with e-waste. I noticed that you 
have put $1 million into the budget for e-waste and e-design. 
Can you tell me about how you intend to--or what you hope to 
get for that $1 million, how much of it is going to be internal 
research versus external, and is this a foundation for a more 
robust program in the future?
    Dr. Anastas. Yes. We are looking at this important program 
and this initial investment as laying the groundwork for what 
we expect to be a more robust program. We look at--in this 
coming year for how to scope out where the possibilities are 
for looking at not only the ways of handling the waste, but 
also the ways of informing design so that that waste doesn't 
continue into the future.
    As we all know, some numbers are as high as 300 million of 
used desktop and laptop computers sitting in closets waiting to 
be disposed of. This is a large legacy problem. We want to make 
sure that we do not continue with this legacy issue by engaging 
appropriate designs moving forward.
    Chairman Gordon. Will you be looking at alternatives to 
some of the different elements?
    Dr. Anastas. Absolutely. Yes. As a chemist one of the ways 
I approach most of the issues that I face is at the molecular 
level. When we recognize that every cell phone has about two-
thirds of the periodic table in that one phone, we recognize 
that there are things to consider and perhaps new designs and 
new materials that can be used.
    Chairman Gordon. Well, I think this is an excellent area of 
interest, and I think that it can--if we can get alternative 
materials, then it is going to save a lot of bad material going 
into our landfills as we have better design. I think if--on the 
front end if we can design them to recycle on the back end, 
once again, we are going to be saving a lot of money and the 
landfills. I think this is a very cost-effective program, and I 
am glad to see that it is in your budget.
    Now, I yield to Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman.

                       EPA's Endangerment Finding

    EPA relied heavily on the findings of the IPCC in making 
its endangerment determination. I guess I will ask a question, 
and I won't ask you to answer it yet until I enlarge on the 
question a little bit.
    First is, has there ever been another instance in the 
history of the EPA where the agency essentially justified the 
decision where scientific underpinning was based on the 
judgment of other bodies that are not subject to the U.S. 
Federal policies on scientific research? You may answer that 
yes or no if you want to.
    Dr. Anastas. I would say that the bodies that were 
consulted with were broad, ranging from the National Academies 
all the way through the U.S. Global Change Research Program, 
and so I think that the science that was relied upon was from a 
wide range of sources.
    Mr. Hall. I take that as a no. Not really. Do you want to--
have you finished answering the question? If not, I will go 
further.
    Well, the combined effects of leaked e-mails from the 
Climate Research Unit at the University of East Anglia, the 
several admissions in the last few months from the IPCC of the 
mistakes in the 2007 Fourth Assessment Report and a continuing 
insistence by several Administration officials that the 
underlying science has not been compromised despite all the 
evidence has severely undermined public trust in the IPCC 
process. Yet, the IPCC findings are the cornerstone of the 
agency's endangerment findings.
    Given all these issues since finalizing the endangerment 
findings, do you think it would be appropriate for the agency 
to go back and review the scientific basis for its finding? And 
do you intend to do that?
    Dr. Anastas. One of the things that I think is most 
important is to recognize that the science for any decision, 
certainly a decision as consequential as this, has to be solid 
and reliable, and I do believe that the overwhelming science 
that this finding is relying on is solid and reliable.
    Now, let me be clear. Any time, whether in this case or 
others, any time there are questions of scientific integrity 
and questionable science, that needs to be treated accordingly 
as the scientific community always does. That is in this case, 
that is in any issue that the EPA deals with.
    What doesn't change is that we are seeing a body of 
knowledge across many sources, across, as I said, the National 
Academies, the 13 U.S. departments that make up the U.S. Global 
Change Research Program, a wide body of knowledge.
    I have seen nothing in these individual questions that 
changes my perspective that the overwhelming science supports 
the endangerment finding.
    Mr. Hall. Well, let me ask you this. I will repeat part of 
my question. Given all these issues since finalizing the 
endangerment finding, do you think it would be appropriate for 
the agency to go back and review the scientific basis for its 
findings, or are you just going to rely on your finding, and 
the heck with anything else? Is that your attitude?
    Dr. Anastas. If I believed that there were any----
    Mr. Hall. I don't care what you believe. I am interested in 
what you have researched.
    Dr. Anastas. What I have researched----
    Mr. Hall. I know what you believe because I know who you 
work for.
    Dr. Anastas. I see. What I have researched is that great 
body of knowledge upon which the endangerment finding was based 
is solid and not in question. There aren't questions being 
asked about the great, overwhelming, vast scientific 
contributions that make up that finding.
    Mr. Hall. So when I ask that question, I don't think I have 
an answer. My next would be how does EPA justify moving forward 
on the questionable foundation when the magnitude of the 
endangerment findings will impact every sector of the Nation's 
economy? Is your answer that you don't think it is 
questionable?
    Dr. Anastas. The answers that--even the--with this less-
than-handful of questions that have been asked about the 
studies that have been put forward, by comparison to the 
overwhelming body of knowledge, I do not think that as a whole 
the scientific basis is questionable.
    Mr. Hall. Okay. I am doing my best to be fair with you, so 
you are going to go back and review it, or are you telling me 
you are not going to review it?
    Dr. Anastas. I am saying that if there is any reason to 
believe that the findings are based on a body of knowledge that 
is questionable, then that would warrant a review. I have not 
seen anything that would cause me to question the vast body of 
knowledge.
    Mr. Hall. If you have not seen anything, then did you not 
talk to your own scientists within the EPA and don't some of 
them question the science?
    Dr. Anastas. I ensure that there is a wide body of 
perspectives when we are looking at the science. Scientists 
will always draw the conclusions that the data tells them, and 
so I am--I, like you, sir, am not interested in what people 
believe. Scientists believe what the data tells them.
    Mr. Hall. I guess I am glad my time is up.
    Chairman Gordon. Dr. Baird is recognized.
    Mr. Baird. Mr. Hall may not be the only one that is glad 
his time is up.
    I thank the gentleman, Chairman.

                 Research on Social Behavioral Sciences

    EPA's Science Advisory Board has argued that ORD needs to 
conduct intramural research and social behavioral and decision 
sciences as part of its activities. Describe to us how the 
budget accommodates that or how your research strategy 
accommodates the social behavioral sciences.
    Dr. Anastas. One of the things that we recently have not 
only been discussing but moving toward is, rather than creating 
isolated disciplinary programs, for instance, around social or 
behavioral sciences, it is about how we do integrated trans-
disciplinary research. So while it would be possible to create 
a discrete area of social and behavioral sciences, I do believe 
that it is perhaps more effective to integrate social and 
behavioral sciences throughout the research as a thread that 
goes throughout everything we do.
    Mr. Baird. I actually agree with that. How will you do it?
    Dr. Anastas. So one of the steps that we are taking in real 
time is as we consider the ``how'' of what we do, it is not 
separate from the ``what'' topics we take on, but how we 
conduct this research is to, from the very beginning of what we 
are going to tackle, make sure that the wide range of 
disciplines are there at the table, from problem definition to 
study design, all the way through the conduct of research.

                   The Science of Ocean Acidification

    Mr. Baird. That is good news. I want to--on the climate 
change issue, I want to talk not just about the temperature 
issue but your understanding of ocean acidification and the 
chemistry behind that, because to the best of my knowledge 
nobody credible has questioned the issue that CO<INF>2</INF> 
goes into the air, gets dissolved in the water, forms carbonic 
acid, the acid eats away at the minerals that make up the 
shelled organism, shells, everything from terapods up to 
oysters and others.
    Is it your understanding that that is a pretty settled 
science and that you could demonstrate this on a lab bench? In 
other words, you don't need sophisticated computer models, tree 
rings or measurements? We could actually bring in--if I am 
correct or if I am incorrect, correct me, but we could bring in 
some water, put CO<INF>2</INF>--some ocean water, put CO<INF>2</INF> 
above it, measure what happens to the acidity. Right?
    Dr. Anastas. Uh-huh.
    Mr. Baird. And what would happen to the acidity?
    Dr. Anastas. What we have seen and what is easily obeying 
the laws of chemistry is that you will see that type of acidity 
as you increase the atmospheric CO<INF>2</INF> and the 
concentrations of CO<INF>2</INF>, as you mentioned, as carbonic 
acid. I do want to say that there is reasonable research about 
what are the feedback loops, what is the role of buffering 
solutions, and so there is generally--genuinely useful research 
that can be conducted on that, but certainly as a first 
approximation your description of the issue is correct.
    Mr. Baird. And there are some types of plankton that 
paradoxically seem to actually thrive in higher CO<INF>2</INF> 
levels. We are not sure why that is.
    Dr. Anastas. That is right.
    Mr. Baird. But there are at least research efforts I am 
familiar with out of Israel and Jordon that take different 
types of coral species, raise them in different levels of 
acidified water, actually, the water is coming right off the 
beach, and then they adjust the CO<INF>2</INF> levels and the 
acidity. And the corals that are being raised in the more 
acidic water actually fail to thrive and in some cases their 
shell actually dissolves. Is that----
    Dr. Anastas. That is correct, and there are situations 
where there are organisms known as extremophiles that will 
thrive in high salt content, high acid content, even higher 
temperatures. Those extremophiles are exceptional, but they are 
notable outliers.
    Mr. Baird. Now, one of the issues as well, organisms can 
adapt. My understanding is that the pace of change, the pace of 
acidification, the pace of temperature increase is so much more 
rapid than the normal geological time pace. Is that accurate?
    Dr. Anastas. That is a concern, that while adaptation is a 
natural part of evolution, it is the pace of change, the rate 
of change that is of highest concern because even if we are 
looking toward things like migration to different areas when 
you are talking about oceanic acidification, that is--that may 
not be an option. So the physical adaptation would be a 
challenge.
    Mr. Baird. I thank the gentleman, thank the Chair, and 
yield back my time.
    Chairman Gordon. Thank you, and Dr. Broun is recognized.
    Mr. Rohrabacher. Mr. Chairman, I think I was here----
    Chairman Gordon. Oh, I am sorry. Excuse me. I understand 
that you were trumped by seniority, and so Mr.--I am sure Dr. 
Broun is accommodating and would let Mr. Rohrabacher go 
forward.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. I have 
another hearing to run off to. That is why I needed to get this 
time in.

        Criticism and Support for the Science of Climate Change

    I am afraid, sir, that you did not answer the Ranking 
Member's question, so let me pose it to you again. Could you 
please, and more specifically, perhaps you could name another 
major ruling that the EPA has made that was not based on actual 
research done by the EPA but relying instead on other, perhaps 
even foreign sources and foreign laboratories to do the 
research?
    Dr. Anastas. With all due respect, I have to--I am not sure 
that I can accept the premise of the question because I don't 
see that the endangerment finding was based solely on 
international bodies. One, there is----
    Mr. Rohrabacher. Is it based on your research, EPA-direct 
research?
    Dr. Anastas. Was it based on EPA-directed research? EPA 
research and certainly EPA science played a role, but like 
virtually everything that the----
    Mr. Rohrabacher. So the answer is you cannot name another 
one because it didn't exist because the EPA in the past has 
done direct research, and when it does findings, it is based on 
research that at least is verified inside your body.
    What--maybe you can tell us----
    Dr. Anastas. Well, sir----
    Mr. Rohrabacher. --the finding that your--the research the 
EPA had done that verified, for example, that there was no 
medieval warming period that was based--that was in the IPCC 
report.
    Dr. Anastas. So I guess a couple of things. Any time the 
EPA takes on a major question or a major finding it is not 
going to rely solely on the research done inside of its labs. 
It is going to also rely on the research that is done by the 
broad scientific community.
    Mr. Rohrabacher. In this case you have suggested that the 
research you relied upon is something that is not questionable. 
Maybe you could tell me why is it not questionable that that 
research is not valid when the Russian Academy of Sciences 
charges that the computer models, that in establishing the 
computer models, that information that they gave, they provided 
was cherry-picked in order to come out with a pre-determined 
outcome. Does that mean--is that questionable science to you?
    Dr. Anastas. When we are looking at the findings of 
National Academies of Science from a dozen different countries 
coming to the same conclusion, when we are looking across the--
--
    Mr. Rohrabacher. Sir, I was told as far as--pardon me. I 
only got five minutes. I am going to have to--we were told that 
the Academy of Sciences in Russia agreed with this. I went to 
see the head of the Academy of Sciences in Russia, and he 
doesn't agree with it. We have had lots of people who even told 
like this very off-handedly that so many people agree with 
that, the case is closed, and now we find out that the case 
isn't closed, that there are heads of major science departments 
at major universities throughout the world who are calling into 
question something more specific in this.
    The--does it not ring some alarm bells for you that the 
information that was put into the database to produce this, you 
know, the computer models, that it is no longer available and 
that we have been told that that, that we can't review that 
now? Doesn't that ring an alarm bell with you that you don't 
have the information to go over?
    Dr. Anastas. I can tell you that the scientific integrity 
of any study, whether it be this one or any, is something that 
is of highest importance. We always want to make sure that 
things are peer-reviewed at the highest level, and so any time 
scientific integrity is----
    Mr. Rohrabacher. Has the EPA accepted the argument that 
they have to take on faith and that you have just accepted that 
the right information was put into those computers and that 
that data is no longer available for you to look at? You just 
accepted that? You call that to be responsible?
    Dr. Anastas. Faith may have a place in my life, but it 
doesn't have a place in my science. When I am talking about 
scientific review, any scientific review should be peer-
reviewed, scientists looking at the methods----
    Mr. Rohrabacher. Does it bother you then that when we see 
that the e-mails between these people which were purloined but 
now have exposed, the fact that they were going out of their 
way in order to suppress peer review of their science? Does 
that bother you?
    Dr. Anastas. Any individual claim, any individual claim of 
lack of scientific integrity, of course, is an affront to 
science----
    Mr. Rohrabacher. Have you looked into that then to see that 
if that had an impact on the overall findings?
    Dr. Anastas. The overall findings are based on a wide range 
of science. The vast majority of the science is not in 
question.
    Mr. Rohrabacher. I would suggest that a wide range of 
science, yes, but--and also in ignoring specifics which would 
undermine the validity of that overall science.
    Thank you very much, Mr. Chairman.
    Chairman Gordon. Thank you, Dr. Rohrabacher, and now Dr. 
Broun.
    Mr. Broun. Thank you, Mr. Chairman. Doctor, I have to hand 
it to you. You really have very strongly endorsed something 
that is not scientific, and there is no scientific consensus to 
anthropogenic human--global warming, and you are proselytizing 
this idea that is being propagated by the radical 
environmentalists, and you and this Administration are just 
drinking the Kool-Aid and going down a road that is going to 
destroy our economy.
    Now, the press before us last summer revealed that 
important comments from career EPA analysts on the agency's 
greenhouse gas endangerment finding was suppressed by a senior 
agency official. These press reports include e-mails that 
indicated that the director of the EPA's National Center for 
Environmental Economics refused to include the comments, not 
because of lack of scientific merit, but according to the 
official because, ``The Administration decided to move forward 
on endangerment,'' and the ``comments did not help the legal or 
policy case for this decision.''
    That is not scientific integrity, Doctor, and seeking to 
have his report included in the proceeding, the analyst wrote, 
``They are significant because they present information 
critical to the justification or lack thereof for the proposed 
endangerment finding. They are valid because they explain much 
of the observational data that have been collected while--which 
cannot be explained by the models, the IPCC models.''
    After muzzling the report the director stated, ``With the 
endangerment finding nearly final, you need to move onto other 
issues and subjects. I don't want to spend any additional EPA 
time on climate change. No papers, no research, et cetera.''
    I find it hard to reconcile these actions with the 
President's direction or the EPA Administrator's own words, 
which he promised, ``Political appointees will not compromise 
the integrity of EPA's technical experts to advance particular 
regulatory outcomes.''
    And, ``EPA's addressing of scientific decisions should 
reflect the expert judgment of the agency's career scientists 
and independent advisors.''
    As Assistant Administrator for EPA's Office of Research and 
Development, what is your reaction to the following statement 
that I just read? ``With the endangerment finding near final, 
you need to move on to other issues and subjects. I don't want 
you to spend any additional EPA time on climate change. No 
papers, no research, et cetera.''
    Dr. Anastas. I guess you understand that since I have been 
at the agency for just over a couple of months that preceded my 
time there, so I can't say that I have personal knowledge of 
that----
    Mr. Broun. Well, excuse me----
    Dr. Anastas. --situation, but I----
    Mr. Broun. --for interrupting you. I think you have already 
answered it because----
    Dr. Anastas. But----
    Mr. Broun. --what Mr. Hall told you, what Mr. Rohrabacher 
or what Mr. Hall and Mr. Rohrabacher asked you, you--I think 
you actually answered my question there.
    Dr. Anastas. I----
    Mr. Broun. You said no more investigation. You have told us 
that the science is convincing. It is not convincing. There are 
thousands of scientists around the world that say that human-
caused global warming is not factual, and in scientific 
integrity, Doctor, just for the name of scientific integrity, 
please look at other data besides what you have decided on. You 
said your belief structure doesn't drive science, but actually 
your belief structure in that there is human-induced global 
warming is determining your scientific basis and is going to 
determine the policy that you and EPA are going to carry out.
    I find it appalling as a scientist. I find it totally 
disingenuous, and it is not scientific integrity.
    Let me go to my next question. NCEE's direct exclusion of 
the staff's report on the grounds that it did not advance the, 
``policy case for the endangerment finding,'' consistent with 
the President's guide that, ``facts drive scientific decisions, 
not the other way around.''
    Dr. Anastas. Facts do drive scientific decisions.
    Mr. Broun. They don't drive yours because what you just 
told Mr. Hall, that is what you have told Mr. Rohrabacher, that 
is what you are telling this committee, and I----
    Dr. Anastas. If I may make it clear, there is----
    Mr. Broun. Quickly.
    Dr. Anastas. --no orthodoxy in science. The only orthodoxy 
in science is the scientific method.
    Mr. Broun. Well, I am familiar with the scientific method, 
because I am a scientist as a physician. Some people would 
disagree with that, but I am an applied scientist, and I know 
the scientific method. Just arbitrarily accepting something 
when there are a lot of other data that are totally counter 
doesn't mean that something is convincing, overwhelming 
evidence, and that is exactly what you said today. That is 
exactly what we have had, testimony time after time again. It 
is just totally disingenuous scientifically for you to be 
testifying the way you are this morning.
    I yield back, Mr. Chairman.
    Chairman Gordon. Thank you, Dr. Broun, and Dr. Ehlers is 
recognized.

             The Scientific Method and Scientific Integrity

    Mr. Ehlers. Thank you, Mr. Chairman, and I start by asking 
forbearance if I go a little longer. As you know, am--I believe 
I am the only true scientist on this panel. No, no. You didn't 
let me finish. On this side of the panel. Okay, and I define 
scientist as someone who regularly does experiments, writes 
articles, tests, and has many others review and test them.
    Mr. Baird. Would the gentleman yield for one moment?
    Mr. Ehlers. Yes.
    Mr. Baird. For the record that applies to myself. I have 
published in international science journals--
    Mr. Ehlers. No. I know.
    Mr. Baird. --I want to be clear about that. Mr. Broun is 
making----
    Mr. Ehlers. No. I already stipulated to that. But I have 
maintained my silence in spite of hearing many comments, but I 
think it is time for me to speak up, and I am sorry, Mr. 
Rohrabacher left, but I hope the Chair will be generous with 
his time because I have kept my mouth shut on many occasions.
    The scientific method is, unless you used it consistently 
and thoroughly, is not always well understood by people. It is 
also not--many people think it is just so absolute, you know, 
you do the experiment, you discover something, and you write 
it, and that is it. Science is a continually-growing subject. I 
took a course from Edward Teller at one time at Berkeley, it 
did not affect my politics by the way, but he is a brilliant 
man, and he commented during one of his lectures, there are 
four stages to a scientific theory.
    The first stage is absurd. It contradicts all previous 
ideas, previous theories. A good example of that is when 
Einstein developed the theory of relativity. A lot of people 
ridiculed him, a lot of them didn't believe it, just said it is 
simply not true. It can't be. It can't be true. How can mass 
change as you move? How can light be the same speed no matter 
what the source of the light is moving, et cetera. So often the 
first response is absurdity.
    Then the second is, of course, more experimentation, more 
discussion, more talking, and you reach the second stage, which 
is, well, maybe there is something here, and then the third 
stage is--it becomes widely accepted. Some people say it is 
true. A good scientist would never say it is true because you 
are always finding new knowledge, you are always expanding. But 
at any rate, it is generally accepted.
    The fourth stage that Dr. Teller said is when it is shown 
to be either wrong or superceded. This is part of the continual 
growth process of science. Then it is scientific knowledge.
    Now, the--I think the only reason there is so much 
controversy about this particular topic is because of the 
economic consequences, which has gotten a lot of people excited 
about it. It is also important to remember that every scientist 
has his or her own specialty, and I happen to be a physicist, 
and I happen to think physics is the most precise science, 
perhaps because the research I did was accurate to parts per 
billion, and in fact, using the same principles that set the 
time standard to the world, which sets time to one second out 
of two billion years.
    Every science has its liabilities and mistakes, but it is a 
continual growth process. Now, I have heard so much about it 
has been proved that the IPCC is wrong, or it has been proved 
that such and such is not true, or that the stolen e-mails from 
various universities show that they were trying to deceive 
people. They show no such thing. That sort of discourse is 
common in science. Lots of argumentation, particularly in the 
first stage of absurd and going to maybe there is something 
there. A lot of disagreements.
    Now, as I said, physics has fewer of them because it is 
more precise. Astrophysics has a lot more disagreements. Many 
of the biological issues have very, very many disagreements. 
But the point is science just keeps going on, keeps doing more 
experience, keeps acquiring more evidence, and out of that 
eventually an agreement emerges.
    Now, I have heard this said in this committee many times. 
There are thousands of scientists who disagree with the ideas 
about global warming. I tend never to get in that argument. 
That is not my field. If I am going to make public statements 
about the results and the accuracy, I am going to study them 
very thoroughly. I am going to get involved in that science.
    But I reviewed a good part of the list of the scientists 
who say it is wrong. Most of them are not in any field related 
to the subject at hand. Many of them are little known or not 
just to me but to others I have asked about it, and these are 
not experts in the field. When you go out and answer, you go to 
the experts in the field, ask them the right questions, and of 
course, you have to understand the subject, and ask them to go 
do an experiment to prove this or that is wrong. It is not a 
matter of relying on the Russian Academy of Sciences. It is a 
matter of what does the experiment say, and how good is the 
experimenter.
    Normally, the integrity of a scientist is not questioned 
because by and large over the years anyone who doesn't have 
integrity in science is not going to be in the field very long 
because someone else is going to come along and disprove it, 
and boom, they are out of a job in seconds. But there are 
mistakes made. There is a lack of understanding, and the need 
is then for more experimentation to find out just what is going 
on.
    Today everyone believes Einstein's theory of relativity, 
but yet it still doesn't quite cover every area. There is still 
open questions there. When Newton advocated his theory of 
planetary motion, it went through that stage. The first stage 
was absurd. That can't be true. Second, people believed it. For 
centuries we used it. We used it to send astronauts to the moon 
and to get them back. That was largely Newtonian physics.
    But Einstein shows that Newtonian physics is not wrong, but 
it has been superceded. It applies in its realm of domain, 
which is slowly moving objects in our normal universe. But if 
you want to understand astrophysics, the motion of stars, the 
life of stars, you have to understand Einstein's theory of 
relativity because Newtonian physics doesn't apply there. Those 
are very rapidly-moving objects, a totally different world than 
we live in, we can't imagine it.
    But you probably heard that in elementary physics in high 
school you learn that no two objects can occupy the same space 
at the same time. That is blatantly false. They can if they are 
very tiny, atomic-size particles. Each of us is made of atomic 
and nuclear particles. We have particles in our--inside our 
body, electrons, atoms that occupy the same space at the same 
time. How can that be? That is not commonsense. But, in fact, 
it is true. Chrono-mechanics tells you it is true, and it fits 
the theory perfectly.
    So my point is simply we--I have heard a lot of debate in 
this chamber about this topic and much of it besides the point. 
The point is if you are trying to disprove the climate change 
issues or any of that thing, let us get the people together who 
can answer the question. Let us fund the research that is 
necessary. If you don't believe someone can be honest about it, 
you hire a different scientists who wants to keep his job and 
therefore, will not lie. There are lots of ways to solve this.
    But I really think the economic factor is what has 
generated so much opposition that has led to a lot of people 
saying things that are simply not true or not correct in the 
scientific sense.
    So sorry to unload all that at once, Mr. Chairman, but I 
thought I was entitled to it at one point.
    Chairman Gordon. Thank you, Doctor. I am glad to know the 
four steps of Scientists Anonymous now.
    Mr. Ehlers. Right. And also they work in politics, too.
    Chairman Gordon. Thank you. That was very informative.
    Mr. Hall, do you have any further questions?
    Mr. Hall. Just briefly.
    The professor talked about Dr. Tellers and electrons and 
experts in the field. How about experts in the EPA? You have 
some, and you do have scientists within the EPA who question 
this science. Have you spent time with them?
    Dr. Anastas. Let me be clear.
    Mr. Hall. And tell me their names if you have.
    Dr. Anastas. Well, I wouldn't be able to recite all of the 
names of all of our experts. There are just simply too many, 
and I would hate to leave somebody out.
    Mr. Hall. There is a whole bunch of them that question it. 
Is that what you are telling me?
    Dr. Anastas. No. I said we have many excellent scientists. 
I didn't say we have many excellent scientists who question it.
    Mr. Hall. Okay.
    Dr. Anastas. Let me be clear about one thing. Something 
that I have said from the day that I came onboard was that it 
is antithetical to science to have any kind of political 
interference with science, that scientific integrity means 
scientific independence, and it would be antithetical to me as 
a scientist, it would be antithetical to me as a member of this 
Administration that has pledged to engage in scientific 
integrity, to in any way interfere with the genuine scientific 
work of our experts.
    Mr. Hall. Were there some in your--within the EPA that you 
considered experts on science that disagree with your testimony 
today?
    Dr. Anastas. I have not encountered them.
    Mr. Hall. So when I tell you that there is scientists 
within the EPA that question the science, are you saying that 
that is not true? You testified that there were just a little 
bit ago.
    Dr. Anastas. Oh, I am not questioning you. I am just saying 
that I have not encountered them.
    Mr. Hall. So you didn't even discuss with them then when 
you come to the conclusion to bring this testimony to this 
committee. So you have not encountered them, but they were at 
your disposal, and why didn't you use them? Why didn't you 
question them? Why didn't you ask them and give them the 
answers that you have given us today?
    Dr. Anastas. I always----
    Mr. Hall. If you don't think that they are exception or you 
don't think they are experts in their field.
    Dr. Anastas. My greatest resource in this position is the 
expertise of the scientists, and I tap into that. In the two 
months that I have been in this position, I have been tapping 
into that expertise as deeply and as broadly as I can.
    Mr. Hall. Now, you have some more to go if you haven't 
tapped into those within the EPA that don't agree with your 
science and don't agree with your testimony. You have some time 
to do that. How much longer do you plan to be with EPA?
    Dr. Anastas. Well, I certainly will hope that through this 
long Administration and perhaps the next President will find me 
attractive as well. I--so I----
    Mr. Hall. He may find you attractive, but I don't know how 
much he is going to believe you.
    Dr. Anastas. I certainly----
    Mr. Hall. I find you attractive----
    Dr. Anastas. --meant scientifically and professionally.
    Mr. Hall. --but I don't want to get in trouble.
    Dr. Anastas. I certainly serve at the pleasure of the 
President and will look forward to continuing.
    Mr. Hall. He is a good President, and my Bible tells me to 
pray for him, and when I pray for him, God just grins at me, 
acts like he doesn't believe me, that I am sincere.
    Dr. Anastas. I believe you.
    Mr. Hall. I believe you, too, and I do want you to go back 
and find these EPA people that question this science and have 
some kind of discussion with them and then when you are back 
here again, why maybe we will get some different testimony from 
you.
    Dr. Anastas. Thank you.
    Mr. Hall. I hope I haven't been rude to you in any way. I 
don't mean to be. I just don't like what you are doing and what 
you say and who you work for.
    Chairman Gordon. Dr. Anastas, we----
    Mr. Hall. Other than that I think you are fine.
    Chairman Gordon. --recognize you have only been on the job 
for two months, and we thank you for coming. You have got an 
important job to do, and if there is no objection, then the 
witness is excused, and we will move to the second panel.

Panel II
    I will ask rather than take a break, we are going to try to 
move right in so that everybody can move forward. So as we are 
having the changing of the guard here, I will first--I would 
like to introduce our NASA Administrator, Dr. Jane Lubchenco is 
the Administrator of the National Atmospheric and Oceanic 
Administration. Before joining NOAA Dr. Lubchenco was the 
President of the American Society for the Advancement of 
Science [AAAS], a professor at Harvard and Oregon State 
University and the MacArthur Foundation Genius Award winner. I 
think that is when she met Mr. Hall as a fellow genius winner.
    Okay. Sorry that you had to wait so long. As I mentioned 
earlier, we have lots going on today, and but now we would love 
to hear from you, and you are recognized for as much time as 
you may choose.

     STATEMENTS OF JANE LUBCHENCO, ADMINISTRATOR, NATIONAL 
             ATMOSPHERIC AND OCEANIC ADMINISTRATION

    Dr. Lubchenco. Thank you very much, Mr. Chairman, Members 
of the Committee. I greatly appreciate your continued 
leadership and support of NOAA. It is particularly important as 
NOAA continues to work to improve our products and services 
that we deliver to the American people.
    As you know, on February 27 the Pacific Ocean was impacted 
by a tsunami event originating from an 8.8 magnitude earthquake 
off the coast of Chile. Fortunately, the tsunami was not as 
destructive as it could have been, but it provided a graphic 
illustration of how very far we have come in the past decade in 
making timely and accurate tsunami warnings and providing the 
public with information needed to make decisions. This event 
demonstrates that the continued investment in observations, 
modeling, research, and outreach is vital to save lives and 
protect property.
    The President's fiscal year 2011 budget request provides a 
solid foundation to continue to advance NOAA's mission and for 
meeting our most pressing needs. The request of $5.6 billion 
represents an $806 million increase over fiscal year 2010 
enacted levels and addresses a set of priorities that will 
guide our actions in the coming years.
    I would like to highlight a couple of significant areas of 
progress over the last fiscal year. In the area of climate, we 
have continued to provide climate observations and analysis 
while engaging with our partners on how to strengthen our 
climate services. We have made important progress in rebuilding 
our fisheries, recovering protected species, and sustaining the 
livelihoods and communities that they enable.
    We introduced a draft catch share policy and are committed 
to improving fisheries enforcement and our relationships with 
fishing communities and industries. We made good progress in 
meeting the mandates of Magnuson-Stevens Act, and we 
commissioned the NOAA ship Pisces, which will support fisheries 
for search in the Gulf of Mexico and the southeast U.S.
    NOAA is fully engaged in the President's Interagency Ocean 
Policy Taskforce. The release of a draft National Ocean Policy 
and a framework for coastal and marine spatial planning reflect 
a growing recognition that healthy oceans matter and that 
protecting and restoring critical habitat is essential. In 
fiscal year 2009, NOAA's Coastal Estuarine and Land 
Conservation Program acquired or put under easement over 4,000 
coastal acres.
    The 2011 budget includes new investments to strengthen our 
science and foster innovation, rebuild and improve fisheries, 
and sustain and enhance satellite observations.
    NOAA has become a global leader in reporting on the state 
of essential climate variables and proposes to establish a new 
line office called the NOAA Climate Service. I want to thank 
the Committee for all the support that you have given us for 
establishing the NOAA Climate Service.
    This office will enable NOAA to better address the growing 
needs for climate services. Our fiscal year 2011 request 
includes $435 million in support of the U.S. Global Change 
Research Program [USGCRP], with 77 million in new increases for 
core climate services and observations.
    NOAA's satellites provide the data and information that are 
vital to every citizen in our Nation. A funding increase of 
$678.6 million for a total of $1.1 billion is requested to 
support the Administration's decision to restructure the NPOESS 
Program and create within NOAA the Joint Polar Satellite System 
[JPSS].
    NOAA is requesting an increase of $62.5 million for a total 
of $730 million to continue the development of the GOES-R 
Program, to be prepared for launch near the end of 2015.
    The fiscal year 2011 budget also supports NOAA's 
responsibilities in transforming fisheries and protecting 
species. This budget includes an increase of $36.6 million to 
establish a National Catch Share Program. This program will 
provide a national framework to develop, manage, and improve 
catch share programs in fisheries across the Nation. This 
increase will also continue the transition of the Northeast 
Groundfish Fishery to sector management, as well as support new 
voluntary catch share programs in the Mid-Atlantic, Gulf of 
Mexico, and Pacific Coast regions.
    The 2011 budget request also includes an increase of $10.4 
million in the Community-Based Restoration Program. NOAA plans 
to increase fish passage and spawning and rearing habitats by 
implementing larger scale ecological restoration in targeted 
areas.
    We will continue supporting the Species Recovery Grant 
Program with a requested increase of $9.6 million. This will 
allow NOAA to provide grants to conduct priority recovery 
actions for threatened and endangered species, including 
restoring habitat, monitoring population trends, developing 
conservation plans, and educating the public.
    With a total request of $65 million, the Pacific Coast 
Salmon Recovery Fund Program will continue to leverage Federal, 
state, and tribal resources in the Pacific Coast region to 
implement projects that will store and protect salmonid 
populations and their habitats.
    NOAA's fleet plays a central role in accomplishing NOAA's 
mission. The fiscal year 2011 budget continues the 
recapitalization of NOAA's fleet, critical for data collection 
to meet fishery management's mandates.
    Overall, our 2011 budget request reflects the commitment to 
the President and the Secretary to public safety, a healthy 
environment, sound science, underpinning decision making, and 
job creation. These resources are critical to the future 
success of meeting our needs in climate, fisheries, coasts, and 
oceans, and I very much look forward to continuing to work with 
this committee and addressing any questions you may have.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Lubchenco follows:]
                  Prepared Statement of Jane Lubchenco
    Chairman Gordon, Ranking Member Hall, and Members of the Committee, 
before I begin my testimony I would like to thank you for your 
leadership and the generous support you have shown the National Oceanic 
and Atmospheric Administration. Your continued support for our programs 
is appreciated as we work to improve our products and services for the 
American people.
    NOAA's mission and priorities support Secretary of Commerce Gary 
Locke's priorities through innovation in science and technology, 
services benefiting the economy and ecosystems, and green and blue 
businesses underscored by a solid foundation of environmental 
information and stewardship. A healthy environment and a strong economy 
go hand in hand. Recreational and commercial activities, representing 
billions of dollars in economic impact, depend on healthy coastal, 
ocean and fresh water environments and the services they provide. NOAA 
is assisting communities with the data, tools, technology, training, 
and essential services and knowledge needed to make decisions in 
diverse disciplines and sectors--from the innovative management of our 
natural resources to the investments we make in public infrastructure.
    I am honored to be here as the Under Secretary for Oceans and 
Atmosphere at the National Oceanic and Atmospheric Administration 
(NOAA), one of the Nation's premiere environmental science and 
stewardship agencies. I am pleased to speak with you today regarding 
the President's Fiscal Year (FY) 2011 Budget Request for NOAA.
    The FY 2011 President's Budget provides a solid foundation to 
continue to advance NOAA's mission. This is a critical budget for the 
Administration and NOAA, and provides support for meeting our most 
pressing needs. The FY 2011 request is $5.6 billion, representing an 
$806 million increase over the FY 2010 enacted level. After careful 
consideration of the key issues facing the Nation in which NOAA is 
mandated to and able to respond, we developed a set of priorities that 
helped to shape this budget and will guide our actions in the coming 
years. These priorities include ensuring the continuity of climate, 
weather, and ocean observations; eliminating overfishing and ensuring 
the sustainability of marine fisheries; strengthening climate science 
and services; promoting healthy and resilient coastal communities and 
ecosystems; improving weather forecasts and disaster warnings; and 
strengthening Arctic science and stewardship. Before discussing the 
details of this budget request, it is important to document some 
significant areas of progress over the last fiscal year.

FY 2009 ACCOMPLISHMENTS

Climate
    In the area of climate, we have continued to provide climate 
observations and analysis while engaging other Federal agencies, the 
private sector, the science community, and many others on how to 
strengthen our climates services. In FY 2009, NOAA calculated sea-level 
trends for an additional 70 global stations. We also deployed ten 
additional Historical Climate Monitoring sites to provide high 
resolution regional climate data. Climate studies by NOAA scientists 
showed that changes in surface temperature, rainfall, and sea level are 
largely irreversible for more than 1,000 years after carbon dioxide 
emissions are completely stopped, and Arctic summers may be ice-free in 
as few as 30 years.

Satellites
    We are working to resolve many of the management challenges that 
will allow us to get our future polar satellite program ``back on 
track.'' These management challenges go back many years and resulted in 
significant delays and cost overruns. We still have a great deal of 
work to do, but this attention is critical to the continuity of the 
nation's weather and climate information. In FY 2009, our other 
satellite programs saw major milestones accomplished with the launch of 
NOAA-19, a polar-orbiting satellite, and GOES-14, a geostationary 
satellite. These satellites are critical for NOAA's weather-
forecasting, storm-tracking, and space- and climate-monitoring 
missions. NOAA satellites also provided key support in the rescue of 
184 people throughout and near the United States during FY 2009, 
providing their location to emergency responders.

Weather
    Concern for public safety drives NOAA to continue to improve the 
timeliness and accuracy of warnings for all weather-related hazards. 
NOAA is committed to enhancing timely and accurate weather and climate 
forecasts through better observations, improved data assimilation, and 
collaboration with the research community. To this end, NOAA alerted 
the communities in Upper Mid-West in early February of record flooding 
they would experience in late March and April in the Red River Valley. 
NOAA also provided a Winter Outlook in early October which has been 
spot-on in advising the American public of the conditions expected 
through February, including the El Nino-driven storms which have swept 
through the southern tier of the Nation, bringing heavy rains, snow and 
flooding from California to the Mid-Atlantic since December.

Fisheries
    We have made important progress in rebuilding our fisheries, 
recovering protected species and sustaining the livelihoods and 
communities dependent upon them. We introduced a draft catch share 
policy and are committed to improving relationships with the 
recreational and commercial fishing communities. We are exploring ways 
to improve fisheries enforcement efforts, as well as the science used 
to inform fisheries management decisions. We are also considering ways 
to expedite Endangered Species Act consultations to allow projects to 
move forward more quickly while ensuring needed species protections. In 
FY 2009, NOAA continued to make progress in meeting the mandates of the 
Magnuson-Stevens Fishery Conservation and Management Reauthorization 
Act. NOAA also commissioned the NOAA Ship Pisces, which will support 
fisheries research in the Gulf of Mexico and the Southeast United 
States.

Oceans and Coasts
    NOAA was fully engaged in the President's Interagency Ocean Policy 
Task Force, participating in and supporting every public hearing and 
attending every working group and Task Force meeting. The result of the 
Task Force's effort was the release of a draft national ocean policy 
and interim framework for coastal and marine spatial planning, the 
first time any Administration has so clearly committed to the ideal 
that ``healthy oceans matter.'' Protecting and restoring critical 
habitat is essential for healthy oceans. In FY 2009, NOAA's Coastal 
Estuarine and Land Conservation Program acquired or put under easement 
over 4,000 coastal acres.

ARRA Stimulus Funding
    The distribution and management of funding made available through 
the American Recovery and Reinvestment Act of 2009 (ARRA) is a success 
story for NOAA, as are the results of our projects. NOAA has obligated 
approximately 70 percent of the $830 million received. We have met all 
of our planned milestones and expect to obligate the remaining funds in 
the coming months. With this funding, we have infused new resources 
into the economy and also invested in critical infrastructure to meet 
NOAA's mission needs. I am particularly proud of our efforts to restore 
habitat, creating jobs as we restore ecosystems. We awarded 50 grants 
for marine and coastal habitat restoration in 22 states and 
territories, obligating $155.4 million. Many of these projects were 
located in areas of high unemployment and have provided jobs to 
Americans during a critical phase of our economic recovery. For 
example, NOAA grant recipients reported creating or saving 372 jobs for 
the period of October 1 through December 31, 2009.
    The progress we have made toward our strategic priorities and the 
improvements made to NOAA's core functions and infrastructure set the 
stage for even more success in the years to come.

FY 2011 BUDGET REQUEST HIGHLIGHTS

    The FY 2011 Budget reflects NOAA's efforts to focus on program 
needs leading to measurable outcomes, identify efficiencies, and ensure 
accountability. The budget includes new research and development 
investments to strengthen our science (including climate) mission and 
foster innovation; provides investments to rebuild and improve 
fisheries and the economies and communities they support; and proposes 
targeted investments to sustain and enhance satellite observations, 
including a major realignment of our NPOESS program.

Meeting the Rising Demand for Climate Services
    President Obama has made it clear that addressing climate change is 
a high priority, and that good government depends on and should be 
informed by strong scientific knowledge. NOAA has become a global 
leader in reporting on the state of essential climate variables. NOAA 
proposes to establish a new line office called NOAA Climate Service. 
This office would bring together NOAA's longstanding and outstanding 
capabilities--Nobel Peace Prize award-winning researchers and 
assessments, observations, predictions, training and vital on-the-
ground climate services delivery to users in climate-sensitive sectors 
and economies. A single climate office, rather than the current 
dispersed structure, will enable NOAA to better address the growing 
need for climate services. NOAA's FY 2011 request includes $435 million 
in support of the U.S. Global Change Research Program, with $77 million 
in new increases for core climate services and observations (excluding 
increases for geostationary and polar-orbiting satellites) needed to 
enable the Nation to more effectively address the impacts of climate 
change. Climate science encompasses an immense breadth of topics 
ranging from those that are well understood and documented, such as 
greenhouse gases, to those on the cutting edge of knowledge, such as 
ocean acidification and melting sea ice.
    For example, the increasing acidity of the world's oceans has the 
potential for devastating effects on marine life and ocean ecosystems, 
but the degree to which various organisms may be capable of adapting to 
a more acidic environment is uncertain. More investments in ocean 
acidification are required to reduce this uncertainty and consider 
means to respond and/or adapt. In FY 2011, NOAA requests an increase of 
$6.1 million, for a total of $11.6 million, to support new technologies 
and ecosystem monitoring systems to better assess the physiological and 
ecosystem level effects of ocean acidification on productivity and the 
distribution of commercial and recreational marine fish stocks.
    The impacts of climate change are evident on both a global and 
local scale. The Arctic, in particular, is an emerging area of 
international concern, as it continues to experience profound 
atmospheric, terrestrial, and oceanic changes related to climate 
variability and change. With an increase of $3 million, for a total of 
$6.3 million requested in FY 2011, NOAA will improve and amplify 
representation of Arctic climate processes in global climate models, 
strengthen our network of observations, and provide user-focused 
research assessments for the region.
    Scientific assessments are integral for enhancing our understanding 
of climate--both to determine how and why climate is changing, but also 
what the changing conditions mean to our lives and livelihoods. NOAA 
will provide climate assessments on both the regional and national 
levels to meet society's increasing demand for climate data and 
information. A requested increase of $10 million will establish 
regional and national assessments that will synthesize, evaluate, and 
report on climate change research findings, evaluate the effects of 
climate variability and change for different regions, and identify 
climate risks and vulnerabilities.
    Strong scientific assessments incorporate information provided by 
NOAA's climate models and carbon observing systems. Climate models are 
the only means of estimating the effects of increasing greenhouse gases 
on future global climate. In FY 2011, NOAA requests an increase of $7.0 
million, for a total of $9.6 million, to continue development of Earth 
system models to address urgent climate issues such as sea level rise, 
feedbacks in the global carbon cycle, and decadal predictability of 
extreme events. An increase of $8.0 million, for a total of $20.9 
million, will allow NOAA to continue implementation of the Carbon 
Tracker Observing and Analysis System, which is an observational and 
analysis network that measures carbon dioxide and other greenhouse 
gases. This system will serve as the backbone for verifying greenhouse 
gas emission reduction and mitigation efforts in North America.

Improve Satellite Observations and Management
    NOAA's satellites provide the data and information that are vital 
to every citizen in our Nation--from weather forecasts, to safe air, 
land, and marine transportation and emergency rescue missions, we all 
use satellite products in our everyday life. One of the greatest 
challenges that NOAA faces today is ensuring continuity of satellite 
data and operations to provide state-of-the-art, unbroken coverage that 
supports weather and marine forecasting; climate assessments and change 
predictions; and space weather forecasts. With the FY 2011 budget 
request, we will invest in multiple satellite acquisition programs for 
the continuity of critical weather, climate, and oceanographic data.
    A funding increase of $678.6 million, for a total of $1.1 billion, 
is requested to support the Administration decision to restructure the 
NPOESS program and create within NOAA the Joint Polar Satellite System. 
This large increase reflects the Administration's determination that 
beginning in FY 2011, NOAA will fully support within its own budget the 
procurement and development of the assets for the afternoon orbit. 
Restructuring the NPOESS program will allow NOAA to continue the 
development of critical earth observing instruments for the afternoon 
orbit, which are required for improving weather forecasts, climate 
monitoring, and warning lead times of severe storms. The restructured 
program separates civilian and military satellite procurements, but 
retains sharing of common assets such as the ground system and data. 
The National Aeronautics and Space Administration (NASA) will serve as 
the lead acquisition agent for NOAA, continuing the long and effective 
partnership on all of our polar-orbiting and geostationary satellite 
programs to date. There is still much work that remains, but NOAA is 
committed to working with our partners to ensure a smooth transition to 
assure the continuity of Earth observations from space.
    NOAA is requesting an increase of $62.5 million, for a total of 
$730 million, to continue the development of the Geostationary 
Operational Environmental Satellite-Series R (GOES-R) program. This 
increase will provide for the continued development of six GOES-R 
satellite instruments, the spacecraft, and ground systems to be 
prepared for launch near the end of 2015. The acquisition of NOAA's 
GOES-R series, in partnership with NASA, is progressing on track. The 
new satellites will carry improved environmental sensors to enable 
NOAA's forecasters to enhance the timeliness and accuracy of their 
severe weather warnings. Also, this next generation of GOES satellites 
will provide advances in NOAA's observation capabilities, including 
improvements to coastal ecosystems, space weather, and lightning 
observations through continued funding of instruments such as the 
Advanced Baseline Imager, Solar Ultra Violet Imager, Extreme Ultra 
Violet Sensor/X-Ray Sensor Irradiance Sensor, Space Environmental In-
Situ, and Geostationary Lightning Mapper.
    Global sea level rise directly threatens coastal communities and 
ecosystems through increased exposure and erosion, more frequent storm-
surge and tidal flooding, and loss of natural habitat due to drowned 
wetlands. NOAA's budget requests an additional $30.0 million for a 
total of $50 million to continue development of the Jason-3 satellite 
that will provide continuity of sea surface height measurements, thus 
ensuring an uninterrupted climate record of over 20 years. The Jason-3 
mission is a joint U.S.-European partnership with U.S. and European 
funding.
    NOAA requests a $3.7 million increase to partner with the Taiwan 
National Space Organization for the launch of 12 satellites to 
replenish and upgrade the Constellation Observing System for 
Meteorology, Ionosphere, and Climate (COSMIC) satellite constellation. 
This program is a cost effective means of obtaining information about 
the temperature and moisture in the atmosphere around the globe that 
will improve forecasting accuracy.
    Finally, a requested increase of $9.5 million will support, in 
cooperation with NASA, the refurbishment of the existing NASA Deep 
Space Climate Observatory (DSCOVR) satellite, its solar wind sensors, 
and the development of a Coronal Mass Ejection (CME) Imager. The data 
and information provided by DSCOVR will support the operations of the 
National Weather Service Space Weather Prediction Center, which 
generates accurate and timely 1-4 day forecasts and warnings of 
geomagnetic storms that could adversely affect power grids, 
telecommunications, the health and safety of astronauts, and the 
viability of satellite systems.

Transform Fisheries and Recover Protected Species
    Ending overfishing, improving fisheries management and putting 
fisheries on a path to sustainability and profitability are still 
challenges for NOAA. I would like to highlight areas in the FY 2011 
budget that support targeted investments to continue fulfilling NOAA's 
responsibilities under the Magnuson-Stevens Fishery Conservation and 
Management Reauthorization Act, and that will help to sustain local 
communities while restoring a number of vital fisheries stocks and 
habitats.
    NOAA recently released a draft catch share policy to encourage the 
consideration and adoption of catch shares wherever appropriate in 
fishery management and ecosystem plans and amendments, and will support 
the design, implementation, and monitoring of catch share programs. 
Catch share programs give fishermen a stake in the benefits of well-
managed fisheries, and therefore greater incentive to ensure effective 
management. To support NOAA's policy, this budget includes an increase 
of $36.6 million, for a total request of $54 million, to establish a 
National Catch Share Program. This program will provide a national 
framework to develop, manage, and improve catch share programs in 
fisheries across the Nation. This increase will also continue the 
transition of the Northeast ground fish (multispecies) fishery to 
sector management as well as support new voluntary catch share programs 
in the Mid-Atlantic, Gulf of Mexico, and Pacific Coast regions.
    Managing fisheries to their full potential requires additional 
efforts focused on habitat condition and ecosystem functioning, which 
provide the foundation for species recruitment and survival. The FY 
2011 budget request includes investments in this area through three 
vital NOAA programs that are focused on threatened and endangered 
species, but will have a resonating impact across broad goals for 
enhancing ecosystem integrity and health. First, through the Community 
Based Restoration Program, NOAA plans to increase fish passage and 
spawning and rearing habitat by implementing larger-scale ecological 
restoration in targeted areas such as wetlands. NOAA is requesting an 
increase of $10.4 million for a total of $23.8 million for this effort 
in FY 2011. Second, we will continue supporting the Species Recovery 
Grants Program in FY 2011 with a requested increase of $9.6 million, 
for a total of $20.8 million. This will allow NOAA to provide grants to 
conduct priority recovery actions for threatened and endangered 
species, including restoring habitat, monitoring population trends, 
developing conservation plans, and educating the public. Third, with a 
total request of $65 million, the Pacific Coastal Salmon Recovery 
Grants Program will continue to leverage Federal, state, and tribal 
resources in the Pacific Coast region to implement projects that 
restore and protect salmonid populations and their habitats.
    Another highlight of the FY 2011 request includes support for the 
restoration and protection of the Nation's largest estuary, the 
Chesapeake Bay. NOAA supports the President's Executive Order to 
restore the Chesapeake Bay by providing enhanced understanding of the 
relationships between the Bay's living resources and habitat, 
coordinating protection and restoration of key species and habitats 
across jurisdictional lines, and supporting a coordinated system of 
monitoring platforms distributed across the Bay. We are requesting an 
increase of $5 million, for a total of $7.1 million, for regional 
studies in the Bay. This investment will ensure NOAA has state-of-the-
art field and laboratory equipment in place in FY 2011, which will be 
used to address the mandates of the President's Executive Order in FY 
2011 and beyond.
    In addition to expanding scientific understanding in the Chesapeake 
Bay, NOAA scientists are developing integrated ecosystem assessments 
(IEA), a critical tool for understanding the interactions between 
multiple species and for helping to manage and sustain critical stocks 
and habitats. IEAs allow managers to weigh trade-offs between sectoral 
uses and evaluate the socioeconomic implications of management actions. 
Most importantly, IEAs provide guidance to ensure the most cost-
effective and informed resource management decisions. In FY 2011, NOAA 
is requesting an increase of $5.4 million, for a total $7.5 million 
investment, to focus primarily on the California Current Ecosystem, but 
to also engage work on the Gulf of Mexico and Northeast Shelf IEAs.

Vibrant Coastal Communities and Economies
    It was estimated that in 2003, approximately 153 million people--or 
53 percent of the Nation's population--lived in the 673 U.S. coastal 
counties, an increase of 33 million people since 1980. It is estimated 
that this number will increase by 12 million people by 2015. In 
addition, over half of the U.S. Gross Domestic Product is generated in 
coastal counties, highlighting their critical importance to the 
Nation's economy. This population increase is straining the limited 
land area of coastal counties. Coupled with the important economies of 
coastal areas and the demands for ecosystem services, it is becoming 
increasingly difficult to manage coastal resources in the context of 
competing uses. NOAA's FY 2011 budget provides key investments to 
promote sustainable, safe use of coastal areas and to support the 
economies of these coastal areas.
    As stated in the interim report of the Interagency Ocean Policy 
Task Force, current and future uses of ocean, coastal, and Great Lakes 
ecosystems and resources should be managed and effectively balanced. I 
would like to highlight areas in our request that support this goal and 
other Administration priorities.
    Human uses of ocean resources are accelerating faster than our 
ability to manage them. Increasing conflicts are unavoidable as demands 
increase for ocean-based energy, marine aquaculture, commercial and 
recreational fishery products, shipping and navigation services, and 
other activities. The Administration's Interagency Ocean Policy Task 
Force released the Interim Framework for Effective Coastal and Marine 
Spatial Planning in December 2009, which is aimed at enhancing and 
streamlining ocean management decisions to ensure the health of vital 
ocean ecosystems as human uses increase. Current management approaches 
are ad hoc and fragmented at the Federal, state, and local levels. NOAA 
is a leader in providing tools and services that support coastal and 
marine spatial planning efforts. Our existing programs have established 
a foundation for coastal and marine spatial planning that could be used 
government-wide across jurisdictions and sectors. In FY 2011, NOAA 
requests an increase of $6.8 million to support coastal and marine 
spatial planning, which will enhance existing efforts for sustainable 
fisheries, safe navigation, improved water quality, living marine 
resources and critical habitat protection.
    NOAA's request further supports coastal and marine spatial planning 
efforts with a $2 million increase to support the Gulf of Mexico 
Coastal and Marine Elevation Pilot to a develop robust geospatial 
framework, including high-resolution topographic and bathymetric 
datasets. These datasets will provide a better understanding of 
baseline variables needed to enhance coastal community resilience, 
wetland loss and erosion, and the potential for degradation of key 
ecosystem services. This pilot will begin in the Gulf of Mexico and be 
extended to other regions and applications over time.
    The Nation's coastal communities and economies depend on healthy 
coastal resources, which are threatened by fragmented planning and 
management of societal use of coastal lands and waters. Regional ocean 
governance mechanisms facilitate the effective management of ocean and 
coastal resources across jurisdictional boundaries by improving 
communications, aligning priorities, and enhancing resource sharing 
between local, state, and Federal agencies. Our request of a $20 
million increase will establish a competitive grants program to advance 
effective ocean management (including coastal and marine spatial 
planning) through regional ocean governance. The program will help 
support priority actions, in association with states, identified in 
plans of the existing regional ocean partnerships. Support for these 
partnerships will also encourage development of comprehensive, coastal 
and marine spatial plans, which are consistent with the President's 
Ocean Policy Task Force Interim Framework for Effective Coastal and 
Marine Spatial Planning.
    To better protect the public health of our coastal citizens and 
tourists, NOAA requests an increase of $9.5 million, for a total of 
$12.5 million, to support research into technologies that better 
detect, identify, characterize, and quantify disease-causing microbes, 
toxins, and contaminants in marine waters. These funds will be used to 
target sensor development, which will support ocean and coastal related 
Health Early Warning Systems, identify risks, and promote public 
health.
    In addition to public health hazards, coastal communities are 
vulnerable to hardship and costs associated with episodic and chronic 
natural hazards, such as hurricanes, sea-level rise, and coastal 
erosion. Our request of a $4 million increase will support the 
development of tools, such as web portals, Geographic Information 
System (GIS) products, and forecast models, to help coastal communities 
mitigate the impacts of climate and weather hazards.

Ensure Timely Weather Forecasts
    Weather impacts our lives and the economy. The United States 
experiences a broader variety of severe weather than any other Nation 
on Earth, from hurricanes in the south, east, and west, to arctic 
storms in the north. Each year, NOAA provides 76 billion observations, 
1.5 million forecasts, and 50,000 warnings to mitigate the impact of 
weather events and protect life and property. The FY 2011 Budget 
Request proposes important increases in both weather operations and 
weather research.
    Weather is a factor in over 70 percent of air-traffic delays, 
costing approximately $29 billion annually \1\. Two thirds of all 
weather delays are preventable with more accurate and timely weather 
information. To meet the rising demands of air transportation, NOAA is 
involved in a collaborative partnership with the Federal Aviation 
Administration to create the Next Generation Air Transportation System. 
NOAA requests an increase of $15.1 million, for a total of $26.7 
million, to modernize our aviation weather forecasts and warnings. This 
funding will provide much needed improvements to processing systems and 
models, as well as new products for pilots.
---------------------------------------------------------------------------
    \1\ See the Federal Aviation Administration's Research, Engineering 
and Development Advisory Committee's Report of the Weather-ATM 
Integration Working Group, 3 Oct, 2007; available at http://
www.jpdo.gov/library/FAA<INF>-</INF>REDAC<INF>-</INF>Report.pdf
---------------------------------------------------------------------------
    NOAA is dedicated to continually upgrading existing weather tools 
to keep up with growing needs and improved technologies, as well as 
investing in research to develop new products. NOAA requests an 
increase of $3.2 million, for a total of $11.1 million, to install 
additional components to the Nation's fleet of NEXRAD Doppler weather 
radars to improve their accuracy in determining the quantity and type 
of precipitation. Doppler weather radar is the primary tool used to 
issue local storm warnings for flash floods, tornadoes, and severe 
thunderstorms. Looking to the future, NOAA also requests an additional 
$6 million, for a total of $10 million, to continue developing Multi-
Function Phased Array Radar technology, which shows great promise as 
the next major improvement in weather detection. These funds will 
examine the benefits and efficiencies associated with this next-
generation radar technology. Multi-Function Phased Array Radar's 
ability to rapidly scan large areas could provide an enormous advantage 
to radar meteorologists over current capabilities, and in turn enhance 
weather and climate warnings for the public.
    Water resource and precipitation monitoring and forecasting have 
become a particular challenge with increases in population, drought, 
and frequent changes in commercial shipping needs. On an annual basis, 
the majority of federally declared disasters are due to flooding. In FY 
2011, NOAA requests an increase of $7.7 million for a total of $12.9 
million, to research, develop, and deliver water forecasting services 
for river, estuary, and coastal areas that do not currently have these 
capabilities.
    In addition, the FY 2011 Budget includes $2 million, for a total of 
$13 million, for the national Space Weather Prediction Center (SWPC). 
Millions of precision Global Positioning System users, satellite 
operators, commercial and military space and aviation activities, and 
power grid operations will be vulnerable to a new round of solar storms 
during the predicted upcoming solar maximum. This investment will 
improve information technology systems at the SWPC and enhance space 
weather alerts and warnings to avoid potential disruptions to the 
Nation's shared infrastructure on which the public relies.
    Finally, NOAA requests an additional $2.2 million, for a total of 
$14.5 million, to provide a necessary technology refresh and frequency 
conversion for our network of wind profilers. This 20-year-old system 
provides high-frequency wind data for severe weather warnings and 
watches of tornadoes, flash floods, and winter storms, short-term 
forecasts, and detection of volcanic ash plumes.

Program Support
    In order to deliver sound science and services, NOAA must continue 
to invest in its information technology (IT) infrastructure, the 
quality and construction of NOAA facilities, and recapitalization. NOAA 
experiences thousands of cyber attacks every month. A requested 
increase of $8.7 million will enhance security monitoring and response 
capabilities, and consolidate our IT infrastructure into a single 
enterprise network. In addition, NOAA needs to continue to replace key 
facilities to ensure employee safety and maintain mission continuity. 
This budget includes an increase of $14 million for the Pacific 
Regional Center which brings together NOAA programs on Oahu, Hawaii. 
While the ARRA funds we received in FY 2009 helped fund basic 
construction of the facility, additional funding is needed in FY 2011 
to procure and install the information technology infrastructure for 
the new facility. The budget also includes an increase of $5 million to 
support the replacement of the bulkhead at NOAA's Atlantic Marine 
Operations Center.
    NOAA's fleet plays an essential role in accomplishing NOAA's 
environmental and scientific missions. The FY 2011 budget continues the 
recapitalization of NOAA's fleet, critical for data collection to meet 
fisheries management mandates. A $6.2 million increase is requested to 
address vessel maintenance backlog, and to increase preventative 
maintenance rates for the fleet. An additional $7.4 million is 
requested to accelerate a planned FY 2013 Major Repair Period to 
address structural, mechanical, and electrical breakdowns of the Miller 
Freeman. Lack of repair to this valuable ship would result in lost days 
at sea and impact NOAA research. Finally, we request $3 million towards 
the design of a fishery survey vessel to replace the OREGON II, an 
aging fishery survey vessel operating in the Gulf of Mexico. Another 
$1.4 million is requested for project management of a new fishery 
survey vessel that is being built using ARRA funding.

CONCLUSION

    Overall, NOAA's FY 2011 Budget Request reflects the commitment of 
the President and the Secretary to public safety, a healthy 
environment, sound science underpinning decision making, and job 
creation. These resources are critical to the future success of meeting 
our needs in climate, fisheries, coasts, and oceans. I look forward to 
working with you, the Members of this Committee, and our constituents 
to achieve the goals I've laid out here through the implementation of 
the FY 2011 budget.
    Thank you for the opportunity to present NOAA's FY 2011 Budget 
Request. I am happy to respond to any questions the Committee may have.

                      Biography for Jane Lubchenco
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    On March 20, 2009, Dr. Jane Lubchenco, a marine ecologist and 
environmental scientist, was sworn in as the ninth and first woman 
Administrator of NOAA. Her scientific expertise includes oceans, 
climate change, and interactions between the environment and human 
well-being. Raised in Denver, she received a B.A. degree in biology 
from Colorado College, a M.S. in zoology from the University of 
Washington and a Ph.D. in ecology from Harvard University. While 
teaching at Harvard (1975-1977) and Oregon State University (1977-
2009), she was actively engaged in discovery, synthesis, communication, 
and application of scientific knowledge.
    Dr. Lubchenco has studied marine ecosystems around the world and 
championed the importance of science and its relevance to policy making 
and human well-being. A former president of the American Association 
for the Advancement of Science (AAAS), the International Council for 
Science and the Ecological Society of America, she served ten years on 
the National Science Board (Board of Directors for the National Science 
Foundation). From 1999-2009 she led PISCO, a large four-university, 
interdisciplinary team of scientists investigating the large marine 
ecosystem along the coasts of Washington, Oregon and California. She 
has a special interest in Arctic ecosystems, with recent work in 
Svalbard, Greenland and the Alaskan arctic.
    Dr. Lubchenco has provided scientific input to multiple U.S. 
Administrations and Congress on climate, fisheries, marine ecosystems, 
and biodiversity. Dr. Lubchenco served on the first National Academy of 
Sciences study on `Policy Implications of Global Warming', providing 
advice to the George H.W. Bush administration and Congress. In 1997 she 
briefed President Clinton and Vice President Gore and Members of 
Congress on climate change.
    Her scientific contributions are widely recognized. Eight of her 
publications are ``Science Citation Classics''; she is one of the `most 
highly cited' ecologists in the world. Dr. Lubchenco is an elected 
member of the National Academy of Sciences, the American Academy of 
Arts and Sciences, the American Philosophical Society, and four 
international academies of science: the Royal Society, the Academy of 
Sciences for the Developing World, Europe, and Chile. She has received 
numerous awards including a MacArthur (`genius') Fellowship, twelve 
honorary degrees, the 2002 Heinz Award in the Environment, the 2005 
AAAS Award for Public Understanding of Science and Technology and the 
2008 Zayed International Prize for the Environment.
    Dr. Lubchenco co-founded three organizations that communicate 
scientific knowledge to the public, policy makers, the media and 
industry: (1) The Leopold Leadership Program (teaches environmental 
scientists to be effective communicators), (2) COMPASS (the 
Communication Partnership for Science and the Sea, communicates marine 
sciences): and (3) Climate Central (a non-advocacy source of 
understandable scientific information about climate science and 
solutions). She co-chaired the Synthesis for Business and Industry of 
the Millennium Ecosystem Assessment, an international scientific 
evaluation of the consequences of environmental changes to human well-
being. She also served on the Pew Oceans Commission, the Joint Oceans 
Commission Initiative, the Aspen Institute Arctic Commission and the 
Council of Advisors for Google Ocean.

               Greenhouse Gas Monitoring and Verification

    Chairman Gordon. Thank you, Dr. Lubchenco. At this point we 
will being the first round of questions. The Chair recognizes 
himself for five minutes.
    This morning I read that China had sent letters to the IPCC 
asking to join in the Copenhagen Agreement with their own 
voluntary reductions in carbon. So whether or not it is 
voluntary, whether it is regulatory, or legislative, most 
countries now in the world recognize that climate change is 
real and that human activities and carbon is a major function 
in that.
    So all, you can all have the best goodwill, but there has 
to be some kind of verification, both scientific verification 
and independent verification. What are the tools that NOAA has 
in that regard? More particularly, what is NOAA's role in 
developing a network for greenhouse gas verification 
monitoring? What are the current capacities and future needs to 
support monitoring and verification, and how is agency 
partnering with other Federal agencies and international 
partners for this area of verification?
    Dr. Lubchenco. Mr. Chairman, NOAA has a key role in the set 
of observing and monitoring networks that measure greenhouse 
gases within the United States and globally. We partner with 
other agencies so that each agency does different but 
complimentary things, and there is an interagency working group 
that is taking stock of the collective assets that we all have.
    What is abundantly clear is that it is important to have 
monitoring at two different types of platforms. Some of the 
monitoring that NOAA does, for example, is land-based with 
towers that are sampling ambient air, some of what we do are 
airplane flights that sample air from a higher level than you 
can just from a tower, and some of the information that is 
gained from other agencies is more calculating what likely 
emissions are based on activities. For example, determining how 
much greenhouse gas a power plant generates, and then scaling 
that up.
    I think it is commonly agreed that you need both the bottom 
up side, such as what do we think is likely to be released, but 
also the ambient monitoring from the ground, from planes, as 
well as from satellites. You need a combination of 
complimentary monitoring systems to be able to work toward the 
kind of international verification and monitoring that you 
suggest and I agree will be needed.
    Chairman Gordon. Well, with the assets that we have now 
what level of verification, you know, would you say that we 
have? What is our ability now?
    Dr. Lubchenco. We do not have the current--we have good 
capabilities to do a lot of monitoring. It is probably 
insufficient to do the kind of global monitoring that will be 
needed if there is some kind of international agreement about 
global reductions of emissions.
    Chairman Gordon. And what additional assets do we need and 
how, if the Chinese, for example, or any country would not 
allow us to have point of source or the towers or anything of 
that nature and you are not able to have any type of a fly-
over, what--how can we monitor those areas?
    Dr. Lubchenco. There are various discussions underway about 
what additional capabilities we have that we don't now have. 
That discussion is underway, and I am not prepared to describe 
exactly what we need because the agencies are in the process of 
producing that.
    Chairman Gordon. What kind of timeframe would you project 
to, again, having those assets in place, whatever they might 
be?
    Dr. Lubchenco. I don't know the answer to that, but I will 
inquire and get back to you.
    Chairman Gordon. My time is about up. I want to--we will 
have a further discussion about the Climate Service another 
time, but now I would like to recognize Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman.

               Establishing the National Climate Service

    Ms. Lubchenco, Dr. Lubchenco, maybe you can help me a 
little bit. I want to ask you a question or so, and when I say 
NOAA, I presume a NOAA proposal probably had your agreement or 
agreement of you and your committee or those who advise you. Is 
that a correct statement? I am trying to decide whether that is 
your proposal or the proposal of a group or office people that 
studied and done some reports back to you.
    Dr. Lubchenco. Is there a specific proposal to which you 
are referring?
    Mr. Hall. Yes, madam. The proposal to create a Climate 
Service office was presented to Congress a week after the 
budget has been released. That is correct, isn't it?
    Dr. Lubchenco. That is correct.
    Mr. Hall. And at that time NOAA informed the Committee that 
it had no intention of seeking our approval. We got a good 
Chairman, we got a good committee here, we have been favorable 
to you and listened and relied on directors and under 
secretaries of the past, and I have no argument with NOAA as I 
have with EPA.
    But at that time NOAA informed us that they had no 
intention of seeking our approval as the authorizing committee. 
Instead, you planned to go directly to the Appropriations 
Committee to request a reprogramming.
    I guess my question is why are you not seeking our approval 
of the proposal? Do you have some reason to think we wouldn't 
grant it?
    Dr. Lubchenco. Thank you so much for asking that, 
Congressman. I really appreciate the opportunity to clarify 
this.
    This committee has been strongly supportive of the needs 
for Climate Services across the Federal Government. NOAA is 
also strongly supportive of that and views it as an important 
interagency effort.
    Our announcement on--in early February was the intent to do 
an internal reorganization to better position ourselves within 
NOAA to be a better partner with the other agencies and to work 
toward the suite of Climate Services that we believe the 
country needs.
    NOAA currently has very significant climate science 
expertise and delivery of services, but they are scattered in 
multiple places throughout the organization, and our proposal 
was for an internal reorganization to pull those pieces 
together. Because that is a reprogramming, the process to be 
used for a reprogramming is----
    Mr. Hall. Could you just get right to the answer? Why are 
you not seeking our approval of your proposal? Do you have a 
reason to believe we wouldn't grant it or that we were not 
capable of granting it or that it is not our position to grant 
it or refuse it?
    Dr. Lubchenco. That is just what I was getting to.
    Mr. Hall. Well, but I have just five minutes, and I have 
got to be somewhere----
    Dr. Lubchenco. I apologize.
    Mr. Hall. --at 5:00 this afternoon.
    Dr. Lubchenco. I apologize. But the reprogramming entails 
approval by the Department and by OMB and approval by the 
Appropriations Committee. That is what a reprogramming entails. 
We greatly look forward to working with this committee and with 
others who are interested in the Climate Service to think 
strategically about what it should look like, to be informed by 
the NAPA [National Academy of Public Administration] study that 
is underway, and to think about how it relates to other 
activities and other agencies.
    So it is not at all intended to dismiss the very important 
role that this committee plays or this committee's interest or 
responsibilities.
    Mr. Hall. As an authorizing committee it is our 
responsibility, and I think you must know this, to examine and 
oversee a policy shift of this magnitude, and by circumventing 
this committee's authority, you have made it very difficult for 
a lot of us to even support the plan.
    Now, what do you think the appropriate course ought to be 
for Congress to approve of a reorganization of this size?
    Dr. Lubchenco. Congressman, we are not proposing a major 
policy shift, and we absolutely do not intend to ignore the 
responsibilities of this committee. The proposal that we 
announced is an internal reorganization of existing assets. We 
currently do climate science and provide climate services, but 
they are distributed in multiple places, and we are simply 
bringing those together into a single new line office. So it is 
not a major policy shift.
    Mr. Hall. Well, let us see here. The reprogramming 
authority of the Appropriations Committee is intended to allow 
for a reorganization of agencies, usually in the form of 
creating new reporting alignments. The major reorganization you 
are proposing, and it is referred to as a major reorganization 
you are proposing, the creation of the Climate Service office I 
think is more significant and more high-profile than most of 
the reprogramming requests that I have seen. Is that a good 
statement or is that not, just not true?
    Dr. Lubchenco. I don't have the experience to know that. I 
certainly defer to your judgment on that. I think I would 
simply emphasize our willingness and intent and plea to work 
with this committee so that we can end up in a place that 
acknowledges the important role that this committee plays and 
should play as we look to the kinds of climate services that 
will be needed for this country in the future.
    Mr. Hall. But by circumventing the Committee's authority I 
think you made it very difficult for us. Do you understand why 
you have made it difficult for us, and what do you think the 
appropriate course should be for Congress to approve a 
reorganization of this size? However great or however small, it 
is important to us to know these things to where we can support 
you because we rely on you.
    And I am not arguing with you. I just wonder what your 
thinking is and why you went out of your way to discard the 
support of this committee. We have always supported NOAA, 
pretty well. I don't have the problems with you nor with your 
position that I have with the EPA. I am trying to find out why 
you wouldn't want this committee and to have the source and the 
strength of this committee supporting the moves that you are 
making, if you are proud of those moves and you think they are 
proper and--I just can't figure why you would bypass us.
    Dr. Lubchenco. Congressman, that was not the intent to 
bypass you, and I apologize that that has been the conclusion. 
It was my understanding that the reprogramming that we have 
proposed goes through a series of steps, and that is what we 
were following. But there is absolutely no intention of not 
seeking guidance from this committee. This committee has been 
very, very supportive of this, and I greatly appreciate that, 
and I am sorry that we have gotten crosswise on this, because I 
think we have the same goal in mind, and I would very much like 
to work with you as we consider how to do this.
    Mr. Hall. Well, I certainly accept that, but I think when 
you highlight your ignoring this committee, you are going to 
bring on some observation and searching and questions as to 
those that didn't have the opportunity to be here and hear your 
explanation.
    I yield back my time, Mr. Chairman.
    Chairman Gordon. Thank you, Mr. Hall.
    I will say the Administrator is also new to her job, and I 
think her feet are now wet and we will have further discussions 
about the--about this agency. I know we may not be unanimous in 
where we wind up, but it needs to be discussed, and I think 
this committee will have to take action if there is going to be 
inter--multiple agencies working together, which I think is--
will be necessary to be effective.
    Dr. Baird is recognized.
    Mr. Baird. Thank you, Mr. Chairman. I want to begin by 
associating myself with the concerns of Ranking Member from 
Texas. We have chatted about this. This committee, the 
Subcommittee that I chair had hearings. You were present at 
one. We passed a bill out with the intent, at least on the 
House side, of what the Climate Service would look like if it 
were to be created, and then were taken by surprise when we 
learned that you already had your own plans, which is okay, I 
suppose, although I share Mr. Hall's concern. I think we have a 
responsibility as an Article I branch to oversee this and to 
learn that in spite of our efforts to try to support what I 
thought were desires of NOAA, we were unpleasantly surprised.
    And so I will affiliate myself with the remarks of Ranking 
Member Hall on that. I want to move onto another topic, but I 
want to put that marker down that we take that responsibility 
very seriously, and we hope you will as well.

                          Ocean Acidification

    I am pleased to see that there is a significant increase in 
funding for ocean acidification on a more positive note. We--I 
doubt you are aware, watching the prior testimony maybe you 
were, if you had been, there was a rather spirited discussion 
about the climate change issue, and you are unquestionably one 
of the most respected ocean scientists in the world in my 
judgment, and your resume which the Chairman read at the start 
speaks for itself.
    How serious do you think the issue of ocean acidification 
is, and do you think it is related to human, to anthropogenic 
CO<INF>2</INF>?
    Dr. Lubchenco. Congressman, I believe that ocean 
acidification is one of the most serious issues facing us. It--
we know that the oceans have increased in level of acidity by 
30 percent since the beginning of the Industrial Revolution. We 
know that the reason that it is increasing in acidity is that 
carbon dioxide is being absorbed by the oceans from the 
atmosphere, and as carbon dioxide goes into water it makes it 
more acidic very simply. And that, in turn, creates very 
serious challenges for at least some very important marine 
life, ranging from microscopic plants to corals to many animals 
and plants, anything that has a shell or a skeleton made of 
calcium carbonate.
    We don't begin to understand the full consequences of this 
increase in acidity. It underscores the urgency of reducing 
carbon emissions as rapidly as possible because there is a long 
time lag in terms of bringing things back to normal, if you 
will. The proposed increases in our budget this year will 
continue to give us information about the extent of the 
problem, how uniform it is from one place to another by 
establishing good monitoring, and getting a much better handle 
on the consequences of changes in ocean chemistry to at least 
some of the important species.
    I fully acknowledge that it is nowhere near as much as we 
probably need to be doing, but it builds very strongly on what 
we have begun and will be a very important contribution.
    Mr. Baird. I applaud you for that effort, and I just think 
it is a critical, deeply troubling problem.
    Part of that issue of monitoring acidity has to do with 
how--what kind of instruments we are able to put in the water, 
and I just put this out there. I am familiar with the device 
that is sort of a self-swimming monitoring platform that has 
actually succeeded in traveling from Hawaii to our coast and 
back and without any motors, without any external energy, just 
on the wave motion itself. It seems to me a pretty remarkable 
device. I hope NOAA will consider test piloting a mini group of 
those so we can see if they are viable with the instrumentation 
that we have seen at PNNL [Pacific Northwest National Lab] and 
other places.

                    Permitting and Regulatory Issues

    Two other quick questions. One, we have a huge issue of 
permitting in our region as you know very, very well. Virtually 
anything we do with excel monids and other freshwater species 
as well. Is your budget taking into account the needs for 
permitting to make expeditious permitting decisions in our 
northwest region, because the delay in permitting costs us 
hundreds of millions of dollars over the course of time.
    How does your budget deal with the regulatory side of 
NOAA's mission?
    Dr. Lubchenco. Congressman, are you referring to permits 
that relate to Endangered Species Act----
    Mr. Baird. Exactly. Right.
    Dr. Lubchenco. --and Mammal Protection Act?
    Mr. Baird. Right.
    Dr. Lubchenco. The permits that we issue do inevitably take 
some time. That said, we are behind in issuing them in as 
timely a fashion as we would like, because we don't have the 
resources to do that, and that is very frankly an impediment.
    Mr. Baird. So that is an area where we might want to see a 
budget increase, just the personnel can't handle the demand.
    Thank you for your frank answer, and thanks for your 
service.
    Chairman Gordon. Dr. Broun is recognized for five minutes.
    Mr. Broun. Has Dr. Ehlers already----
    Chairman Gordon. He will be--he will have his opportunity 
after you. You arrived first.
    Mr. Broun. Well, thank you, Mr. Chairman.

               Structure of the National Climate Service

    NOAA's identified which assets would be moved in order to 
create the new Climate Service office. These include major 
parts of the Earth Systems Research Lab and the Geophysical 
Fluid Dynamics Lab at Princeton. But these labs are conducting 
major weather-related research activities. In fact, ESRL, the 
Earth Science Research Lab, was--the consolidation of five 
separate Colorado-based laboratories only five years ago.
    How do you--now you are proposing to split them up again. 
Why is that?
    Dr. Lubchenco. Congressman, the existing Climate Science 
and delivery of Climate Services is now scattered in many 
different places within NOAA, a number of different line 
offices. The ones to which you have referred are ones that are 
currently part of the Office of Oceanic and Atmospheric 
Research.
    None of those offices would move physically. None of those 
people would move physically, but like many NOAA programs, the 
specific labs that are appropriate to this NOAA Climate Service 
would be move into that new line office, and it is because they 
will have--it is because we believe it is important for the 
climate sciences and service delivery functions to be closely 
affiliated with each other to continue to strengthen the 
science and to continue to have the services reflect the latest 
science.
    Mr. Broun. Well, I believe if something ain't broke, don't 
fix it, and I think we are fixing something that ain't broke, 
but--or maybe it is broke but anyway. How much of ESRL's 
physical sciences division is climate research versus weather 
research?
    Dr. Lubchenco. Congressman, I don't have that breakdown on 
the top of my head, but I would be happy to get it for you.
    Mr. Broun. It is my understanding 80 percent is weather. 
How much of ESRL's chemical science division is climate versus 
weather research?
    Dr. Lubchenco. I don't know that either, sir.
    Mr. Broun. I understand one-third is weather. How much of 
GFDL [Geophysical Fluid Dynamics Laboratory] in Princeton is 
non-climate?
    Dr. Lubchenco. I am not aware of any but----
    Mr. Broun. Well, I think about 20 percent is weather 
modeling. What do you plan on doing with those assets in these 
divisions that are not climate related but are now moved into 
the Climate Service? So you have got--I just gave you some data 
about non-weather-related issues. What are you going to do with 
them?
    Dr. Lubchenco. Congressman, there is really a continuum 
between climate and weather, and this is part of our challenge, 
and we had very long discussions about the appropriate place 
for these entities, and I think your question is really 
pointing out a very fundamental reality, and that is that 
regardless of where any particular lab resides in NOAA's 
structure, it needs to be able to relate effectively and 
efficiently to other structures. The same is true for 
fisheries, for example, or for----
    Mr. Broun. Well, let me interrupt you just a minute, 
because I am about to run out of time. I don't think that 
breaking up ESRL is a good idea, particularly when it was 
consolidated just five years ago, and you have got--I think 
your plan is flawed, and I hope you will reconsider that.

                          Recreational Fishing

    As an individual who got involved in politics, I began my 
political activism because of my conservation ethics and 
because I am a hunter and a fisherman, and the agency Ocean 
Policy Taskforce is apparently talking about instituting policy 
that would lead to a ban of recreational angling in the United 
States.
    And, in fact, I just got an e-mail today from a friend of 
mine who lives in Louisiana, very concerned about the 
Department's policy on this. Please give me assurances that 
recreational angling will certainly be considered, as well as 
commercial fisheries, because it is the lifeblood of a lot of 
coastal communities, and we can conserve our resources. We 
don't have to just necessarily protect those, but would you 
please reassure me and the angling public, whether it is 
commercial or recreational, that their issues are going to be 
taken into consideration.
    Dr. Lubchenco. Congressman, I firmly believe that both 
commercial and recreational fishing are vitally important to 
this Nation, and part of my focus at NOAA has been doing a 
better job of working with both recreational and commercial 
fishermen because they are important, their interests are 
important, and I think as we move ahead with considering all of 
the activities that are affecting or interacting and competing 
for space on the water, if you will, those interests are 
absolutely part of NOAA's responsibility to represent.
    And I have told recreational fishermen exactly that.
    Mr. Broun. Well, they are not convinced at this point and 
neither am I when you look at the list of organizations that 
are pushing for this ban that NOAA is listening to evidently 
very loudly. They think it is cruel and unusual treatment of a 
fish to hook him in the mouth with a hook. I guess that is 
cruel and unusual to take them home and eat them, too, which 
some of these critters are good to eat.
    Dr. Lubchenco. Congressman, we are not proposing any 
blanket ban on recreational fishing. I would strongly oppose 
that, and that is not in the works.
    Mr. Broun. Well, like I say, the recreational fishermen of 
this country aren't convinced of that, and I think you can do a 
better job in convincing them that their recreation, their 
sport, and some of them's livelihood is not going to be 
threatened by your department.
    Thank you so much. My time is up, and I yield back.
    Dr. Lubchenco. Mr. Chairman, could I add one quick note?
    Chairman Gordon. Sure.
    Dr. Lubchenco. Congressman, we have convened a summit with 
recreational fishermen for next month, and it is explicitly 
with the intention of talking about these kinds of things and 
clearing up many of the misconceptions, but also working with 
them to identify solutions that will enable recreational 
fishing to thrive and continue.
    Mr. Broun. How about commercial fishing, though? Is that--
is your guidance to ban commercial fishing?
    Dr. Lubchenco. Not at all, sir.
    Mr. Broun. Okay. Well----
    Dr. Lubchenco. It is also vitally important to this Nation.
    Mr. Broun. Thank you, madam.
    Chairman Gordon. So, Dr. Broun, your fishing pole is safe.
    And Ms. Edwards is recognized.

                           The Chesapeake Bay

    Ms. Edwards. Thank you, Mr. Chairman, and since I am a 
fisherperson, too, I am glad to hear that.
    Dr. Lubchenco, thank you very much for being here today and 
for your testimony. I want to just ask you a couple of 
questions.
    One is about the work that you have been doing in pursuit 
of the President's Executive Order on the Chesapeake Bay, and 
if you could describe that, and I note in your request that you 
will see an increase from $5 million to $7.1 million for 
regional studies in the bay. What other studies need to be done 
to carry out what the President has ascribed in his Executive 
Order?
    Dr. Lubchenco. Congresswoman, the interagency group that is 
working collectively on the Chesapeake has sort of divvied up 
responsibilities for different kinds of activities among the 
different relevant agencies. NOAA is one of those. It is not 
the lead agency. Our responsibilities for the Chesapeake 
involve a significant amount of monitoring so that we can have 
a better handle on water quality, of habitat restoration, and a 
number of other activities that are in support of the overall 
effort.
    I believe that this is a very important collective effort. 
The situation has simply not gotten better through time, and it 
is--the Chesapeake is too important a system to not be put on a 
path to recovery, if you will. And we are very dedicated to 
fulfilling our part of the interagency responsibilities to move 
to a much better place for the Chesapeake.
    Ms. Edwards. Do you see any barriers to being able to 
complete your work, and I speak particularly to the, you know, 
the challenges of getting the several jurisdictions to do what 
they need to do at the state level in order to proceed?
    Dr. Lubchenco. Congresswoman, that really--it really is one 
of the challenges. It is the multiple jurisdictions that are 
responsible for different actions. For example, much of the 
nitrogen that is flowing into the Chesapeake comes from 
multiple watersheds, and there are different practices and 
policies in those watersheds, and having that distributed 
source of nitrogen addressed is inevitably very, very 
difficult. And that has been one of the longstanding 
challenges, I think everybody recognizes it. And I am hopeful 
that this push will begin to address it more effectively.
    Ms. Edwards. But does that--would that impede any of the 
work that you are anticipating doing in this next fiscal year?
    Dr. Lubchenco. No, Congresswoman, our work is--that work is 
more work that is being done by other agencies, and our 
responsibilities are very much on the monitoring, on the 
habitat restoration, and we have some magnificent habitat 
restoration projects in that area that are restoring coastal 
vegetation that is very important in helping to absorb 
nutrients that are coming down the streams, for example.
    And so our--I am enthusiastic about our part of this 
program.

          The NPOESS Program and Joint Polar Satellite System

    Ms. Edwards. Thank you. I have another question that is 
actually related to the NPOESS Program. The budget proposes 
$806 million for fiscal year 2011. I can't say that anymore. 
But for fiscal year 2011 out of that increase roughly $677 
million has been requested for restructuring the NPOESS Program 
and creating the Joint Polar Satellite System. That is almost 
84 percent of the proposed increase, and I know we had 
testimony before this committee, there have been challenges 
around interagency coordination and management challenges.
    And so I wonder if you could speak to that history, and 
give us an idea of why you need that level of increase for the 
Joint Polar Satellite System.
    Dr. Lubchenco. Thank you very much for that, Congresswoman, 
because this is a key part of our budget request this year, and 
I am delighted to have a chance to speak to it briefly.
    As this committee knows, because you have called for eight 
reports from GAO in the last nine years, that this program has 
been one that has suffered very, very significant challenges, 
and you alluded to one of the primary challenges, and that was 
the management structure that entailed a tri-agency mechanism 
for trying to do joint procurement when, in fact, the agencies 
are very different in size, in culture, in requirements for 
this program.
    The Administration's proposal to restructure NPOESS tees 
off directly from these GAO reports as well as an independent 
review team that made a series of recommendations, and the 
restructuring entails addressing this management challenge head 
on by separating the procurement for the instruments and the 
satellites for the morning orbit. That will be done by the 
Department of Defense, because the morning orbit is 
particularly important for our military needs. NOAA and NASA 
will have responsibility for the afternoon orbit, which is 
more, much more important for our weather predictions and for 
climate information.
    So each of us will have responsibility for procurement of 
the assets relevant to our orbit, but we will continue to share 
the parts of the program that were working well, which are the 
ground systems, and so this new restructuring, creating the 
Joint Polar Satellite System that NOAA and NASA will be 
responsible for. I think this is a major step forward, and it 
is an opportunity to put this program back on track. Because 
the program is so vitally important to the national interest, 
it is important to get it back on track.
    I believe that the restructuring now has much more 
realistic budget estimate, which is part of what is in our 
request, a stronger government technical team, a procurement 
approach that allows early identification and restructuring of 
problems, and a management structure that can proactively 
manage.
    And so I think there was broad acknowledgment that the 
resources in the program were insufficient to accomplish its 
mission, but there was very little appetite in putting more 
resources into a dysfunctional management structure. And now 
that the management structure is, I think, in a position to 
succeed, the resources that are in our budget will enable that 
to happen.
    Ms. Edwards. Okay. My time has long expired. Thank you, Mr. 
Chairman.
    Dr. Lubchenco. Sorry. That was a long answer.
    Chairman Gordon. Well, it is an important question. It is 
one that this committee has dealt with, and we shake our head 
and think about how better we could have spent that money, but 
we are where we are. I feel that the Administration, you know, 
is focused on that, and that is a good place to start.
    Dr. Ehlers is recognized.

                     Asian Carp in the Great Lakes

    Mr. Ehlers. Thank you, Mr. Chairman. Most of the questions 
I might have asked have been asked, but I raise just two minor 
issues which are not really questions but will certainly lead 
to some.
    We have a major problem in the Great Lakes with the Asian 
carp coming up the Mississippi River, and you have heard the 
discussion about the private fishermen and the commercial 
fishermen. That is really amplified in the Great Lakes. We have 
something like--just in like Michigan $7 billion a year as a 
result of that. In the Great Lakes system it is close to $18 
billion, and that is at stake here.
    And I certainly hope that NOAA will be very active in the 
scientific work that is going on. I know the Army Corps is 
involved. They have moved at a very, very slow pace. I have 
been talking to them about this for over ten years. Finally now 
they are getting serious action.
    But EPA is involved. I think, I hope that you keep a close 
eye on that, because I think NOAA probably has the most 
scientific credibility in dealing with the problem, at least 
most aspects of the problem. So I urge you to become actively 
involved, and if you--if NOAA is not totally involved by the 
other parties, I hope that you will volunteer their services.
    Dr. Lubchenco. Thank you, Congressman, and I--your 
assessment, I think, is absolutely correct. That fishery is 
very, very valuable and is at great risk.
    Mr. Ehlers. Yeah. I mean, it has been so frustrating to me. 
I always have had a long time planning horizons. I started 
working on this in 1995. I just could not get people excited 
about it.
    Dr. Lubchenco. Uh-huh.
    Mr. Ehlers. Now that the fish are almost in the lake 
everyone is excited, and it is--it may be too late.

                           A NOAA Organic Act

    The other issue is something that I have also worked on a 
very long time, and that is a NOAA Organic Act.
    Dr. Lubchenco. Uh-huh.
    Mr. Ehlers. It passed the House several years ago, and it 
was too late in the year for the Senate to take it up. I was 
assured it would be the following year, and the politics 
changed, and it never has been.
    Part of the problem is that we have multiple--well, you 
have multiple jurisdiction, two different committees. We are 
interested in the portion of NOAA that deals with the 
responsibilities of this committee, but we have not been able 
to get that bill through the other committee that has 
jurisdiction over many of your activities.
    I would appreciate, and I believe the Chairman agrees with 
me on this, appreciate anything you can do to convince everyone 
necessary that you really want the NOAA Organic Act that we 
have prepared. It seems to me absurd that we have an agency 
that was created by Executive Order, what is it? Almost 40 
years, 35?
    Dr. Lubchenco. 1970.
    Mr. Ehlers. Yeah. And it just doesn't make sense, and the 
National Science Foundation, which is another major research 
organization, started out with an Organic Act----
    Dr. Lubchenco. Uh-huh.
    Mr. Ehlers. --and has proved invaluable to them. So this is 
something that should happen.
    Now, if the fish people don't like our Organic Act, that is 
fine. You know, there is always something fishy somewhere, but 
I would hope that you could do whatever you can to persuade 
everyone who has anything to say on this that at the very least 
we should pass the portion of the Organic Act that we have and 
recognize fully as we do that we are not impeding on the 
jurisdiction of the other committee, and we are not trying to 
change their activities.
    And then if they wish to write an Organic Act for their 
activities, that is fine, but they have been trying to rewrite 
or stop our portion, which is a major part of your work.
    So that is a plea for cooperation from everyone involved in 
the Congress and the agencies and may even go up to OMB and the 
President in terms of resolving this.
    Dr. Lubchenco. Yes, Congressman, I greatly appreciate your 
continued interest in this. NOAA would welcome an Organic Act. 
I think you are absolutely correct. It is appropriate. It may 
be useful for you to know that we have just received a letter 
from the Senate Commerce Committee on this very subject, and I 
believe there is keen interest on their part in seeing 
something happen as well. So we look forward to working with 
you on this.
    Mr. Ehlers. Well, as you probably know, my time is limited. 
I will be out of office at the end of the year, so I hope we 
can get it all done this year. Thank you.
    Chairman Gordon. Dr. Ehlers, we want to let that be one 
more tribute to you, and we have had discussions with the 
Natural Resources Committee. I think there has been a 
legitimate good faith. Tomorrow at 1:00 the majority and 
minority here will be meeting with their staff, and we are 
going to continue to try to move this bill forward.
    So hopefully we can give you a going away present.
    Mr. Ehlers. Thank you, and I appreciate your constant 
support of this difficult issue. It is very important that you 
have done your work, and I very much appreciate that. Thank 
you.
    Chairman Gordon. Ms. Dahlkemper is recognized for five 
minutes and then followed by----
    Ms. Dahlkemper. Thank you, Mr. Chairman. I wanted to ask--I 
got to hear your answer regarding the issue with the fishing, 
sports fishing, commercial fishermen. You talked about a 
summit. Can you tell me where that is going to be and when?
    Dr. Lubchenco. It will be here in Washington, DC. It is 
early April. I could guess at the date, but I might be wrong, 
so I will look it up and----
    Ms. Dahlkemper. Will there be any opportunity for 
Congressional input into this summit?
    Dr. Lubchenco. I think that is an excellent idea. As far as 
I know that has not been built into the program, but I think it 
would be a useful thing for us to work with you on.
    Ms. Dahlkemper. I would appreciate that. I reside on Lake 
Erie, and I am the only part of Pennsylvania that has Lake 
Erie. We have the smallest border of any state on the Great 
Lakes, but it is very important to the industry and to our 
economy.
    And with that I will yield back. That was the only question 
I had. It was already answered. Thank you.
    Dr. Lubchenco. Thank you.
    Chairman Gordon. Got the job done there.
    Mr. Wu is recognized.

                         Some General Comments

    Mr. Wu. Thank you very much, Mr. Chairman, and Dr. 
Lubchenco, I want to congratulate you on adjusting to this 
Washington and congratulate you also on starting some very good 
work, and perhaps given Dr. Broun's concerns about fish and 
fishing, perhaps the best way to put those concerns to rest, 
Dr. Lubchenco, is that you and Dr. Broun and I could go home to 
Oregon and do a little fishing. I understand there is a good 
run of salmon coming this year.
    I want to pay particular homage to Mr. Baird who is 
retiring. I note that we have Dr. Ehlers and the Chairman, who 
are retiring, and so we have three right now, three excellent 
Members. I hope that it is not an infectious process, but I 
want to thank you all for tremendous leadership of this 
committee.
    And Dr. Baird in particular, there has been no stronger 
advocate for the oceans and, in fact, no more passionate 
concern about ocean acidification. Now, it takes a special 
person to become passionate about ocean acidification, but it a 
very, very serious, very serious topic. It is not just the 
reefs and all the biodiversity that is on those reefs which is 
at threat, but the very basis of the food chain in our oceans 
is at threat because so much of planktonic life has a carbon--I 
mean, sorry, a sulken shell, which--and I am sorry. I am 
getting close enough. Calcium.
    Dr. Lubchenco. Calcium carbonate.
    Mr. Wu. Calcium carbonate. It has been a long time since 
college, and Brian, you have been a good neighbor, a good 
fellow, Member of this Committee, and I think that what you 
have done to put ocean acidification on the issue map is a 
strong sign to all that one person can make a difference, and 
we will miss you on this committee and miss you in this 
Congress, as we shall miss Dr. Ehlers and the Chairman.
    Dr. Lubchenco, I would like to ask----
    Mr. Ehlers. Will the gentleman yield?
    Mr. Wu. Absolutely if the Chairman will make it up to me 
since I have----
    Mr. Ehlers. Yeah. This will be very brief. I just want to 
thank you for your comments but also add to your comments about 
Dr. Baird. I have worked with him on a different subcommittee 
last time, and he has been an outstanding person to work with, 
and what I particularly appreciated is with his social science 
background he brought a unique perspective to this and made the 
whole Committee aware of the importance of the social science 
as a science in dealing with all the issues we deal with. And 
that I think has been a major contribution.
    So from that standpoint this committee loses much more with 
you than with me, because I am just a state physicist. You are 
talking about passion. I am Dutch and physicist. I don't even 
know what passion is.
    Thank you.

              The Relocation of NOAA's Pacific Operations

    Mr. Wu. Thank you very much, Dr. Ehlers, and I also want to 
add that you were a terrific Chairman of the Subcommittee when 
I was the Ranking, and we worked together well when I was the 
Chairman and you were the Ranking, and I think that is the way 
that committees ought to work, and that is a good form of 
nonpartisanship.
    Dr. Lubchenco, first of all, I want to applaud you for a 
notice decision last August to relocate the Pacific fleet to 
Newport, Oregon. This decision I believe reflects NOAA careful 
and balanced consideration of the relevant facts as well as 
Newport's ability to provide the most functional location for 
NOAA's Pacific operations for the lowest cost to taxpayers.
    It is further my understanding that Newport demonstrated 
the strongest capacity among all applicants to meet NOAA's 
needs, and I would like you to please speak to the process that 
NOAA undertook in considering potential sites for the NOAA 
fleet and specifically how bids were solicited, what qualities 
NOAA was looking for when searching for its new home in the 
Pacific Northwest, and what specific factors led NOAA to the 
conclusion that Newport offered the fleet the most functional 
location at greatest value to taxpayers.
    Dr. Lubchenco. Congressman, thank you. It is nice to see 
you again. The process that NOAA followed follows the 
guidelines set out by GAO and entailed a description of the 
different requirements for the facility, both in terms of the 
ability to house up to four vessels at one time and the ability 
to have located adjacent to that the people that need to be in 
close proximity to the vessels.
    We laid out a series of technical requirements, had an 
open-bid process, and reviewed all of those proposals based on 
their technical merits, the extent to which they met the 
technical requirements that had been articulated, and then 
rated them on the value proposition, with the intent of finding 
the best deal for the American taxpayer essentially. And I was 
not part of the process when it was set up. I was not part of 
the process as it played out. I came in sort of at the tail end 
of this process, and the decision that was made reflected the 
fact that the Newport offer was the highest technically rated 
and for the least cost. So that was pretty much in a nutshell 
the basis of the decision.
    Mr. Wu. Well, Dr. Lubchenco, you know, I note that you were 
last at Oregon State, but there is no question about geographic 
origin here, because I note that you taught at Oregon State, 
the Secretary is--was governor of Washington State, so one 
assumes that there is reasonable balance and that this is a 
decision on the merits and will remain so.
    Mr. Chairman, will there be another round of questions?
    Chairman Gordon. That is up to Dr. Ehlers.
    So why don't we--certainly if you have some more questions, 
why don't we go to the return of Mr. Rohrabacher, and we will 
then--anyone that has anything else, we will--we want to be 
courteous to Dr. Lubchenco, but then we will move forward.

             Satellite and Space Transportation Capacities

    Mr. Rohrabacher. Thank you. You know, this is an issue that 
actually has been around for awhile, and but it ties directly 
to something the Administration has done in another area of 
science. The Administration seems to be deciding that it is 
going to permit us to be dependent upon private sector space 
transportation systems in the future, and they just, of course, 
zeroed out the request for the Aries rocket and the 
Constellation Program.
    I seem to be the only one on this committee that has had a 
positive reaction to that, but it leads me to ask a question of 
NOAA. Years ago I remember there were similar proposals that 
the NOAA fleet actually, like you would say, the NASA fleet of 
rockets is not necessary because you could actually contract 
out to the private sector at a lower cost.
    Has that been looked at at all as an alternative?
    Dr. Lubchenco. Congressman, I believe that when NOAA 
formulated its Fleet Recapitalization plan a number of years 
ago, well, before I was affiliated with NOAA, that there were--
that that alternative was taken into account. I think it is the 
case that we currently do utilize some private, especially 
fishing vessels----
    Mr. Rohrabacher. Uh-huh.
    Dr. Lubchenco. --for a number of important platforms. We do 
a lot of cooperative research with them, but even for other 
kinds of sensing we utilize them. But the ships that we have 
have very unique capabilities or need to be able to deliver--be 
platforms for unique things that cannot be easily done on a 
commercial fishing vessel for example.
    Mr. Rohrabacher. Uh-huh.
    Dr. Lubchenco. On the other hand, for many of the 
hydrographic surveys we currently do utilize private vessels 
for a number of those. I don't have the breakdown. It is a 
combination.
    Mr. Rohrabacher. Well, you might take a look. If they are 
trying to make every penny count, which we have to do these 
days--otherwise we won't have enough money to bailout Wall 
Street and give big bankers money after they have given 
themselves billions of dollars of bonuses over the years, so 
now we have to cut back on NOAA or NASA or whatever.
    Well, anyway, that is a whole other issue, not concerning 
you, but if we can save taxpayers some money by contracting 
out, just like, for example, in NASA relying on private rocket 
companies rather than having NASA do something at a much 
greater expense, that may make some sense.

                     The Science of Climate Change

    Let me get--I have an article here talking about how the 
cold weather is killing huge areas of the coral down in 
Florida, and let me just note that I thought it was global 
warming that was causing all of this trouble with the ocean. 
Some people tell me that there hasn't been any significant 
warming for 15 years, and other people say, no, no. The manmade 
global warming, it is still on the way.
    Has there been warming in the last let us say five to 10 
years?
    Dr. Lubchenco. Congressman, we just completed the warmest 
decade on record.
    Mr. Rohrabacher. That is odd, because just, I mean--for 
someone to say that as we have just passed through the coldest 
time period in California that I can remember, I mean, I don't, 
I honestly don't remember a colder time period in California. I 
think that across this country there is very few people that 
can remember a colder time period than these last few years.
    So how is it that we have--we completed the hottest decade, 
or does that mean that we completed a decade in which there was 
a high year and that was the highest year there was in a number 
of years? Or was it a temperature or that the temperatures all 
were up?
    Dr. Lubchenco. Congressman, there is a long-term warning 
trend that is underway and for which there is very good 
evidence.
    Mr. Rohrabacher. Uh-huh.
    Dr. Lubchenco. And there is year-to-year variability in 
that that is short-term climate variation, and this year, for 
example, if we just highlight this year, there are two 
phenomena that are known to vary from year to year. One is El 
Nino, and one is something called the Arctic Oscillation, and 
those two, again, vary from year to year, and are sort of 
superimposed upon the long-term warming of the planet that is 
underway.
    Mr. Rohrabacher. My time is just up now, but let me just 
note. This debate could go on a long time because I obviously 
disagree with that--with some of your premises there, but let 
me just note there are--and I would submit for the record at 
this moment the names of 100 major prominent scientists, some 
of them heads of major science departments at universities 
throughout the country, who disagree with that assessment about 
the long-term global warming.
    Thank you very much, Mr. Chairman.
    [The information follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Gordon. Dr. Baird is recognized.
    Mr. Baird. I actually want to clarify for my good friend 
from California that it is not anthropogenic CO<INF>2</INF> 
that caused the apparent cooling of California. It is Mr. 
Rohrabacher himself. The reason for that is is it would be a 
cold day in hell when Dana Rohrabacher quoted the Russian 
Academy of Scientists, and hence we have ascertained the cause 
of the apparently cold snap in California.
    I want to, on a more serious note, thank my dear friend, 
Mr. Wu, and neighbor to the south for his kind comments and Dr. 
Ehlers as well. The feelings are mutual on both sides. We will 
have time to get even more maudlin as the year goes on, but I 
am grateful for your kind words and for the privilege of 
serving with you.

             The NOAA Aquarius Lab and Harmful Algal Blooms

    Two quick things. One, I just want to put a quick marker 
down. As you know, I am--I have been to the Aquarius Lab. I 
just think it is a treasure, and I hope it is well funded in 
the budget. I haven't seen that line item. Maybe you can 
address that very, very briefly, but I think they do remarkable 
work there, not only for science itself, NOAA's science 
mission, but also as a platform for training for NASA 
astronauts, Navy SEALs, and others. And I know they have been 
through a rough spell lately, but I am a big believer in 
Aquarius.
    Finally, we unfortunately failed to pass under suspension 
yesterday a bill that I authored on the harmful algal blooms 
and hypoxia, and I wonder if you could just briefly talk about 
as a scientist about those issues, you know, in a one-minute 
summary of why harmful algal blooms and hypoxia matter.
    Dr. Lubchenco. Congressman, the Aquarius Laboratory is an 
important asset, and as you know, we are nearing the end of a 
review of our entire diving program with the idea of making 
sure that it is as safe as possible for everyone involved, and 
there will be recommendations coming from that. There are not 
significant increases that are proposed for that program. We 
are sort of waiting to see exactly how the recommendations are 
going to play out, and then we will be implementing them.
    Mr. Baird. If I may, but there is no plan, so zero funding 
out? You are at least holding it even I trust?
    Dr. Lubchenco. That is my understanding.
    Mr. Baird. Okay. Thank you.
    Dr. Lubchenco. Harmful algal blooms are not unheard of in--
let me start that over. Harmful algal blooms are outbreaks, an 
explosion in growth of some microscopic plants typically, and 
they are increasing in frequency and severity and duration, and 
many of them result in the production of toxins that can be--
that can kill fish or produce threats to human health. Many of 
them also result in using up--when the microscopic plants begin 
to decay, the bacteria that are decomposing then use up all the 
oxygen in the water, and that creates a dead zone as an area of 
insufficient oxygen for most animals.
    And so you can also get fish kills because there is not 
enough oxygen or because there is a toxin. Both are very, very 
important. Many of them are--many of these harmful algal blooms 
are increasing because of runoff of nutrients from the land, 
and they are a very serious threat to many fisheries and to 
tourism, to many coastal--to the health of many coastal 
communities, and our activities, thanks to the interest of you 
and others, have been increasing over the years, but they are 
not at the scale that they could or should be.
    Mr. Baird. I appreciate that. I just for the record observe 
that some of my colleagues today who have expressed great 
concern for hunting and fishing did not support this 
legislation, and I would say from those who care about the 
health of marine systems, both freshwater and salt water, 
species are greatly endangered by both harmful algal blooms and 
hypoxia, and I would hope as is, as you mentioned, tourism, 
especially on the Florida and Gulf Coast and my own coast is 
affected.
    So I appreciate your insights into that, and thank the 
Chair for a second round.
    Chairman Gordon. Yes, sir, Dr. Baird, and with no objection 
Mr. Rohrabacher's list will be resubmitted for the record.
    And Mr. Hall is recognized.
    Mr. Hall. I just came back to get some things I left. I 
thought you would surely be through by now. This good lady 
straightened me out, and I left.
    And on the algal, harmful algal blooms, the only thing that 
worries me, it is a good program. I support that program, but 
the amounts kind of startled us a little bit. The last 
authorization I think was 26 million. The last appropriation 
was 15 million, and the President's budget was 15 million. This 
one was 41 million. I just thought it was too much money, but I 
will take another look at it.
    I am not sure. I don't know what has been asked. I will 
yield back my time.
    Chairman Gordon. Dr. Wu, I think you said you wanted to--
Mr. Wu wanted to have a final word.
    Mr. Wu. My father always wanted me to be a doctor, Mr. 
Chairman, so maybe that will fix things.
    You know, Mr. Baird is always a pleasant surprise. I mean, 
I am finally catching up to him on ocean acidification and now 
he has moved onto hypoxia and eutrophication. So it is a 
constantly moving target.

                       More on the NPOESS Program

    Dr. Lubchenco, I spent some time focusing on NPOESS first 
when I was the Ranking Member with Dr. Ehlers as Chair and then 
later when I was Chair of the Subcommittee which then had 
jurisdiction over NOAA and the NPOESS Program, and I would have 
to say that it has been a long and somewhat tortured program. 
And I understand that after much consideration there is a 
decision to split the program into a DOD and a NOAA component.
    And the original program came because two Administrations 
ago the decision was made that there were gains to be made by 
joining the DOD and NOAA Programs, the Civilian and Military 
Programs, and now that many of the very difficult instruments 
have actually been developed and a bus has been developed, now 
we have a split of the program after $5.6 billion has been 
spent on it.
    And Dr. Lubchenco, this is my concern. I understand that, 
you know, these decisions are made somewhere else in the 
Executive Branch, but I got to say that I am deeply concerned 
that the decision to split looks great right now, but, you 
know, satellite programs don't come in on cost, and we have 
these instruments that are developed, a bus that has been 
developed. In essence, a lot of the risk is behind us and now 
we have at least one nascent program over at DOD, and I 
understand that the NOAA Satellite Program is like a rounding 
error on the DOD Satellite Program.
    I am deeply concerned that three years from now, four years 
from now, five years from now just as I expressed to 
Administrator Bolden about what his Privatization Program would 
do to costs on the NASA side, I am deeply concerned that the 
DOD Program, which is not under this committee's jurisdiction, 
will balloon in cost, and we will repeat the NPOESS experience, 
except now we will have two programs. I assume that the NOAA 
Program will continue in roughly its form, and a lot of the 
risk is behind us, but as an Administration matter I am 
concerned that some other committee has--Armed Services will 
have to deal with those cost overruns on the NPOESS Program. 
And it seems irresponsible to me to go down that path and throw 
away a significant part of the $5.6 billion which has already 
been invested.
    And I would like you to--I would invite you to address that 
concern.
    Dr. Lubchenco. Uh-huh.
    Mr. Wu. Is every satellite program to run over budget? Is 
it the nature of pushing the frontiers, is it the nature of 
pushing technology?
    Dr. Lubchenco. Congressman, I believe that the 
Administration's decision to restructure the NPOESS Program 
reflects many of the recommendations that have been made by the 
GAO reports over the last nine years, as well as the 
Independent Review Team's assessment, all of which noted that 
since its inception in 1994, the NPOESS Program increased in 
cost 87 percent, while delaying----
    Mr. Wu. Is that in line----
    Dr. Lubchenco. --a launch----
    Mr. Wu. --with other satellite programs?
    Dr. Lubchenco. It is--no, not in NOAA's experience. In 
NOAA's experience----
    Mr. Wu. What about in DOD's experience?
    Dr. Lubchenco. I can't speak to that but----
    Mr. Wu. Can you get that information?
    Dr. Lubchenco. I can certainly get that information.
    Mr. Wu. Thank you.
    Dr. Lubchenco. One thing that I think bears pointing out is 
that NOAA and NASA have jointly operated a number of satellite 
systems, and those, in fact, have been very successful, and 
they have overseen the procurement, the development, the 
procurement, the launch, and the operation of those systems. 
And so we do have good experience in doing just that.
    The satellite system, the NPOESS Satellite System, the 
proposal of the Administration is to separate the procurement 
parts of the responsibilities but to continue to share the 
parts of the program that are working well, which is the 
ground-based systems. And so recognizing that the Department of 
Defense's primary interest is in the morning orbit, they would 
have responsibility for that morning orbit. The instruments and 
the satellite system, and NOAA's responsibility with NASA in 
assistance would be for the afternoon orbit, which is 
appropriate for our weather and satellite information.
    And so the fundamental management problem that was driving 
much of the cost overruns and repeated delays and loss of 
capacity was the challenge of making joint procurement 
decisions with agencies that have widely-differing budgets, 
sizes, cultures, decision-making processes, and completely 
different requirements. And so I believe that the 
Administration decision has taken heed of all the problems and 
has identified a path to success for this program. I am very 
enthusiastic about where we are now and believe that this will 
put us back on track. I think the program was an embarrassment, 
and I think that we now have a mechanism to be able to ensure 
the continuity of climate and weather data from space that is 
so vital to the Nation.
    Mr. Wu. Well, a concern is that the program had become 
somewhat embarrassing at $13 billion, but I think the question 
is whether we will be further embarrassed at two programs, 
whether they will cost more than $13 billion combined, and I 
think that this committee will observe with great interest 
NOAA's part of that expense, and as Members of Congress we will 
generally observe with great interest how DOD does with the 
other part, with the morning orbit satellite.

                          Fishing Catch Shares

    Mr. Chairman, if there are not other questioners, I would 
like to ask one more question about catch shares.
    Chairman Gordon. Well, Ms. or Dr. Lubchenco has been very 
generous with her time today, but, yes, if you have another 
quick one we can go forward.
    Mr. Wu. You bet. You bet. Dr. Lubchenco, I think that good 
science makes for good decision making, and especially in the 
contentious area like fisheries. Good science and good data are 
truly, truly important, and important data for things like 
stock assessments is absolutely crucial and fishery-dependent 
data like catch accounting. And it is my belief that catch 
shares properly implemented can actually improve science 
because they allow folks to get better fisheries-dependent 
information, and it is in that spirit, Dr. Lubchenco, that I 
want to ask you, what plans does NOAA have to ensure the best 
scientific management of the Pacific Groundfish Fishery? And 
how do you plan on working with the fishing industry to ensure 
that fishing opportunities are maximized while also allowing 
depleted fish stocks to recover in appropriate ways?
    Dr. Lubchenco. Congressman, as you know, the Groundfish 
Fishery is being considered by the Pacific Fishery Management 
Council for our Catch Share Program, and there are very active 
discussions underway about the appropriate design for that 
program, and a design that is both durable as well as attendant 
to the various needs of different types of fishermen in that 
fishery. The design is being done based on good scientific 
information, and I think you are absolutely correct that the 
observer programs and monitoring that are affiliated with that 
program will continue to give us better and better information 
about the state of the fishery.
    It is a fishery that was significantly depleted, and this 
proposal I think is a very encouraging one, and NOAA looks 
forward to receiving from the council the proposals that--we 
look forward to working with them on that.
    Mr. Wu. Thank you very much, Dr. Lubchenco, for that 
response, and I just want to, again, invite Dr. Broun, who is 
concerned about the future of fishing, to look at what you all 
are doing in the catch shares. It wouldn't make sense to do 
catch shares unless we were going to continue to fish in one 
way or another.
    And, Mr. Chairman, thank you very much for granting us this 
additional opportunity to ask questions.

                                Closing

    Chairman Gordon. Dr. Lubchenco, thank you for your time and 
patience today. We have a lot of common interests, and I am 
sure we will continue to work together in good harmony.
    The record will remain open for two weeks for additional 
statements from members and for answers to any follow-up 
questions the Committee may ask of the witnesses. The witness 
is excused, and the hearing is adjourned.
    [Whereupon, at 4:32 p.m., the Committee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Paul Anastas, Assistant Administrator, Office of 
        Research and Development (ORD), U.S. Environmental Protection 
        Agency

Questions submitted by Chairman Bart Gordon

Q1.  Under the overall Science and Technology Programs, the Climate 
Protection Program has a nearly $3 million decrease in the FY 11 
budget. A sizeable amount of this decrease pertains to S&T activities 
for ENERGY STAR. However, there is a budget increase for the Climate 
Protection Program under the Environmental Programs and Management 
Office. There seems to be a shift in the Climate Protection Program 
priorities.

        a.  What is the justification for not seeking additional funds 
        for the Climate Protection Program under Science and Technology 
        activities, especially if its intended goal is to reduce 
        greenhouse gas intensity in vehicles? Is research in this 
        program still a priority?

A1a. Climate Protection Program activities are an important component 
of what the agency is doing to meet our goal of addressing global 
climate change. The reduction in the Science and Technology (S&T) 
Account consists of a $1 million reduction to the ENERGY STAR program. 
This program is primarily funded through the Environmental Programs and 
Management (EPM) appropriation; in FY 2010, we requested a 
reprogramming to allow S&T funds to be used to support the ENERGY STAR 
MOU with DOE. In FY 2011, that work will be funded from the EPM 
appropriation with the rest of the ENERGY STAR program. The remaining 
reduction will affect National Vehicle and Fuels Emissions Laboratory's 
technology demonstration projects with the California South Coast Air 
Quality Management District, the California Air Resources Board, and 
the California Energy Commission.

        b.  While funding decreased for ENERGY STAR S&T activities, 
        ENERGY STAR funding levels grew in Environmental Programs and 
        Management. Will the expansion of ENERGY STAR within EPM be 
        sufficiently supported by complementary research components?

A1b. Increased funding is requested for the ENERGY STAR program to 
support the ENERGY STAR program across the residential, commercial, and 
industrial sectors. Key investments in EPA's energy efficiency programs 
will expand their reach and make an important contribution to advancing 
the Administration's climate change objectives.
    Some technical support for the ENERGY STAR program comes from the 
Department of Energy (DOE), which works with EPA to develop testing 
standards for evaluating the energy efficiency of product categories 
covered by the program. Separately, the Global Change Research program, 
run by the Office of Research and Development, does not directly 
support the ENERGY STAR program. EPA's Global Change research program 
is focused on understanding and assessing the effects of global 
change--particularly climate variability and change--on air quality, 
water quality, aquatic ecosystems, human health and social well being 
in the United States and supports the Administrator's priorities for 
taking action on climate change, improving air quality and protecting 
America's waters.

        c.  What science and technology research has been or will be 
        done that will underpin the goals of the ENERGY STAR program?

A1c. As noted above, technical support for the ENERGY STAR program 
occurs at both EPA and DOE. DOE,works with EPA to develop product 
testing and verification procedures for evaluating the energy 
efficiency of products that earn the ENERGY STAR. EPA oversees all 
ENERGY STAR requirements and manages the ENERGY STAR brand (including 
product verification and enforcement against logo violations). EPA's 
climate protection partnership programs promote successful strategies 
and practical solutions to help Americans reduce energy use, save money 
and protect the environment. These programs have produced sizeable 
benefits since 1992 throughout the commercial, industrial and 
residential sectors due to the efforts of thousands of committed 
partners.

Questions submitted by Representative Marcia L. Fudge

Q1.  I am pleased to see that the Office of Research and Development 
request for endocrine disrupting chemicals research is at $17 million, 
showing a 54 percent increase. This is especially important to my 
district, which borders Lake Erie. Fish in the Great Lakes are known to 
be contaminated with polychlorinated biphenyls, or PCBs, as well as 
other man-made chemicals. This contamination has caused fish to 
experience numerous reproductive problems, as well as abnormal swelling 
of the thyroid glands. It is also know that during embryonic 
development, all vertebrates are fundamentally similar and it is safe 
to assume that humans also experience reproductive and developmental 
problems from this contamination.

        a.  What will the Office of Research and Development do to 
        leverage the funding provided for endocrine disrupting 
        chemicals research to improve the water quality in the Great 
        Lakes?

        b.  More specifically, how we will transition from not just 
        researching the problem, but fixing the problem?

A1. The increased resources for EDC research will enable EPA to apply 
the latest state-of-the-art technologies and innovations to advance the 
assessment and management of chemicals with potential endocrine 
disrupting effects and other emerging contaminants of concern to better 
protect human health and wildlife. Of particular relevance to the Great 
Lakes (GL), methods have been developed to assess the effect of 
chemicals on the estrogen, androgen, and thyroid pathways using fish 
and amphibian species. ORD scientists have been in discussions with 
Great Lakes National Program Office (GLNPO) staff regarding these 
chemicals of concern to EPA. In general, these chemicals are predicted 
to be or known to be present in the Great Lakes environment, but whose 
toxicological properties are insufficiently understood to allow for 
scientifically sound risk assessment. EPA recognizes that the tools 
developed by ORD could be used to address some of the uncertainties 
associated with chemical contaminants in the Great Lakes. For example, 
EPA's Office of Water is applying results of ORD's research to evaluate 
the impacts of emerging contaminants and develop mitigation measures to 
impacted waterbodies such as the Great Lakes.
    For example, ORD has developed assays for the Agency's Endocrine 
Disruptor Screening Program (EDSP) as mandated in the Food Quality 
Protection Act. Of particular relevance to the Great Lakes (GL), 
methods have been developed to assess the effect of chemicals on the 
estrogen, androgen, and thyroid pathways using fish and amphibian 
species. Although these methods were originally developed to meet the 
needs of the EDSP, they are also amenable to being used to evaluate 
environmental samples.
    In addition, as a direct result of the above activities is a new 
collaboration with USFWS which utilizes ORD's expertise in EDCs to 
augment field studies that USFWS is undertaking with Great Lakes 
Restoration Initiative (GLRI) funding. Specifically, ORD will employ a 
small fish model developed under the EDRP to evaluate effects of 
chemicals in the GL on estrogen and androgen pathways in fish. In 
addition, a partnership between EPA Region V GLNPO and ORD, under the 
GLRI, is planned to enhance and exploit ORD's ability to apply their 
expertise to further assess the estrogen, androgen, and thyroid pathway 
effects of chemicals in the GL environment.
    Furthermore, ORD pursues solutions to the problems of PCBs and 
other anthropogenic contaminants in sediments under both the EDRP and 
the Land Research Program's Contaminated Sediments Research Program. 
Through the latter program, three aspects of risk management have been 
emphasized: predicting the effectiveness of dredging, understanding 
mechanisms affecting monitored natural recovery, and evaluating active 
cleanup options. The dredging research focuses on the concern that 
post-dredging residual volumes and contaminant concentrations are still 
high enough to harm ecological receptors directly and humans indirectly 
via fish ingestion. Locations for this field research include: 
Ashtabula River, Ashtabula, Ohio, and Ottawa River, Toledo, Ohio. 
Research on monitored natural recovery (MNR) is directed at 
understanding the mechanisms (principally natural capping) and rates of 
reducing contaminant exposures. Field research on MNR occurred at Lake 
Hartwell, South Carolina. Active cleanup options focus on innovative 
capping technologies and improved methods for management of PCBs and 
other priority pollutants. This research considers chemical 
concentrations, biological effects, and contaminant flux when 
appropriate. Where possible, this research has partnered with other 
groups such as the GLNPO, academics, and the Army Corps of Engineers.

Questions submitted by Representative Ralph M. Hall

Q1.  On May 21st, 2009, the Administrator issued a memo outlining the 
new process for setting National Ambient Air Quality Standards (NAAQS). 
Her memo outlined five major elements of the process: Planning, 
Integrated Science Assessment, Risk and Exposure Assessment, Policy 
Assessment, and Rulemaking. This is a heavily involved process and 
takes a period of years. The current criteria pollutants affect many 
areas of the country, while their impacts at the regional and local 
levels. EPA chose not to follow a similar comprehensive process when 
making a determination on carbon dioxide, a pollutant it claims has 
global public health and welfare consequences. Why was a similar 
rigorous process not instituted for the endangerment finding even if 
not delineated by any statute?

A1. In response to the Supreme Court's decision in Massachusetts v. 
EPA, EPA has been examining the scientific and technical basis for the 
Endangerment and Cause or Contribute Findings for Greenhouse Gases 
Under Section 202(a) of the Clean Air Act (herein referred to as the 
Findings) since 2007. EPA followed a rigorous, methodical, and 
transparent process to develop the Technical Support Document (TSD) 
accompanying the Findings, which summarizes the soundest available 
science reflecting the peer-reviewed and fully vetted scientific 
literature on greenhouse gases, climate change, vulnerabilities, and 
potential impacts. Beginning in 2007 when EPA initiated work on the TSD 
and twice in 2009, the TSD underwent three rounds of technical review 
by 12 Federal experts from USGS, NOAA, DOE, USDA, NASA, HHS/CDC, EPA, 
and OSTP. It also went through three rounds of internal EPA review, and 
two rounds of public comment. Thus, while the process followed for 
issuing the endangerment finding was different than the NAAQS process 
(some specific elements of which are required by statute); it was a 
robust and transparent process that met the Agency's standards of 
rigorous scientific review.

Q2.  There have been several suggestions that the decision on the 
endangerment fording was predetermined. In fact, during his campaign, 
President Obama pledged to classify carbon dioxide as a dangerous 
pollutant that can be regulated if he won the election. This statement 
seems to imply that regardless of what the scientific evidence held, 
President Obama had already made up his mind and claimed his 
Administration would proceed on this track. How does this position 
adhere to the President's stated intent to make policy decisions based 
on sound science through transparent processes and upholding the basic 
tenets of scientific integrity? How does this position adhere to your 
stated intent during the hearing that any kind of political 
interference with science is antithetical to scientific integrity?

A2. The process of developing the Findings began in 2007 under the 
previous Administration as a result of the Supreme Court's decision in 
Massachusetts v. EPA. The Administrator's determinations relied solely 
on a careful consideration of the full weight of scientific evidence 
and a thorough review of hundreds of thousands of public comments. To 
the extent some people believe the May 2009 announcement regarding 
motor vehicles was evidence that the endangerment finding was 
preordained, they are mistaken. The final Findings discuss the fact 
that the Administrator's decision was not preordained, explaining that 
the endangerment provisions would have to be satisfied in order for EPA 
to finalize emission standards for motor vehicles under 202(a). (see 
Federal Register Notice Volume 74 No. 239 pg 66502). This explanation 
is consistent with statements made in the EPA and Department of 
Transportation's Notice of Upcoming Joint Rulemaking to Establish 
Vehicle GHG Emissions and CAFE Standards (May, 2009) and EPA's proposed 
greenhouse gas emissions standards for light duty motor vehicles 
(September, 2009). Nothing was preordained and EPA made it very clear 
that the full process for endangerment and cause or contribute would 
have to be completed before finalizing emission standards under 202(a) 
of the CAA. The Endangerment and Cause or Contribute Findings upheld 
the highest level of scientific integrity and transparency.

Q3.  The Technical Support Document for the endangerment finding uses 
data for U.S. and global greenhouse gas emissions and concentrations 
based on reporting requirement procedures set out by the United Nations 
Framework Convention on Climate Change (UNFCCC). In the last few 
months, DOE, NASA and NOAA put together an interagency group to 
establish a Greenhouse Gas Information System. According to this 
interagency group, anthropogenic carbon dioxide emissions are 
approximately 5% of natural surface source/sink fluxes. They estimate 
that current source-sink uncertainties are 50 to 80 times larger than 
required for treaty verification, such as those set out by the UNFCCC. 
This substantial margin of error suggests that we know less about our 
actual emissions and sinks than has been previously suggested.

        a.  How would you compare the use of data that have substantial 
        uncertainties with the requirement of high quality data for 
        other air emissions in setting standards?

A3a. First, to be clear, the observed increase in atmospheric 
concentrations of carbon dioxide and other greenhouse gases, such as 
methane, is primarily driven by anthropogenic emissions of these gases. 
Atmospheric concentrations of carbon dioxide and methane now appear to 
be at their highest levels compared to, at least, the past 650,000 
years. While there are significant uncertainties related to our 
understanding of the carbon cycle in its entirety, the bulk of this 
uncertainty is related to the nonanthropogenic component (e.g., ocean-
atmosphere exchange). Both the endangerment finding and the UNFCCC 
address anthropogenic sources and sinks, which can be quantified 
according to well-established inventory methodologies. For fossil-fuel 
combustion, which is the largest source of anthropogenic emissions in 
many countries, tracking anthropogenic emissions is a straight-forward 
process involving energy consumption data and the intrinsic and well-
characterized properties of different fuels. The quality of greenhouse 
gas emissions data is comparable to the quality of data on other air 
emissions.

        b.  Will the setting of standards for greenhouse gas emissions 
        not require the same quality of data as is required for 
        criteria pollutants?

A3b. Setting standards for greenhouse gas emissions in the U.S. 
requires high quality data. At the national level, the Inventory of 
U.S. Greenhouse Gas Emissions and Sinks provides a high quality peer 
reviewed data set for the contributions of various source categories 
and economic sectors to anthropogenic greenhouse gas emissions.\1\ At 
the facility level, EPA already receives high quality carbon dioxide 
emissions data measured hourly from facilities in the Acid Rain 
Program, which in total represent over one-third of annual 
anthropogenic greenhouse gas emissions. In addition, as part of the 
recently finalized Mandatory Reporting Rule (MRR) for greenhouse gases, 
EPA will receive high quality facility-level data from other stationary 
sources across the economy.\2\ The MRR covers approximately 10,000 
facilities across the country emitting over 25,000 metric tons of 
carbon dioxide equivalent or approximately 80-85% of national 
greenhouse gas emissions. The first facility-level emission reports are 
due March 31, 2011.
---------------------------------------------------------------------------
    \1\ http://www.epa.gov/climatechange/emissions/
usinventoryreport.html
    \2\ PART 98--MANDATORY GREENHOUSE GAS REPORTING. http://
www.epa.gov/climatechange/emissions/downloads09/GHG-MRR-FinalRule.pdf

        c.  If they do not, does this mean that EPA does not consider 
        greenhouse gas emissions to be as much of an endangerment to 
---------------------------------------------------------------------------
        the public health and welfare as the criteria pollutants?

A3c. Within the Administrator's Findings there was no formal or 
quantitative comparison between the extent to which the six greenhouse 
gases endanger public health and welfare and the extent to which 
criteria air pollutants endanger public health and welfare. Such a 
comparison is not part of the Administrator's endangerment test for 
greenhouse gases under Section 202(a) of the Act.

        d.  If EPA does consider greenhouse gas emissions to be at 
        least as much of a danger to public health and welfare as the 
        criteria pollutants, why did EPA not apply the same rigorous 
        requirements for this determination as is used to revise 
        standards for criteria pollutants?

A3d. Please see our response to Question 1 and Question 3C.

Q4.  In a March 8th speech at the National Press Club, Administrator 
Jackson commented that: ``This is what smart environmental protection 
does. It creates a need--in other words, a market for clean 
technology--and then drives innovation and invention--in other words, 
new products for that market.''

        a.  If the government is the one to establish the market and 
        make decisions about which products meet this criteria, doesn't 
        this result in the Federal Government picking winners and 
        losers based on its own ever-changing agenda?

        b.  If the regulations are put in place by an agency, rather 
        than by Congress, couldn't they be overturned easily by the 
        next Administration?

        c.  How can companies rely on such regulations?

A4. Question (a) asks whether the government should be the entity that 
establishes markets for clean technology. Public health and welfare are 
harmed by pollution. For example, our nation's air is a common property 
resource used by all and which the government is responsible to 
protect. When the government limits pollution under environmental laws, 
those policies create markets for cleaner technologies; however, 
creating the demand for pollution reduction does not require the 
government to pick which particular technologies are needed to comply 
with such regulations. In fact, some of the most important and 
innovative approaches to regulation intentionally avoid having the 
government pick winners and losers.
    The hypothetical alternative would be for the government not to 
address harmful emissions, which is inconsistent with the laws passed. 
In that case, pollution could be emitted freely--even though those 
emissions damage public health, natural resources, and ecosystems. 
These costs of uncontrolled emissions would not be reflected in the 
market price of goods and services produced by the emitting company. 
Economists cite this as a classic example of a ``market failure,'' and 
this is the justification for environmental policy-making by 
government.
    Air programs have used a variety of approaches to reduce pollution 
and create demand for cleaner technologies, without mandating a 
particular technology. For example, rules can set an overall emissions 
budget and allow facilities to comply either by reducing emissions, by 
buying emissions allowances, or a combination of the two. Examples of 
this include the Acid Rain Program, the NOx Budget Trading Program to 
reduce interstate ozone pollution, and the market-based system for 
phasing out certain ozone-depleting substances under the Montreal 
Protocol. Another option is performance standards that set numerical 
emission limits which allow any existing or new technology that 
performs cleanly enough to be used for compliance. Additional 
compliance flexibility for companies can be provided by coupling a 
performance standard with the opportunity to average, bank or trade 
emissions credits among different pieces of equipment or among 
vehicles. Performance standards with averaging, trading and banking 
have been routinely used in EPA's motor vehicle regulations for more 
than 20 years. In a non-regulatory context, EPA's ENERGY STAR programs 
has used voluntary performance requirements and labels since 1992 to 
advance the adoption of energy efficiency by providing homeowners, 
consumers, and businesses with trusted, unbiased information on 
reliable, cost-effective, efficient products, services, and practices 
that reduce greenhouse gas emissions while saving money.
    The nation has seen remarkable progress in the development of 
cleaner technologies to meet our nation's environmental policy 
requirements. There are numerous examples of low-emission technologies 
developed and/or commercialized over the past 15 or 20 years, such as:

        <bullet>  Selective catalytic reduction (SCR) and ultra-low-NOx 
        burners to reduce NOx

        <bullet>  Scrubbers which achieve 95% and even greater SO<INF>2</INF> 
        control on boilers

        <bullet>  Sophisticated new valve seals and leak detection 
        equipment for refineries and chemical plans

        <bullet>  Low- or zero-VOC paints, consumer products and 
        cleaning processes

        <bullet>  Chlorofluorocarbon (CFC) free air conditioners, 
        refrigerators, and solvents

        <bullet>  Water and powder-based coatings to replace petroleum-
        based formulations

        <bullet>  Vehicles far cleaner than believed possible in the 
        late 1980s due to improvements in evaporative controls, 
        catalyst design and fuel control systems for light-duty 
        vehicles; and treatment devices and retrofit technologies for 
        heavy-duty engines

        <bullet>  Idle-reduction technologies for engines, including 
        truck stop electrification

        <bullet>  Clean fuels

    These technologies were not commercially available two decades ago; 
some were not even in existence. Yet today, all of these technologies 
are on the market, and many are widely employed. Studies have found 
that the costs of some EPA air pollution programs and regulations have 
been lower than originally estimated, and this may have been due, in 
part, to our inadequate ability to predict and account for future 
technological innovation and our use of flexible regulatory structures 
that utilize market-based incentives. (For example, see Harrington, W., 
R.D. Morgenstern, and P. Nelson. 2000. ``On the Accuracy of Regulatory 
Cost Estimates.'' Journal of Policy Analysis and Management 19(2):297-
322. Additional studies are cited by Harrington. Note that this study 
also identified that benefits of programs and regulations have also 
been lower than originally estimated.)
    Question (b) implies that there is a choice: Either issue 
regulations under current law or wait for Congress to pass a new 
climate law (which itself would require implementing regulations by the 
executive branch). In reality, executive branch agencies such as EPA 
have a legal duty to make determinations and issue regulations that are 
mandated by current law. The Clean Air Act Amendments were 
overwhelmingly passed by Congress and signed into law by President Bush 
in 1990, and the Supreme Court in 2007 decided that greenhouse gases 
are air pollutants as defined by the Clean Air Act. The executive 
branch must faithfully execute the laws enacted by Congress as 
interpreted by the courts. Administrator Jackson has testified that 
implementing current law and supporting legislation are not mutually 
exclusive; she strongly supports new energy and climate legislation and 
also is making decisions as required by current law.
    Regarding questions (b) and (c), Administrator Jackson has stated 
that in carrying out the law consistent with the Supreme Court 
decision, EPA will address greenhouse gases to protect public health 
and welfare in ways that are sensible and effective, focus on the 
largest emitters, encourage clean technologies and strengthen the 
economy.

Q5.  In the March 8th speech at the National Press Club, Administrator 
Jackson stated that, ``many still claim that regulation is too costly, 
and believe that scaling back is the best thing for growth. We've also 
already seen that in action. The theory that less regulation ought to 
be good for the economy was put to the test in the last 
administration.'' The obvious reverse sentiment to this statement is 
that more regulation is not bad for the economy. However, many of the 
economic crises that occurred during the Carter Administration were a 
result of over regulation. Do you think this reverse sentiment is true, 
that more regulation will not harm the economy?

A5. First and foremost, environmental regulations have improved and 
will continue to improve the health and welfare of the American people, 
prolonging life and greatly reducing the adverse impacts of 
environmental degradation. From 1970 to 2007, air regulations reduced 
emissions of the six principal criteria pollutants while U.S. gross 
domestic product increased by over 200 percent. The most recent 
regulations (since 2000), including diesel regulations controlling 
emissions from heavy duty trucks and other engines that came into 
effect in 2007, by themselves are expected to result in thousands of 
premature deaths avoided annually at full implementation and billions 
in annual monetized benefits from health and environmental 
improvements. Recent regulations such as the diesel standards have 
benefits far in excess of costs--for example the non-road diesel rule 
is estimated to have benefits that are 40 times the costs of the rule. 
Not only can we achieve these benefits without harming the economy, we 
know that a healthy population, with fewer demands on health care and 
less absenteeism at work and school, are key to promoting a 
competitive, flourishing economy. Smart environmental regulation can 
improve the economy in a number of ways.

        1)  We are healthier and smarter as a result of environmental 
        regulations. Our enhanced health makes us miss less work, less 
        school, and lowers our demand for health care. With lower rates 
        of birth defects, childhood illnesses and disabilities, and the 
        economy should spend less on health care.
        2)  Regulations improve our nation's water, air and land, which 
        in turn support large recreational and commercial industries. 
        Cleaning our air, water, and land, can be viewed as investments 
        in critical infrastructure. Clean water supports fishing, 
        boating, and other recreational industries. For example, 
        recreational boating alone has an economic impact on the 
        economy of roughly $40 billion per year. Commercial fishing, 
        also supported by clean water, is responsible for over $100 
        billion a year in economic impact on the economy. Cleaning up 
        waste sites, returns valuable land to the economy to be put 
        back to productive use, creating jobs and economic growth.
        3)  Regulations can result in innovations and new industries as 
        emitters look for cheaper ways to meet regulatory requirements. 
        Many of our leading industrial firms have publicly acknowledged 
        the role that regulations have played in rethinking production 
        and business practices. These innovations have created new 
        products that can be sold here and abroad. (Some specific 
        examples are).

                <bullet>  Working to comply with relatively new 
                regulations in effect in 1975 (placing scrubbers on 
                smokestacks, treating effluents before releasing 
                wastewater, and segregating some solid waste for 
                incineration) led 3M to work on pollution prevention to 
                eliminate rather than having to treat as much pollution 
                as possible.

                <bullet>  Toxic Release Inventory reporting helped 
                DuPont realize in the 1980s that it was one of the 
                world's biggest polluters despite spending $1 billion 
                annually on waste treatment and pollution controls. 
                This prompted management to work on cutting both 
                emissions and costs, and resulted in reducing 
                expenditures to $400 million annually, according to 
                DuPont.

                <bullet>  British Petroleum committed to reduce 
                emissions of greenhouse gases in the late 1990s and 
                within three years found numerous ways to cut 
                emissions, improve efficiency, and reduce costs.

Q6.  In the past few months, there has been a burgeoning interagency 
effort between DOE, NASA and NOAA to create a Greenhouse Gas 
Information System. This system would be used to assess emissions, 
offsets and baselines that many have stated would be necessary for any 
new international obligations, since right now, emission uncertainties 
of the top 5 global emitters of greenhouse gases match or exceed total 
emissions of the rest of the world.

        a.  First of all, why is EPA not a part of this effort if a 
        baseline would be required for your agency to establish any 
        regulations dealing with carbon dioxide? Who collected the 
        information for the baseline that was the foundation of the 
        Acid Rain Program?

A6a. EPA has participated in discussions about a potential GHGIS, 
including attendance by EPA greenhouse gas monitoring experts at the 
May 20-22, 2009 scoping meeting in Albuquerque, New Mexico, and 
numerous follow-up discussions with technical staff from other 
agencies. EPA, DOE, NASA, and NOAA have found these discussions to be 
helpful in further clarifying greenhouse gas data needs for policies 
and programs (i.e., beyond current research needs). EPA also made a 
presentation to the National Research Council panel compiling the 
report on ``Verifying Greenhouse Gas Emissions: Methods to Support 
International Climate Agreements''.
    The emissions baseline for the Acid Rain Program was calculated on 
the basis of two data sources: (i) facility-level emissions rates from 
the 1985 National Acid Precipitation Assessment Program, and (ii) heat 
input data for the same facilities for 1985, 1986, and 1987 from the 
Energy Information Administration. The National Atmospheric Deposition 
Program (NADP) collected baseline data on actual wet sulfate and 
nitrate deposition, and was supplemented with data on dry sulfate 
deposition in the late 1980s through the Clean Air Status and Trends 
Network (CASTNET).

        b.  Shouldn't a system like this be in place before we would be 
        able to even enter into international negotiations? How many 
        treaties are negotiated when nations are not aware of their own 
        starting points?

A6b. For the purposes of establishing baselines for potential 
greenhouse gas programs in the U.S., EPA will have significantly better 
facility-level emissions data than were available for the start of the 
Acid Rain Program because of the Mandatory Reporting Rule (MRR) for 
greenhouse gases.\3\ The MRR will provide EPA with monitored greenhouse 
gas emissions data from approximately 10,000 facilities across the 
country emitting over 25,000 million metric tons of carbon dioxide 
equivalent, representing approximately 80-85% of national greenhouse 
gas emissions. The first facility-level emission reports are due March 
31, 2011.
---------------------------------------------------------------------------
    \3\ PART 98--MANDATORY GREENHOUSE GAS REPORTING. http://
www.epa.gov/climatechange/emissions/downloads09/GHG-MRR-FinalRule.pdf
---------------------------------------------------------------------------
    Data needs to support an international treaty depend on the 
requirements of the treaty. The foundation for the United Nations 
Framework Convention on Climate Change (UNFCCC) is the national 
greenhouse gas inventory rather than facility-level data. Parties to 
the UNFCCC have submitted national reports on greenhouse gas emissions, 
which provide a starting point for current and future negotiations. The 
recently published National Academies report titled ``Verifying 
Greenhouse Gas Emissions: Methods to Support International Climate 
Agreements'' stated that ``UNFCCC procedures have been, and will likely 
continue to be, the primary means for monitoring and verifying 
greenhouse gas emissions and reductions under a new international 
climate treaty.'' The report also concluded that ``each country could 
estimate fossil-fuel CO<INF>2</INF> emissions accurately enough to 
support monitoring of a climate treaty.'' EPA, USAID and the State 
Department are working with developing countries to improve their 
greenhouse gas inventories, particularly in the area of landuse, land-
use change and forestry.

Q7.  During the hearing, I questioned you if you had any knowledge of 
EPA scientists who question the IPCC data and the heavy reliance of 
that data in EPA's endangerment finding. You stated you had no 
knowledge of them since there were so many scientists at EPA.

        a.  Since that time, what have you done to determine whether or 
        not scientists at EPA question the veracity of the IPCC data or 
        have concerns about EPA's use of the data as a substantial 
        justification for the endangerment finding?

        b.  If you have not taken any steps to determine this, do you 
        plan to and how will you go about doing it?

A7. As I stated in my answers at the hearing, EPA, and myself 
personally, have a commitment to scientific integrity. To quote Albert 
Einstein, ``the right to search for the truth implies also a duty; one 
must not conceal any part of what one has recognized to be the truth.'' 
That means that it would be unnecessary for me to seek out scientists 
with a particular opinion. Any scientist has the opportunity to provide 
scientific evidence relating to this or any other science issue to me. 
Therefore, I have no plans to poll EPA scientists on this issue.

Q8.  During the hearing, I asked you if you thought that EPA should go 
back and review the scientific basis for its findings given the many 
questions that have arisen about , the quality of the data used by the 
IPCC. Since this time, the InterAcademy Council has been requested by 
the UN to conduct an independent review of the IPCC processes and 
procedures. This request illustrates the grave concerns of the 
international community of the quality of data and conclusions 
presented in the 4th Assessment Report.

        a.  How does this demonstration of lack of trust in IPCC 
        results affect EPA's scientific assessment used for the 
        endangerment finding?

A8a. We do not agree that the U.N.'s request for an InterAcademy 
Council review demonstrates a lack of trust in the IPCC or calls into 
question the current understanding of climate change science and the 
causal linkage between human-caused greenhouse gas emissions and 
warming of the climate system. We note that the IPCC reports were one 
of several broad assessment reports that the Agency drew upon in 
developing the Findings, along with the wealth of information submitted 
through public comment to inform the decision. The Findings do not rely 
on a single line of evidence, a single study, or a single assessment 
report. Other assessment reports, in particular those of the U.S. 
Global Change Research Program and National Research Council have also 
examined the information, taken a fresh look at the literature and 
existing assessments, and reached similar compelling conclusions 
regarding the threat of climate change, in many case reinforcing the 
key findings of the IPCC.

        b.  If this review reveals that data that counters the 
        conclusions of the report were purposely excluded, would EPA be 
        inclined to review the scientific assessment?

A8b. The InterAcademy Council review will help guide the processes and 
procedures of the IPCC's current and future assessments of climate 
science. We look forward to seeing the results of this review and 
believe they can only serve to improve an already sound and transparent 
process.
                   Answers to Post-Hearing Questions
Responses by Dr. Jane Lubchenco, Administrator, National Atmospheric 
        and Oceanic Administration

Questions submitted by Chairman Bart Gordon

NOAA Climate Service

    In the FY11 budget proposal, the Office of Oceanic and Atmospheric 
Research (OAR) received a $15.8 million increase. This line office is 
the primary research arm of NOAA and according to the Agency's most 
recent announcement to establish a new Climate Service, a majority of 
OAR programs and activities will be moved to the new Climate Service 
Office.

Q1.  How does the agency plan to protect and strengthen the current 
robust research in OAR while attempting to align the research with the 
new Climate Service?

A1. Science is an essential component of all NOAA responsibilities, and 
underpins our ability to provide quality services. This re-organization 
does not take away or diminish any of NOAA's current capabilities. 
Rather, it re-organizes them to better complement and support each 
other. In NOAA and the Department of Commerce's current plan, not all 
research will be moved into this new line office, and OAR has not been 
replaced by the Climate Service. It is also NOAA's intention that OAR 
will retain many of its core research functions and continue to serve 
an important role at the core of a dedicated science and research 
enterprise that advances NOAA's mission and strategic priorities.
    OAR has served as the incubator for much of the science and 
discovery that opened the eyes of the world to the risks of greenhouse 
gas emissions, climate change, and ocean acidification. It is critical 
to constantly improve all NOAA services, as well as to ensure that NOAA 
remains on the cutting edge of oceanic and atmospheric scientific 
discovery, helping to discover and respond to the next major challenge. 
Strategically focusing OAR's expertise and capabilities toward the next 
generation of science challenges for NOAA and the Nation, as well as 
strengthening science across the agency, remain top priorities for 
NOAA.
    We are taking a number of steps to strengthen science across the 
agency, including re-instating the position of NOAA Chief Scientist, 
and making it a vital part of the NOAA headquarters leadership team. 
This position will be on a par with the two Assistant Secretary 
positions. The Assistant Administrator for OAR will serve as the 
principal advisor to NOAA's Chief Scientist on research matters, and in 
this capacity is charged with strengthening science and coordinating 
and integrating research across NOAA's Line Offices and with external 
partners.
    We also have developed a plan to actively involve scientists and 
science leaders across the agency, as well as external academic 
partners, in the development of our research strategy for the future, 
and to use our NOAA Research Council to strengthen formal mechanisms 
for evaluating our research activities. OAR has a significant 
leadership role within NOAA in driving the agency forward as our 
research strategy is developed. As part of this process, Dr. Paul 
Sandifer, the Senior Science Advisor, acting on behalf of the Office of 
the NOAA Chief Scientist, is working with the current OAR leadership 
and the NOAA Research Council to develop corporate guidance for 
establishing consistent, agency-wide peer review and monitoring 
processes for all NOAA scientific activities, including an annual State 
of NOAA Research Report. Per Dr. Lubchenco's direction, active 
researchers from across the agency are playing major roles in this 
visioning and planning effort.
    The future of NOAA's science and research enterprise relies heavily 
on OAR's core atmospheric and oceanic science expertise and 
capabilities to be the research innovation, integration, and incubation 
hub for the agency. NOAA's vision for reorganization ensures that OAR 
is well-positioned to provide the leadership and cutting edge research 
necessary to spur innovation, resulting in new technologies and 
improved for services for the Nation, while support the priority 
scientific and research areas critical to advancing NOAA's mission. 
NOAA is committed to strengthening science and maintaining a strong 
research portfolio that serves the Nation's needs.

Q2.  In your testimony you also highlighted NOAA's FY11 request of $435 
million in support of the U.S. Global Change Research Program (USGCRP). 
How does NOAA envision their proposed Climate Service to interface with 
the USGCRP?

A2. NOAA understands that no single agency can or should provide all 
climate services for all people. NOAA routinely engages with its 
federal partners and will continue to utilize the framework developed 
by the U.S. Global Change Research Program (USGCRP) to ensure that our 
climate service efforts are coordinated across Federal agencies. In 
addition, we are actively supporting, in partnership with our sister 
agencies, the development of the next National Assessment. Information 
produced from across the agencies are critical to the development of 
this report. The National Assessment will also be an opportunity for 
the agencies to further discuss how we can effectively collaborate in 
strengthening climate science, and the delivery of information and 
science based decision support tools. NOAA's proposed Climate Service 
and its interface with USGCRP are under development.
    In addition, bilateral discussions are in progress with a variety 
of agencies to understand how NOAA climate services can complement 
their missions, and how other agencies' information and expertise can 
benefit NOAA climate services. NOAA understands that the relative roles 
and responsibilities of individual agencies will differ depending on 
the climate impact issue being addressed (e.g., water resource 
management, disaster risk reduction, community planning, public health) 
and that an effective response to the changing climate conditions will 
require an integrated, flexible, and responsive government-wide 
approach.
    NOAA is committed to working with our federal partners to provide 
the best and most relevant climate services and information to decision 
makers across all sectors. NOAA already participates fully in a number 
of inter-agency efforts including co-chairing the Federal Interagency 
Climate Change Adaptation Working Group with the Council on 
Environmental Quality and the Office of Science and Technology Policy, 
serving as Chair of and leading many assessments for the U.S. Global 
Change Research Program, and collaborating with the White House Office 
of Energy and Climate Change.

Data Centers and Information Services

    The budget request contains a $14 million decrease for the Data 
Centers and the Information Centers. This is a concern because 
substantial investments in several satellite systems will create an 
influx of data and information to the Data Centers.

Q3.  How does the Agency plan to process and distribute these data with 
the proposed FY11 level funding?

A3. The $14 million decrease represents funds associated with 
Congressionally-directed projects contained in the FY 2010 Omnibus 
Appropriations bill for climate database modernization and for regional 
climate centers and programs that are not included in the President's 
FY 2011 budget request.
    The President's FY 2011 budget request for NOAA's Data and 
Information Services does include a $13 million increase over the FY 
2010 enacted amounts in the Archive, Access, and Assessment line, as 
well as an additional $600,000 increase to pay for inflationary 
adjustments and salary increases to support Data Center base 
operations. These increases directly support the ability of NOAA's Data 
Centers to archive and provide access to the anticipated 3,000 percent 
increase in data volume expected over the next several years, and are 
critical to NOAA's ability to develop the datasets that are required to 
meet customer needs.
    Of the $13 million increase, $2 million would support integration 
of Comprehensive Large-data Array Stewardship System (CLASS) components 
into the NOAA Data Center operations at the National Climatic Data 
Center in Asheville, NC; the National Geophysical Data Center in 
Boulder, CO; and the National Oceanographic Data Center in Silver 
Spring, MD. This funding would provide NOAA the operational capability 
to allow users to search for and acquire the increased amount of 
archived data. The proposed increase would provide the Data Centers 
with the information technology infrastructure to accommodate the 
increased data volume and ensure environmental observations remain 
useful and available to the widest range of current and future users. 
Users will be able to search for and acquire archived CLASS data 
through the NOAA Data Center archive management system. This proposed 
budget increase also meets emerging requirements associated with 
implementing NOAA's climate services, including the long-term 
preservation of the Nation's climate record.
    The remaining increase of $11 million would support continued work 
on the NOAA Climate Data Records program, which transforms raw 
satellite data into unified and coherent long-term environmental 
observations and products that are critical to climate modelers and 
decision makers concerned with advancing climate change understanding, 
prediction, mitigation and adaptation strategies, policies, and 
science.

NOAA Education Program

    As the Committee prepares to reauthorize the COMPETES Act, it is 
important for agencies like NOAA to demonstrate the importance of 
investing in the education of our future scientists and engineers.

Q4.  Within the proposed FY11 budget for NOAA's Education Program, how 
does the Agency plan to develop a future workforce in disciplines 
related to NOAA sciences?

A4. NOAA's Office of Education supports a broad spectrum of Science, 
Technology, Engineering and Mathematics (STEM) activities through 
formal and informal mechanisms to support the development of a future 
workforce. NOAA's education activities are conducted through 
competitive grants to academic institutions and direct scholarships to 
students. NOAA supports STEM programs at academic institutions that 
train and graduate students in STEM disciplines at the K-12 and post-
secondary levels. Cumulative student data collected by NOAA's Office of 
Education demonstrates that from 2001 through 2009 approximately 2,400 
students were training in STEM fields that directly support NOAA's 
mission. This number includes graduate and undergraduate level students 
supported exclusively by the Office of Education through graduate and 
undergraduate scholarship programs. One of NOAA's primary goals is to 
provide opportunities for students to engage in hands-on research 
activities under the guidance of NOAA scientists and managers. These 
experiences engage and retain students in STEM fields and encourage 
students to seek employment in STEM disciplines related to NOAA 
sciences.
    Also since 2001, NOAA has hired 61 former recipients of student 
training and scholarship opportunities, offered through the Office of 
Education, in STEM disciplines.

Q5.  What resources does NOAA need to contribute to the development of 
such a workforce?

A5. The President's FY 2011 Budget Request includes $20.8 million for 
NOAA's Office of Education to support both formal and informal 
education activities in STEM fields as well as devoting one-tenth of 
one percent of NOAA's entire appropriation to Hollings Scholarships. 
NOAA has been successful in providing training and scholarship 
opportunities to students in STEM disciplines that support the agency's 
mission and that serve as a potential pool of candidates from which it 
can select its future workforce. NOAA will continue to utilize its 
extensive workforce with expertise in STEM disciplines to serve as 
mentors and provide technical guidance to students pursuing degrees and 
careers in STEM fields that support NOAA's mission.

QuikScat

    The QuikSCAT satellite provided ocean vector wind data and marine 
wind forecast data, which were useful in the early stages of predicting 
hurricane tracks. QuikSCAT's operational life ended last November, and 
the FY11 budget request does not seem to demonstrate an investment in 
resources to replace QuickSCAT's capacity. It should be noted that the 
National Research Council's Earth Sciences Decadal Survey recommended 
that NOAA proceed with the Extended Ocean Vector Wind Mission.

Q6.  What is the status of NOAA's decision to proceed with the Extended 
Ocean Vector Wind mission?

A6. As directed in FY 2009 and FY 2010 omnibus appropriations bills, 
NOAA and the National Aeronautics and Space Administration (NASA) 
continue to assess the best ways to replace space-based scatterometry 
data that had been provided by the NASA QuikSCAT satellite until 
November 2009.
    As part of this assessment, NOAA and NASA/Jet Propulsion Laboratory 
are studying the suitability of developing a scatterometer and are 
exploring with the Japanese Aerospace Exploration Agency the 
possibility of a joint mission.

Q7.  What are NOAA's plans to recover the invaluable QuickSCAT data, 
which helped improve weather forecasts and identify the location, size 
and strength of hurricanes and other storms?

A7. The NASA QuikSCAT mission demonstrated utility to NOAA in meeting 
its mission for open ocean measurements beyond the reach of ``hurricane 
hunter'' aircraft and land-based radars. However, please note that 
NOAA's ability to warn the public about hurricanes making landfall in 
the continental U.S. is not significantly diminished in the absence of 
QuikSCAT. In most cases, due to availability of other data sources 
close to the coast QuikSCAT, ocean surface vector wind data has little 
or no impact on these forecasts.
    As a result of the NASA QuikSCAT failure, NOAA continues to pursue 
both short-term and long-term mitigation strategies for ocean surface 
vector wind (OSVW) measurements. Short-term mitigation options include 
improving the use of satellite data from partners, such as the Advanced 
SCATterometer (ASCAT) instrument from the European Organisation for the 
Exploitation of Meteorological Satellites (EUMETSAT). While ASCAT has 
differing OSVW capabilities than NASA QuikSCAT, it does provide partial 
mitigation of the NASA QuikSCAT failure.
    In addition, India launched the research satellite Oceansat-2 in 
September 2009, which has a NASA QuikSCAT-type instrument. NOAA is 
working on an agreement to gain timely access to data provided by the 
satellite. The quality of the data and instrument has not yet been 
demonstrated, and India does not yet have the capability to deliver 
data in a timely enough fashion to be useful for operational 
forecasting. China is planning to launch HY-2A, a QuikSCAT-type 
instrument, in late 2010. NOAA continues to attempt to engage China in 
discussions about acquiring access to their data.
    NOAA and NASA are continuing studies to develop an OSVW instrument 
and are exploring opportunities to have the instrument placed on-board 
the Japanese Aerospace Exploration Agency's Global Change Observation 
Mission-Water mission.

Geoengineering

Q8.  What science and research is needed to be able to better 
understand the impacts of potential climate geo-engineering projects? 
What research capabilities, both internal to the agency and through 
external partnerships, could NOAA lend to better understanding these 
impacts?

A8. Geo-engineering proposes to deliberately manipulate the Earth's 
climate to counteract the effects of global warming from greenhouse gas 
emissions. To be fully successful, however, a large scale geo-
engineering effort would require full scientific understanding of the 
underlying physical and chemical processes, the inclusion of these 
processes in Earth system models, and verification of the geo-
engineering approach's viability with model projections by experts. 
Recent literature and workshops have emphasized the difficulties of 
identifying unforeseen and unintended consequences that a geo-
engineering effort would possibly generate. Thus it is believed that 
geo-engineering must be approached with great deliberation and caution.
    At least two areas of geo-engineering need extensive research. One 
is the need to investigate the physical, chemical, and biological 
processes of geo-engineering approaches. For example, the addition of 
elements such as iron to the open ocean to draw carbon dioxide from the 
atmosphere has been tested in some small scale studies; however, 
results so far are inconclusive, and at least one study suggests the 
addition of iron would have the opposite effect. Far more directed 
research is needed to fully understand all of the ramifications of a 
large geo-engineering effort. Similarly, ideas for release of chemicals 
into the stratosphere to increase reflection of incoming solar 
radiation would need further study of both natural and manmade efforts 
to calculate the effects of such a release.
    A second area is research on the effects of a geo-engineering 
scheme on global economic sectors. For example, a project that 
decreases solar radiation (e.g. by shading from satellites, or 
stratospheric aerosols) could also decrease precipitation selectively, 
which could have detrimental impacts on agricultural efforts in the 
effected region. Similarly, geo-engineering that decreased sunlight for 
an extended period of time and then terminated could provide a shock to 
the geophysical system. Such large-scale changes to the amount of heat 
and light that the Earth receives from the sun can introduce large and 
potentially dangerous adjustments in Earth's climate.
    The complexity of geo-engineering suggests that significant 
progress in global observing, research understanding, and modeling 
would be required before the potential for geo-engineering could 
seriously be considered. Current work in these areas is done by NOAA, 
other parts of the federal government, university and industry 
partners, and the international community. The uncertainties associated 
with geo-engineering will require enhanced communication and expanded 
efforts among all of these partners.

Questions submitted by Representative Ralph M. Hall

Q1.  Dr Lubchenco, in some of your budget briefings around the country, 
we have noted that you have used the terms ``incubation'' and 
``innovation'' in stressing the priority of NOAA's science mission and 
in advocating for enhancement of the NOAA research enterprise. We 
agree. With the Office of Oceanic and Atmospheric Research, or OAR, the 
whole really is greater than the sum of its parts. There are so many 
synergistic, interdisciplinary science efforts that contribute to 
maximizing the return on NOAA's research investment for innovation; 
innovation both for fundamental scientific discovery and the creation 
of new knowledge and technology to advance NOAA's service and 
stewardship missions. Coordination and collaboration is the key to an 
innovation culture which must bring in the social sciences to enhance 
the value and use of the physical, biological and chemical R&D.

        a.  How will this innovation culture be enhanced in a smaller, 
        divided OAR?

A1a. Strengthening science and fostering a culture of innovation 
remains a critical priority element of NOAA's efforts. The research 
enterprise at NOAA consists of much more than research on climate. NOAA 
and the Department of Commerce's plans to submit a proposal to create a 
Climate Service Line Office in NOAA are part of an overall effort to 
strengthen the critical science and services NOAA provides the Nation. 
OAR's science programs and laboratories that do not transfer to the 
Climate Service will continue to serve NOAA broadly in many important 
ways, including:

        <bullet>  Serving as the nexus for integration of research 
        across NOAA;

        <bullet>  Advancing science and technology innovation efforts 
        that support the purposes of the America COMPETES Act;

        <bullet>  Improving observing, modeling, and understanding of 
        how ocean, Great Lakes, and coastal ecosystems function, 
        including climate impacts;

        <bullet>  Building capacity for social, behavioral, and 
        economic science within NOAA;

        <bullet>  Continuing to advance NOAA's core research and 
        development capabilities in weather radar, forecast systems, 
        air quality, hurricane forecasts;

        <bullet>  Driving innovation in technology and advancing 
        knowledge as we explore the ocean; and

        <bullet>  Positioning NOAA to anticipate the scientific 
        challenges of the coming decades.

    As we move forward, NOAA believes that a renewed focus on the 
capabilities with for innovation and transformational research will 
support fundamental scientific discovery and the creation of new 
knowledge and technology to advance NOAA's service and stewardship 
missions. For example, a key area for a strategic long-term focus would 
be ocean and Great Lakes ecosystem science that integrates the 
chemical, physical, geological and human components at the ecosystem 
scale. It is our intent that OAR's programs will support all of NOAA by 
identifying, adapting, developing, assessing and promoting innovation 
and transformational, state of the art research, and will coordinate, 
integrate, and support these efforts throughout the agency. The 
research leadership provided by OAR supports the agency's mission--and 
the broader U.S. environmental, social, and economic sectors--through 
increased knowledge and novel advances in technologies.
    We are also taking a number of steps to strengthen science across 
the agency, and OAR is central to these efforts. Among these actions is 
the reinstatement of the position of NOAA Chief Scientist, and making 
it a vital part of the NOAA headquarters leadership team. This position 
will be on a par with the two Assistant Secretary positions. Another 
such action is the expanded role of the OAR Assistant Administrator who 
will serve as the principal advisor to NOAA's Chief Scientist on 
research matters, and in this capacity is charged with strengthening 
science and coordinating and integrating research across NOAA's Line 
Offices and with external partners.
    It is our intent that OAR's programs will support all of NOAA by 
identifying, adapting, developing, assessing and promoting innovation 
and transformational, state of the art research, and will coordinate, 
integrate, and incubate these efforts throughout the agency. The 
research leadership provided by OAR supports the agency's mission--and 
the broader U.S. environmental, social, and economic sectors--through 
increased knowledge and novel advances in technologies.

        b.  How will a diminished OAR provide for better weather 
        understanding and safety, ocean planning and use, ecosystem 
        protection, arctic science and exploration, new energy 
        resources support, as well as an open and evolving climate 
        service effort given that these are so inter-related and inter-
        dependent?

A1b. In planning for a Climate Service Line Office in NOAA, great care 
was taken not to diminish the foundation of research in those programs 
that would not be transferred. As NOAA and the Department of Commerce 
work to develop a request to establish a climate service, we are 
focused on the role of the Office of Oceanic and Atmospheric Research 
to incubate research and development that leads to new knowledge as 
well as many valuable products and services, many of which are 
transferred to the private sector and commercialized. NOAA anticipates 
that OAR will continue to function as a central research unit that 
works across line offices to integrate, incubate, and innovate research 
and development in a number of key mission areas. OAR has been 
responsible for many significant contributions that opened the world's 
eyes to the risks of greenhouse gas emissions, climate change and ocean 
acidification. It is the scientific advances and discoveries that have 
come from OAR's research laboratories and programs that have brought us 
to this point now where we see a demonstrable need for NOAA's climate 
services. The plans, while still under development, to create a Climate 
Service in NOAA will not diminish the research that OAR contributes to 
help identify the Nation's next major challenges and ensure NOAA is 
equipped to help face them. Support for strengthened research efforts 
within OAR and strengthening of science throughout the NOAA enterprise 
remain top priorities for NOAA.
    The FY 2011 Budget Request for NOAA demonstrates how science will 
be strengthened within OAR. The President's Budget requests $5.6 
billion for NOAA and includes investments to: strengthen NOAA's 
science, promote economic development, strengthen energy and security, 
sustain oceans and coasts, and protect lives and livelihoods. The FY 
2011 Budget also highlights the role that NOAA's innovations in science 
and technology have played in ensuring that a strong economy and a 
healthy environment go hand in hand. NOAA is a leading sponsor of 
oceanic and atmospheric research and is one of the key sponsors of 
climate science capabilities in the federal government. NOAA's request 
for research and development in FY 2011 is $949.1 million, 17 percent 
of the $5.6 billion total NOAA request. Highlights of the FY 2011 
budget include:

        <bullet>  Climate: Increased funding for climate assessment 
        services, the completion of a regional carbon observation and 
        analysis system, increased Arctic climate observations and 
        research, and transitioning key climate sensors on to NOAA 
        operational platforms (Joint Polar Satellite System).

        <bullet>  Weather and Air Quality: Increased funding for 
        improved extreme precipitation forecasts and demonstrations of 
        cutting edge radar technology to replace aging operational 
        weather and aircraft-tracking radars.

        <bullet>  Ocean, Coastal, and Great Lakes: Increased funding 
        for ocean acidification research and monitoring, aquaculture 
        research, climate-related coastal hazards research, and 
        Integrated Ecosystem Assessments for fishery ecosystems in the 
        Gulf of Mexico, California Current, and the Northeast Shelf.

Q2.  Dr Lubchenco, are you familiar with a report titled, ``Review of 
the Organization and Management of Research in NOAA''? This report was 
done by a Research Review Team for NOAA's Science Advisory Board and 
submitted in August of 2004. Several passages of this report appear to 
contradict the purpose and structure of the current NOAA proposal on a 
Climate Service. For instance, the report says:

        <bullet>    ``Regarding the issue of migrating NOAA research to 
        the line offices, this is not a wise course of action . . . The 
        major challenge for NOAA is connecting the pieces of its 
        research program and ensuring research is linked to the broader 
        science needs of the agency . . . . This is best done by 
        strengthening organizational processes, clarifying shared 
        responsibilities regarding transition of research, and 
        establishing a higher level of corporate oversight . . . The 
        dissolution of OAR and distribution of its resources and talent 
        to the other line offices would splinter rather than more 
        tightly connect the science and research enterprise. There is 
        undoubtedly a need to improve the linkage of research to 
        operations and change the culture of OAR to value and support 
        this linkage. However, breaking OAR apart and distributing the 
        parts to other line offices would be a mistake.'' Pg. 29.

        <bullet>    ``The near-term pressure inherent in the 
        operational line offices raises serious questions about their 
        viability as appropriate homes for developing the operational 
        products of the future . . . There are observations and 
        research products that are produced routinely (e.g., 
        measurements of greenhouse gas concentrations for climate 
        studies) but are not routine--namely the quality of the 
        observations and the sensitivity required to monitor and 
        constantly upgrade them requires a research environment.'' Pg. 
        33.

     Why does the current proposal to create a climate service depart 
so dramatically from the recommendations of NOAA's own advisory board?

A2. The 2004 NOAA Science Advisory Board (SAB) Research Review Team's 
scope was intended to look at NOAA's overall research enterprise, not 
at the creation of a new science and service organization. Consistent 
with that report, NOAA is actively working to strengthen science and 
preserve a dedicated science and research enterprise within the agency. 
Any re-organization will be carefully constructed so as not to take 
away any of NOAA's current capabilities. Rather, it re-organizes them 
to better complement and support each other.
    In addition, subsequent reports from NOAA's Science Advisory Board, 
and from other major advisory panels such as the National Research 
Council, state the need for close association and integration of 
climate research, science and services. Our announced intention to 
create a Climate Service follows the recommendations of these reports.
    Examples of these reports include:

        <bullet>  A Climate Services Vision: First Steps Toward the 
        Future (2001)--``If a climate service function is to improve 
        and succeed, it should be supported by active research.''

        <bullet>  Final Report of the Review of the NOAA National 
        Climate Services Strategy (2008)--NOAA Science Advisory Board 
        report. A guiding principle of a climate service: ``Ensure that 
        climate services are integrated with active research with 
        feedbacks that will directly impact the generation of new 
        climate service capabilities and climate services, and in turn, 
        will directly influence research directions.'' (Pg. 4)

        <bullet>  Options for Developing a National Climate Service 
        (2009)--``A key attribute: The Service will achieve its mission 
        by promoting active interaction among users, researchers, and 
        information providers.'' (Pg. 5)

        <bullet>  Restructuring Federal Climate Research to Meet the 
        Challenges of Climate Change (2009)--Top priorities are 
        ``Reorganize the program [USGCRP] around integrated scientific-
        societal issues to facilitate crosscutting research focused on 
        understanding the interactions among the climate, human, and 
        environmental systems and on supporting societal responses to 
        climate change'' (Pg. 4) and ``Coordinate federal efforts to 
        provide climate services (scientific information, tools, and 
        forecasts) routinely to decision makers . . . Regardless of 
        where the service is established, the restructured climate 
        change research program would have to be involved in the 
        research and development of experimental products (e.g., 
        regional predictions), tools (e.g., models), and outreach 
        services needed to support stakeholders. The climate service 
        could then use the tools to create products operationally. 
        Maintaining strong links to the research program would also 
        help the climate service take advantage of new capabilities.'' 
        (Pg. 8)

        <bullet>  Informing Decisions In a Changing Climate (2009)--
        ``Recommendation 9: The federal government should undertake a 
        national initiative for climate-related decision support under 
        the mandate of the U.S. Global Change Research Act (USGCRA) and 
        other existing legal authority. This initiative should include 
        a service element to support and catalyze processes to inform 
        climate-related decisions and a research element to develop the 
        science of climate response to inform climate-related decisions 
        and to promote systematic improvement of decision support 
        processes and products in all relevant sectors of U.S. society 
        and, indeed, around the world.'' (pg. 5)

        <bullet>  Climate Working Group (CWG) of NOAA's Science 
        Advisory Board Meeting Report for Fall 2009 (2009)--``The CWG 
        believes strongly that research needs to be an integral part of 
        moving forward on climate services.'' (Pg. 2)

References:

Barron, E. J, (Chair), et al., 2001: A Climate Services Vision: First 
        Steps Toward the Future. Board on Atmospheric Sciences and 
        Climate, National Research Council, Washington, DC.

Barron, E. J, (Chair), et al., 2009: Options for Developing a National 
        Climate Service. Report to NOAA's Science Advisory Board. 83 
        pages. http://www.sab.noaa.gov/Reports/2009/
        NCS<INF>-</INF>Report<INF>-</INF>FinaltoNOAA<INF>-</INF>6<INF>-</INF>
        5<INF>-</INF>09-1.pdf

Busalacchi, A. (Chair of Climate Working Group), Barron, E. J, (Chair 
        of Review Team), et al., 2008: Final Report of the Review of 
        the NOAA National Climate Services Strategy. Report to NOAA's 
        Science Advisory Board. 7 pages. http://www.sab.noaa.gov/
        Reports/2008/
        NOAA<INF>-</INF>SAB<INF>-</INF>CWG<INF>-</INF>NCS<INF>-</INF>Rev
        iew<INF>-</INF>Sep08
        <INF>-</INF>FINALtoNOAA.pdf

Busalacchi, A. (Chair of Climate Working Group), et al., 2009: Climate 
        Working Group (CWG) of NOAA's Science Advisory Board Meeting 
        Report for Fall 2009. Report to NOAA's Science Advisory Board. 
        5 pages.

Corell, R. W., (Chair), et al., 2009: Informing Decisions In a Changing 
        Climate. Panel on Strategies and Methods for Climate-Related 
        Decision Support, Committee on the Human Dimensions of Global 
        Change, Division of Behavioral and Social Sciences and 
        Education, National Research Council. 198 pages

Ramanathan, V. (Chair), et al., 2009: Restructuring Federal Climate 
        Research to Meet the Challenges of Climate Change. Committee on 
        Strategic Advice on the U.S. Climate Change Science Program; 
        National Research Council. 178 pages

Q3.  Last November, NOAA's Science Advisory Board produced a report 
titled, ``NOAA Science Advisory Board Climate Information Products and 
Applications Program Review''? This report is based on a Climate 
Working Group Review Panel Meeting held last July.

        a.  The panel recommended that NOAA develop a strategic plan 
        and strategic framework for its climate information products, 
        applications and related services. Specifically, the plan 
        should, ``Differentiate between work that is essentially 
        research or experimentation aimed at product development and 
        definition and work that is operational, or service oriented, 
        and provide for the appropriate balance between the two.'' (Pg. 
        9). How do you plan to keep research and operational missions 
        separate once you pull them into the same line office?

A3a. A foundational principle for integrating science and services 
within a Climate Service proposal is that excellent climate services 
and products are inextricably linked to a robust scientific basis. 
However, that brings about the challenge of: how can NOAA guide the 
development of a mutually-supportive Climate Service which both 
strengthens climate science and develops better climate service?
    The answer lies in the development and adoption of an 
organizational structure, service development and delivery models, and 
business practices that recognize and incorporate the foundational 
importance of current and sustained future investments in scientific 
research and, at the same time, provide for the development of 
operational services that are responsive to user needs. These practices 
will identify and address existing barriers for collaborative research 
and service partnerships especially in the transition of research to 
operations both within NOAA's Climate Service and the interactions 
outside of the Climate Service. Clear business practices, and a 
governance model to maintain balance of operations and research, will 
have to be adhered to that safeguard resources for, and prevent the 
erosion of, climate research in providing the best available science 
for the services, while enhancing the availability of resources for new 
operational services. A cross-NOAA team of scientists and service 
experts are currently working to develop the strategic plan and 
framework called for by the working group.

        b.  There were nine different programs identified in the report 
        that have already been engaged at the regional level, have 
        built relationships with the user communities and provide high-
        quality climate services. These include:

                i.  The International Research Institute for Climate 
                and Society

                ii.  Regional Integrated Sciences and Assessments 
                (RISA)

                iii.  Regional Climate Centers and State Climatologists 
                (RCC)

                iv.  National Weather Service Climate Service Program 
                Managers and Focal Points

                v.  National Integrated Drought Information System 
                (NIDIS)

                vi.  Sea Grant, and Sea Grant Extension

                vii.  Coastal Services Center

                viii.  National Estuarine Research Reserves

                ix.  NOAA regional Collaboration

     However, only the RISA, RCC and NIDIS programs have been 
identified as slated to be moved into your new Climate Service line 
office. What is the rationale for leaving the rest outside of the 
Climate Service? Why move some but not others?

A3b. NOAA has an extensive regional enterprise consisting of assets 
from across Line Offices that serves a variety of NOAA's mission areas. 
Many of these assets contribute to NOAA's climate service development 
and delivery, while also providing strategic support to other agency 
priorities. When evaluating which regional entities would be 
appropriate for inclusion in a Climate Service, the level of investment 
in climate services relative to other issue areas was examined. From 
the above list, the RISA, RCC, NIDIS, and the International Research 
Institute for Climate and Society programs have been identified as 
candidates to be moved into NOAA's Climate Service Line Office because 
their focus is primarily climate oriented. The other programs listed do 
not have a climate-related mission as a primary focus; they mainly have 
an ecosystem focus. The NOAA Regional Collaboration is a set of teams 
of NOAA line office leaders who serve to look across NOAA's broad suite 
of regional activities and coordinate and communicate those activities 
to regional stakeholders. Through business practices and cross-NOAA 
agreements; however, it is envisioned that the Climate Service will 
work closely with these other programs and the NOAA Regional 
Collaboration teams.
    The Climate Service would incorporate a number of NOAA's climate 
science, research and observation centers, as well as some of its data 
and service delivery infrastructure. This arrangement would provide a 
strong climate research to service enterprise under a central 
management authority to further the goal of having a single, 
authoritative source of climate information. The overarching goals 
behind the reorganization are to not only establish a climate service, 
but to strengthen NOAA science and to implement the Administration's 
priorities. The criteria for the proposed design include: establishing 
climate leadership, enhancing climate program coordination, and 
promoting user engagement on climate.

        c.  The report recommends conducting an initial comprehensive 
        national assessment of existing climate services and unmet 
        service needs to guide strategic planning. Have you undertaken 
        any such assessment?

A3c. The White House Office of Science and Technology Policy (OSTP) is 
in the process of reviewing these activities across the federal 
government. Additionally, there is work being done to establish an 
OSTP-led interagency process--a federal climate services roundtable--to 
assess and coordinate climate services across the relevant agencies.
    The Global Climate Change Impacts report identifies some of the 
unmet needs for climate research and information at the national and 
regional scales. Additional information regarding unmet needs will be 
gathered through sustained stakeholder engagement coordinated through 
NOAA's six new regional climate service directors, as well as other 
NOAA programs and offices with expertise in needs assessment, such as 
the Coastal Services Center and Sea Grant. Guidance solicited from 
other user and climate service provider groups also will be considered 
during NOAA's strategic planning, such as the Regional Integrated 
Science and Assessments, Regional Climate Centers, and National Weather 
Service climate focal points. NOAA plans to continue improving our 
climate sciences and services based on a sustained two-way dialogue 
with users and stakeholders.
    NOAA has much to contribute to addressing the Nation's need for 
improved climate science and services. NOAA's announcement, outlining 
plans to better align NOAA assets into a functional climate service, is 
a major step forward for this Administration in strengthening its 
capability to understand and adapt to climate change. NOAA is well-
positioned, and ready and willing to lead as the federal government 
strives to best equip the Nation to face the challenges of a changing 
climate.

        d.  The report recommends developing and maintaining a database 
        of climate service activities across all NOAA programs. Where 
        are you in the development of this database? Can such a 
        database be built before undertaking a national assessment of 
        existing services?

A3d. Within NOAA, the National Climatic Data Center and other NOAA 
entities have produced products and services catalogs that include 
inventories of their climate-related products, services, and 
activities. NOAA's business practices include an ongoing evaluation of 
annual activities and implementation plans through its annual operating 
plans, which would be applied to climate services activities. NOAA will 
continue to refine its systems for tracking these activities before 
undertaking a national assessment of existing services.
    NOAA also recently released the NOAA Climate Portal (http://
www.climate.gov), which is intended to provide one stop access to all 
of NOAA's climate information, products and services. The portal is a 
dynamic, innovative access point that is continuously updated with the 
most recent useful information about the state of the climate, 
scientific understanding, and available products and services. While 
currently in its early stages, NOAA is beginning to dialogue with other 
agencies about linking their climate data and information to the 
portal, in addition to building out the full NOAA component of the 
portal.

        e.  The report recommends clearly outlining the roles and 
        responsibilities of each of the nine programs. Has this been 
        done yet? If not, when will it be completed?

A3e. Over the past two years, NOAA has been actively engaged in 
evaluating climate service activities within the agency, as well as the 
contributions and needs of our partners and the greater user community. 
These efforts are culminating in a proposal to reorganize that will be 
submitted to Congress for approval.
    As part of NOAA's request, the roles and responsibilities of NOAA 
programs directly affected by the organizational change will be 
evaluated and defined. We are looking forward to this being completed 
in the fall, with input from the National Academy of Public 
Administration (NAPA) study recently completed. NOAA's proposal has 
benefited greatly from the NAPA study process, and there is a great 
deal of alignment with the NAPA Panel's recommendations. Additionally, 
NOAA is working closely with the Climate Working Group of the Science 
Advisory Board to gain advice, input, and guidance.

Q4.  The Climate Research and Modeling Program Review conducted by the 
Climate Working Group in March of 2008 detailed many findings, concerns 
and recommendations. The group did not recommend moving half of OAR 
into a Climate Service line office. Specifically, they found that:

        <bullet>    ``Reorganization is not an adequate response to 
        achieve more effective integration of NOAA.''

        <bullet>    Strategic planning and management is required for 
        the line offices to work more collaboratively.

        <bullet>    ``This panel notes that presentations suggested new 
        directions for NOAA in the development of Climate Services. Two 
        examples were the development of an attribution capability and 
        the use of model predictions to inform policy. The Panel is 
        concerned by this apparent expansion of mission when the 
        resources to support the core mission are spread thin, and that 
        several core activities appear to be fragile in places. 
        Furthermore, the real customer and the understanding of how the 
        customer uses climate information are not well defined and 
        understood. This is an example of expanding to perceived 
        mission without consideration of the end-to-end resources and 
        impacts on the existing, important capabilities.'' Pg. 33.

     Given these findings, how does your proposal for a new Climate 
Service line office reconcile these concerns of NOAA's propensity for 
mission-creep? How does your proposal reconcile the findings that 
reorganization is not needed, but instead strategic planning and better 
management would be the appropriate way to pursue NOAA's efforts to 
provide better climate services?

A4. Prior and subsequent reports to NOAA's Science Advisory Board, and 
reports from other major advisory panels such as the National Research 
Council, state the need for close association and integration of 
climate research, science and services. NOAA's historical mission to 
provide both climate science and service dates to the National Climate 
Program Act of 1975 and the U.S. Global Change Research Act (USGCRA) of 
1990. Any proposal to establish a Climate Service in NOAA will be 
consistent with and advance the purposes of these legislative drivers.
    NOAA has made significant progress in improving matrix management 
and strategic planning with respect to its climate enterprise. However 
in order to meet the current and future level of demand for climate 
services, the need for integrated execution of climate-related 
activities within a single line office has become apparent. An 
organizational change to enhance effectiveness across the agency is the 
purpose of our intent to organize a Climate Service Line Office in 
NOAA. NOAA has also completed a National Academy of Public 
Administration (NAPA) study to examine organizational options for a 
Climate Service within NOAA, as directed by the FY10 appropriations 
bill. The Panel, comprised of experts in government management and 
organizational change, also concluded that a new Line Office is the 
right organizational choice for a Climate Service in NOAA. NAPA's 
assessment of NOAA's matrix management is summarized in the following 
conclusion from the NAPA report:

         ``The introduction of matrix management and the creation of 
        the Climate Goal Team were thoughtful and significant 
        investments to respond to demand by improving performance 
        across NOAA's distributed network of climate activities. Matrix 
        management has helped improve alignment across a range of 
        activities and organizational stovepipes. But based on its own 
        assessments, and upon reviews from various outside bodies, NOAA 
        and Department of Commerce leadership rightly concluded that 
        the Climate Goal Team provided an incremental improvement, but 
        that matrix management is not sufficient to meet current 
        needs.''

    In order to ensure NOAA uses its resources effectively as it 
responds to its legislative drivers, NOAA is currently developing a 
Vision and Strategic Framework document that recently completed a round 
of public comment. This document takes steps to define the short and 
long term scope of NOAA's climate services. NOAA is actively engaging 
NOAA's Science Advisory Board and the Climate Working Group on this 
plan to get input and feedback on the strategy and scope of the Climate 
Services.
    NOAA's intent to create a Climate Service is consistent with the 
recommendations of the reports listed below.

Barron, E. J, (Chair), et al., 2001: A Climate Services Vision: First 
        Steps Toward the Future. Board on Atmospheric Sciences and 
        Climate, National Research Council, Washington, DC.

Barron, E. J, (Chair), et al., 2009: Options for Developing a National 
        Climate Service. Report to NOAA's Science Advisory Board. 83 
        pages. http://www.sab.noaa.gov/Reports/2009/
        NCS<INF>-</INF>Report<INF>-</INF>FinaltoNOAA<INF>-</INF>6<INF>-</INF>
        5<INF>-</INF>09-1.pdf

Busalacchi, A. (Chair of Climate Working Group), Barron, E. J, (Chair 
        of Review Team), et al., 2008: Final Report of the Review of 
        the NOAA National Climate Services Strategy. Report to NOAA's 
        Science Advisory Board. 7 pages. http://www.sab.noaa.gov/
        Reports/2008/
        NOAA<INF>-</INF>SAB<INF>-</INF>CWG<INF>-</INF>NCS<INF>-</INF>Rev
        iew<INF>-</INF>Sep08
        <INF>-</INF>FINALtoNOAA.pdf

Busalacchi, A. (Chair of Climate Working Group), et al., 2009: Climate 
        Working Group (CWG) of NOAA's Science Advisory Board Meeting 
        Report for Fall 2009. Report to NOAA's Science Advisory Board. 
        5 pages.

Corell, R. W., (Chair), et al., 2009: Informing Decisions In a Changing 
        Climate. Panel on Strategies and Methods for Climate-Related 
        Decision Support, Committee on the Human Dimensions of Global 
        Change, Division of Behavioral and Social Sciences and 
        Education, National Research Council. 198 pages

Miles E. L., A. K. Snover, L. C. Whitely Binder, E. S. Sarachik, P. W. 
        Mote, and N. Mantua, 2006: An Approach to Designing a National 
        Climate Service. Proceedings of the National Academy of 
        Sciences 103(25), 19616-19623. http://
        www.pnas.org"cgi"doi"10.1073"pnas.0609090103

Ramanathan, V. (Chair), et al., 2009: Restructuring Federal Climate 
        Research to Meet the Challenges of Climate Change. Committee on 
        Strategic Advice on the U.S. Climate Change Science Program; 
        National Research Council. 178 pages

Q5.  Dr. Lubchenco, a number of reports completed in the last several 
years that suggest that an attempt to create a NOAA Climate Service 
line office is premature. There are still many outstanding questions 
about NOAA's readiness to move forward with this agenda. Specifically, 
this knowledge base lacks sufficient information regarding who the 
customer is, how they use products, what products are available, who 
provides them, etc. Given this substantial ``data gap'' on the current 
state of climate services, what is the justification for moving 
forward?

A5. [Note: It is unclear to NOAA which specific report or reports are 
referenced in this question]
    Until now, individuals, communities, governments and industry have 
relied on what we know about the climate in the past to make important 
decisions about our systems and infrastructure--from agriculture to 
energy to transportation. In order to be successful and competitive in 
a changing climate, people need information and data about expected 
future conditions so they can make smart choices for their families and 
businesses. NOAA is responding to the growing demand from all sectors 
for more relevant, reliable information about the future state of the 
climate to allow better planning. The increased demand clearly 
demonstrates the need for coordinated, more accessible, user-driven 
climate information and services.
    Numerous external studies, by NOAA's Science Advisory Board, the 
National Academy of Sciences and others, have reiterated the need for 
easy-to-find, reliable and understandable information and products 
about climate change. In addition, the National Academy of Public 
Administration Panel strongly emphasized that there is a strong 
business case, user demand, and level of preparedness within NOAA to 
act now in establishing NOAA's Climate Service.
    NOAA, through its current climate and weather enterprises has 
significant experience working with users and providers of 
environmental information to understand their needs and capabilities 
with respect to products, data, and services. In addition, NOAA 
strongly believes that a two-way communication with users and service 
developers (including researchers) is a critical part of any Climate 
Service.
    NOAA uses multiple ways of tracking information regarding who the 
customer is, how they use products, what products are available, and 
who provides them. For example, through the National Climatic Data 
Center (NCDC; www.ncdc.noaa.gov), information on types of customers, 
how they use products and services, and the number of web hits for each 
product is tracked. Additionally, information on the economic and 
social benefits of NOAA data and products are available. NOAA-sponsored 
Regional Climate Centers (RCC) provide a number of regional-based 
climate products and services which are described on their web-site 
(e.g. http://www.wrcc.dri.edu). The NOAA sponsored Regional Integrated 
Sciences and Assessments (RISA) program works with regional users and 
stakeholders in a research capacity to understand climate-related needs 
and develop prototype climate information, products and services 
(http://www.climate.noaa.gov/cpo<INF>-</INF>pa/risa/). The NOAA 
sponsored International Research Institute for Climate and Society at 
Columbia University uses a science-based approach to enhance society's 
ability to understand, anticipate and manage climate risk in order to 
improve human welfare (www.iri.columbia.edu).
    A Climate Service in NOAA would increase NOAA's ability to 
anticipate, understand and provide the information users need to 
address the challenge of climate change. Creating one office would 
create a stronger position for climate leadership within NOAA to more 
deliberately guide all climate research, monitoring and assessment work 
in a coordinated fashion.

Q6.  In response to several questions about this new Climate Service, 
the NOAA website has posted a number of answers. It states, ``The FY 
2011 increases for climate included in NOAA's budget will contribute to 
the development and growth of the new NOAA Climate Service. These 
increases were chosen by NOAA, the Department of Commerce, and the 
Office of Management and Budget with an eye towards enhancing NOAA's 
climate science and service capabilities, most of which would be housed 
in the NOAA Climate Service. FY 2011 climate increases total $130M, 
which includes $47M that would support activities in the NOAA Climate 
Service.''

     What happens to this funding if NOAA does not receive the 
Congressional approval that is necessary to move forward with this 
proposal?

A6. In FY 2011, NOAA requested approximately $47 million (not counting 
requests for remote sensing assets) that would support NOAA climate 
science and service activities. These increases include:

        <bullet>  $10 million for Assessment Services to establish a 
        new sustained capability within NOAA to provide climate 
        assessments to decision-makers at national and regional scales;

        <bullet>  $1.5 million for NOAA's Climate Portal to establish 
        one-stop public access to all of NOAA's climate data, 
        information, and services online;

        <bullet>  $15.8 million to support critical climate observing 
        infrastructure;

        <bullet>  $6.98 million for `Earth System Modeling: Urgent 
        Climate Issues' will improve model resolutions and address 
        critical areas of model uncertainty, including sea-level rise, 
        Arctic, and terrestrial carbon cycle and biogeochemical 
        feedbacks, and decadal predictions/abrupt change;

        <bullet>  $11 million to expand the development of climate 
        quality data records from satellite observations;

        <bullet>  $2 million to enhance data center operations to 
        provide users with consistent and reliable access to the 
        Nation's environmental data and information via the 
        Comprehensive Large Array-data Stewardship System.

    The plans to establish NOAA's Climate Service would create a 
stronger position for climate leadership within NOAA to more 
deliberately guide all climate research, monitoring, and assessment 
work in an integrated fashion and to better coordinate efforts with its 
partners to ensure reliable delivery of climate services and 
information. If Congressional approval is not received for Climate 
Service Line Office, the requested increases will remain but will be 
executed within the respective line offices from which they were 
requested. These increases will continue to support NOAA's mandate to 
monitor and provide access to climate data and information, as well as 
address national priorities for climate identified by the U.S. Global 
Climate Change Research Program.

Q7.  On February 1st, the Office of Science and Technology Policy 
(OSTP) announced a radical shift in our nation's weather satellite 
program by dissolving the tri-agency NPOESS program between NOAA, NASA, 
and DOD.

        a.  Was this decision made by the three agencies? Or was it 
        made by OSTP?

A7a. The decision to restructure the National Polar-orbiting 
Operational Environmental Satellite System (NPOESS) Program was made by 
the Executive Office of the President after several months of 
discussion and deliberation and after receiving input from the Office 
of Science and Technology Policy, the Office of Management and Budget, 
and the National Security Council; and representatives from Department 
of Commerce/National Oceanic and Atmospheric Administration, Department 
of Defense, and National Aeronautics and Space Administration.

        b.  There was very little information accompanying the 
        announcement on the dissolution of the NPOESS tri-agency 
        program. It is assumed that the decision was made to lower the 
        risk of the program and to be cost effective.

        b(i)(a).  Was there a comparison of what it would cost to keep 
        the program together, but move the whole thing (procurement, 
        management, etc.) to either DOD or NASA?

A7b(i)(a).  Yes. The decision to restructure the NPOESS program was 
based on an analysis of various alternatives. A comparison was 
conducted and presented to the Executive Office of the President for 
consideration. Both DOD and NOAA/NASA provided their estimates for 
taking on the NPOESS program in its entirety under a single acquisition 
authority. However, this option did not address or mitigate the 
underlying factors contributing to schedule risk and cost growth that 
the NPOESS program was experiencing. In the end, restructuring the 
acquisition responsibilities by placing agencies in charge of specific 
orbits was the option that best positioned the program for success, 
including allowing improved agency management of technical, schedule, 
and cost risks.

        b(i)(b).  Was this comparison judged against the decision that 
        was ultimately made?

A7b(i)(b).  Yes. Restructuring the acquisition responsibilities by 
placing agencies in charge of specific orbits was the option that best 
addressed the management challenges that were contributing to the 
technical and schedule risk, and cost growth that the the NPOESS 
program faced.

        b(i)(c).  Please provide the Committee with the costs estimates 
        of these options and reasons for taking the path you chose 
        versus the others.

A7b(i)(c).  The Joint Polar Satellite System (JPSS) program budget is 
being planned at a high confidence level. The JPSS program is 
assessing, tracking and mitigating, as practical, residual risks 
associated with program components already in development. Decisions on 
JPSS spacecraft and payload are focused on assuring continuity of data 
to meet critical national requirements to support weather forecasting, 
environmental monitoring and climate assessment. The JPSS program will 
be subject to independent review of mission concepts, organizational 
structure, acquisition strategies, and budget prior to program 
baseline.
    The primary options that were reviewed were:

        <bullet>  Status quo (Tri-agency NPOESS program, as it was 
        structured)

        <bullet>  Single agency (DoD or NOAA responsible for the entire 
        NPOESS program)

        <bullet>  Divided responsibility (i.e., the February 1, 2010 
        decision)

    Data continuity was the primary driver for the decision to 
restructure the program and each option was evaluated against how well 
it addressed cost, schedule, and technical risk. Underlying the 
assessment were the basic management tenants of:

        <bullet>  Aligning the development with an acquisition center

        <bullet>  Developing budgets at the 80 percent cost confidence

        <bullet>  Clear authority, responsibility, and accountability

    The divided responsibility (i.e., the February 1, 2010 decision) 
provided the best solution.

        b(ii).   How is the tri-agency program going to be dissolved?

A7b(ii).  A transition team has been formed to manage the activities of 
transitioning the NPOESS Program to the JPSS Program. This team 
includes representatives from NOAA, NASA and DOD. DOD issued 
Acquisition Decision Memoranda on March 27, May 10, June 22, and August 
13, 2010, directing the NPOESS Program Executive Officer to transition 
the NPOESS activities to NOAA's JPSS and DOD's Defense Weather 
Satellite System (DWSS); these activities are underway. Additionally, 
NOAA and NASA have signed a Memorandum of Understanding to begin 
transition activities. The Executive Office of the President submitted 
a JPSS Implementation Plan to the Congress pursuant to the National 
Defense Authorization Act of 2010. On June 28, 2010, the President 
issued the National Space Policy for the United States of America, in 
which it charges the Secretary of Commerce, through the NOAA 
Administrator, the Secretary of Defense, through the Secretary of the 
Air Force, and the NASA Administrator to work together and with their 
international partners to ensure uninterrupted, operational polar-
orbiting environmental satellite observations. It further states that 
the Secretary of Defense shall be responsible for the morning orbit, 
and the Secretary of Commerce shall be responsible for the afternoon 
orbit. The departments shall continue to partner in developing and 
fielding a shared ground system, with the coordinated programs operated 
by NOAA. Further, the departments shall ensure the continued full 
sharing of data from all systems. The Administration has determined 
that this policy supersedes the 1994 Presidential Decision Directive 
that established the NPOESS program. Finally, NOAA's FY 2011 Budget 
request of $1.060 billion for JPSS would implement the NOAA portion of 
the restructured program to address the risk of a break in satellite 
data continuity in the afternoon orbit.

        b(iii).  DOD has enough legacy satellites to get them to 2020, 
        possibly even to 2025. Do you think they will continue to use 
        the NPOESS platform as the basis of any new satellite program 
        or will they develop a new system?

A7b(iii).  DOD is conducting a study to evaluate their requirements and 
will follow that with an Analysis of Alternatives that will inform the 
decision on the follow-on platform which could include using the NPOESS 
platform or developing a new platform.
    DoD's global mission is dependent on having access to polar-
orbiting data from all three orbits: early morning, mid-morning, and 
afternoon. The decision to restructure the NPOESS program places DoD in 
charge of providing data in the early morning orbit. EUMETSAT's MetOp 
and NOAA's Polar-orbiting Operational Environmental Satellite currently 
provide data to DoD from their current and future mid-morning and 
afternoon orbits, respectively. The restructured NPOESS directive would 
reciprocate NOAA access to DoD data in the early morning orbit.

        b(iv).  How does splitting the program reduce the risk? What is 
        the current risk of project failure?

A7b(iv).  Based on the review conducted by an Executive Office of the 
President Task Force and informed by recommendations from the NPOESS 
Independent Review Team and the Government Accountability Office (GAO), 
the Administration recognized the critical effect that would have 
resulted if the NPOESS program would have continued under the current 
management structure, and, consistent with the conclusions of 
independent reviewers, determined that if the NPOESS program was not 
restructured NOAA's ability to provide weather and climate data for the 
Nation was at significant risk.
    The improved management structure of the JPSS program will enable 
the program to move forward consistent with NOAA's objectives in a more 
effective and efficient manner in the long term. Specifically, the 
restructured program will place NOAA and the Department of Defense 
(DOD) in charge of separate orbits. NOAA will be in charge of the 
afternoon orbit and will use the National Aeronautics and Space 
Administration (NASA) as its acquisition agent, on a reimbursable 
basis. DOD will be in charge of the morning orbit and will develop its 
own acquisition processes. This change will allow NOAA to exert more 
control over setting the pace of work that is required to develop the 
instruments and space and ground segments for the afternoon orbit. The 
restructured program also provides clear accountability, 
responsibility, and authority for each orbit, simplifying the decision-
making processes that have caused significant delays in the NPOESS 
program. The restructure also provides infrastructure from acquisition 
centers that will support each acquisition with a strong team of 
technical and program personnel and rigorous, documented processes. In 
addition, the ability to utilize different sized spacecraft if 
necessary and to utilize international and commercial platforms will 
provide more flexibility to achieve improved continuity of observation.
    NOAA faces a number of challenges that could contribute to risk of 
project failure, including the use of the FY 2011 funds to continue 
development of the instruments and ground system, and initiate JPSS 
transition activities. NOAA requires full funding of the President's FY 
2011 budget to complete transition and fully implement JPSS in time to 
meet the 2014 launch readiness date to mitigate the possibility of a 
data gap in the afternoon orbit.

Q8.  It is my understanding the DOD and NOAA will still utilize the new 
joint ground system and that information from the two different 
satellites will still be processed together.

        a.  How useful will this be if DOD maintains legacy 
        instruments?

A8a. NOAA uses data from DOD legacy instruments in a variety of ways to 
support NOAA operations. NOAA anticipates continuing to use data from 
DOD instruments in the early morning orbit, whether they are legacy or 
advanced sensors. The JPSS ground system is currently scoped to 
accommodate data from the planned NPOESS development sensors, and 
accommodating legacy instruments is also well within the ground system 
capabilities. While operational legacy sensors fall short of NPOESS/
JPSS sensor capabilities, even legacy observations from the early 
morning orbit would be a positive contribution to NOAA's operations. 
Having access to data from legacy and JPSS systems at the same time 
will allow for calibration and validation activities of the new data to 
occur in a measured and deliberate manner to support enhancement of 
numerical weather prediction models and climate models.

        b.  Doesn't this mean that we will only really be able to 
        utilize legacy-level information from the new NOAA satellite 
        since it has to be integrated with the DOD legacy information?

A8b. No. In fact, the JPSS ground system offers the agencies the 
opportunity to make operations more efficient by transitioning to a 
single enterprise solution for multiple satellites. NOAA has been 
studying this effort over the past year. The NPOESS designed ground 
system is well suited to incorporate legacy systems, if this is desired 
by the DOD in the future. NOAA will continue to support development of 
the new sensors and the information and products they will provide. 
NOAA's ground system network will support both legacy systems and JPSS 
satellites, as well as future DOD satellites. Additionally, NOAA is 
developing a high performance computing architecture and algorithms 
that can incorporate both legacy and JPSS data. This means that all 
sources of data will be utilized. Data from JPSS will be processed to 
achieve the planned (i.e., higher resolution than current operational 
data) sensor and environmental data products within the new joint JPSS 
ground system. The JPSS program will provide these data products to the 
DOD users for further exploitation in their operations. Both NOAA and 
DOD users have been planning for these data products from NPOESS, and 
should be well poised to reap the full benefits of the new NOAA 
satellite within their own operations. Toward that end, it is well 
worth noting that DOD technical experts are continuing to develop the 
infrastructure to integrate JPSS data into its product development. As 
the DOD's plans to implement its responsibilities under the 
restructured NPOESS program solidifies, NOAA intends to work with DOD 
in the same integrated manner for exploiting data from the DOD early 
morning orbit.

        c.  Wouldn't this make the entire upgrade a waste of money?

A8c. As noted above, NOAA's ground system network will support both 
legacy systems and JPSS satellites, and all sources of data will be 
utilized. The advanced observational capabilities planned for the JPSS 
satellites will provide significantly improved data that will benefit 
all users. More accurate data will support improved weather forecasts 
and alerts, and will further our understanding of climate to enable 
informed decisions to mitigate or adapt to climate change. There will 
be a period of time when NOAA will operate legacy satellites that are 
ending their useful life at the same time it will be operating the JPSS 
satellites Having access to data from legacy and JPSS systems at the 
same time will allow for calibration and validation activities of the 
new data to occur in a measured and deliberate manner to support 
enhancement of numerical weather prediction models and climate models. 
The JPSS ground system allows us to implement an enterprise solution 
rather than the current stovepiped ground systems.

Q9.  DOD is currently responsible for 50% of the cost of the tri-agency 
program.

        a.  Now that NOAA is going its own way, is it taking full 
        responsibility for the cost of the ground system for which DOD 
        would then pay NOAA to operate their half?

A9a. NOAA currently operates DOD's Defense Meteorological Satellite 
Program (DMSP) spacecraft on a reimbursable basis from the NOAA 
Satellite Operations Facility. NOAA will continue this arrangement for 
the DMSP satellites for the rest of the program's life. If needed, NOAA 
will operate the satellites that form DOD's response to the 
restructured NPOESS program on a reimbursable basis.

        b.  Doesn't this put a greater burden on NOAA's budget if they 
        are now responsible for all of the installed costs of the 
        ground system, where before they were only be responsible for 
        half?

A9b. No, the decision to place NOAA in charge of the JPSS ground system 
does not place a greater burden on NOAA. The President's FY2011 budget 
for JPSS provides adequate resources to support NOAA's efforts for 
complete development of the ground system which will be used by DOD and 
NOAA for both the morning and afternoon orbits. NOAA believes the 
challenges that remain to field and deploy the ground system are 
manageable.
    Under JPSS, NOAA would need to have a ground system in place to 
support JPSS-1 and JPSS-2. Given the 2014 launch of JPSS-1, it is more 
cost-effective for NOAA to take the lead to continue development of the 
NPOESS ground system for its JPSS program. In fact, significant 
progress has occurred at the NOAA Satellite Operations Facility (NSOF) 
where command and control of the JPSS satellites will occur, and where 
NOAA currently operates DOD Defense Meteorological Satellite Program 
(DMSP) spacecraft on a reimbursable basis. Similarly, the network of 
SafetyNet sites that would support the acquisition of data from JPSS 
satellites has been identified and NOAA would gain more from leveraging 
that work instead of starting from scratch. With respect to providing 
data to DOD from the JPSS ground system, the technological adapters 
that would be required to do so would be relatively inexpensive to 
undertake.

Q10.  Will the contract with Northrup Grumman be dissolved? How much 
will it cost the taxpayers for the termination of the contract?

A10. Termination and settlement costs are highly dependent on the 
decisions made by the transition teams, and it is premature to discuss 
changes to the contract until the transition team has completed its 
assessment of next steps. DoD is leading the Government's contract 
negotiations with the NPOESS prime contractor. Until the negotiations 
are complete, NOAA must retain funds to cover potential associated 
costs.
    NOAA structured its FY 2011 budget request for JPSS to ensure that 
it could simultaneously address any contractual obligations that remain 
from the NPOESS program while implementing the decision to develop the 
JPSS program.

Q11.  Do you have a plan in place to fix the many problems in the 
program in the event that Congress rejects the recommendation that this 
project be split up and chooses instead to fund it in the same manner 
as it has in the past?

A11. The review of the NPOESS program, led by the Executive Office of 
the President, evaluated many options, including modifying the tri-
agency governance model. However, it was quickly recognized that the 
impediments to the NPOESS program's success were far more complex than 
the management structure issue alone.
    NOAA's assessment of the challenges faced by the NPOESS program 
included:

        <bullet>  Challenges in harmonizing budget and costing 
        methodologies across agencies upon which program life cycle 
        costs and funding reserves were based.

        <bullet>  Differences in agency opinions for developing options 
        to reduce and manage risk.

        <bullet>  Difficulties in aligning agency priorities and 
        requirements to ensure program success.

        <bullet>  Cumbersome and ineffective overall program oversight 
        and governance, and acquisition control, including the function 
        of the NPOESS Executive Committee.

    The Administration recommended restructuring the NPOESS program's 
acquisition satellite capabilities with the Nation's civil and military 
mission requirements and to continue the development of critical Earth 
observing instruments required for improving weather forecasts, climate 
monitoring, and warning lead times of severe storms. Informed by 
recommendations from the NPOESS Independent Review Team and the 
Government Accountability Office, the Administration recognized the 
critical effect that would have resulted if the NPOESS program would 
have continued under the current management structure, and, consistent 
with the conclusions of independent reviewers, determined that if the 
NPOESS program was not restructured NOAA's ability to provide weather 
and climate data for the Nation would be at risk.
    The improved management structure of the JPSS program will enable 
the program to move forward consistent with NOAA's objectives in a more 
effective and efficient manner in the long term. Specifically, the 
restructured program will place NOAA and DOD in charge of separate 
orbits. NOAA will be in charge of the afternoon orbit and will use NASA 
as its acquisition agent, on a reimbursable basis. DOD will be in 
charge of the morning orbit and will develop its own acquisition 
processes. This change will allow NOAA to exert more control over the 
pace of work that is required to develop the instruments and space and 
ground segments for the afternoon orbit. The restructure provides clear 
accountability, responsibility, and authority for each orbit, 
simplifying the decision-making processes that have caused significant 
delays in the NPOESS program. The restructure also provides 
infrastructure from acquisition centers that will support each 
acquisition with a strong team of technical and program personnel and 
rigorous, documented processes. In addition, the ability to utilize 
different sized spacecraft if necessary and to utilize international 
and commercial platforms will provide more flexibility to achieve 
improved continuity of observation. In order to minimize the potential 
of a gap in the afternoon orbit, NOAA requires full funding of the 
President's FY 2011 budget request of $1.06 billion.

Questions submitted by Representative Vernon J. Ehlers

Q1.  I have long been concerned about the equity of NOAA's spending in 
the Great Lakes, when compared across NOAA's regions. If NOAA were to 
distribute regional funds equitably among NOAA's eight regions, the 
Great Lakes regions would receive about 13% of those funds. However, 
the Great Lakes region has only received two to three percent of those 
funds in 2008, 2009, and 2010. Is NOAA concerned by this lack of 
regional equity, and if so, please provide an explanation of how NOAA 
will address this regional inequity.

A1. NOAA considers the Great Lakes region to be equally important to 
other regions, and as such, NOAA supports critical activities in the 
Great Lakes, including local weather forecasts and warnings, research 
with local applications through the Sea Grant College Programs, 
monitoring contaminants as part of the National Status and Trends 
Mussel Watch Program, managing the Great Lakes coastal zone through the 
Coastal Zone Management Program, and developing ecological forecasting 
capabilities for the Great Lakes ecosystem through the Great Lakes 
Environmental Research Lab.
    In FY 2011, NOAA expects a level of about $78 million to continue 
activities in the Great Lakes region. This includes a request of $65 
million to sustain a base level of investment, plus we estimate 
approximately $13 million in additional funds will be applied to 
projects in the Great Lakes region through multiple competitive grant 
programs. This amount does not include funding, approximately $30 
million, provided by the Environmental Protection Agency for the Great 
Lakes Restoration Initiative.

Q2.  NOAA manages several competitive grant programs. While I support 
the competitive process, the process itself can sometimes direct the 
outcome in different directions. NOAA chooses well-qualified experts to 
participate in the peer review process. However, NOAA's ocean focus 
means that many times, requests for proposals themselves either do not 
embrace Great Lakes issues and/or review panels have little or no Great 
Lakes representation. Is there a way for NOAA to consider a separate 
competition for Great Lakes and freshwater issues or at least populate 
the review panels equitably with Great Lakes and freshwater experts?

A2. Several NOAA programs currently fund competitive grants that 
address Great Lakes issues, including Sea Grant, the Climate Program 
Office, the Integrated Ocean Observing System program, the Center for 
Sponsored Coastal Ocean Research, and the Coastal and Estuarine Land 
Conservation Program. Three large FY 2010 budget initiatives--the 
Invasive Species Regional Strategic Investment, Aquaculture Extension, 
and Aquaculture Research--will be soliciting grant proposals which will 
explicitly mention the Great Lakes region in the announcement language. 
For all NOAA competitive grant programs, when proposals are submitted 
from the Great Lakes, appropriate experts are included for both review 
panels.
    In addition to NOAA funds, in FY 2010, NOAA is receiving 
approximately $29.7 million of Environmental Protection Agency's (EPA) 
Great Lakes Restoration Initiative (GLRI) funding which will fund 
habitat restoration, invasive species, nearshore health, 
accountability, monitoring, and evaluation efforts in the Great Lakes. 
NOAA plans to participate in the multi-agency Great Lakes Multi-Year 
Restoration Action Plan. The EPA is requesting an additional $300 
million for GLRI in FY 2011 for continued efforts. NOAA is committed to 
continuing the work of the GLRI. There are now many specific 
opportunities for federal research dollars to reach the Great Lakes 
region through this large interagency effort and the associated 
competitive programs.
    In addition to program grants and GLRI funding, NOAA recently 
awarded a multi-year competitive grant for the Cooperative Institute 
for Limnology and Ecosystems Research (CILER), co-located at the 
University of Michigan and NOAA's Great Lakes Environmental Research 
Laboratory. CILER leverages both NOAA and University of Michigan 
personnel in Great Lakes research.
    In FY 2011, NOAA expects a level of about $78 million to continue 
activities in the Great Lakes region: $65 million to sustain a base 
level of investment and approximately $13 million in additional funds 
through multiple competitive grant programs. This amount does not 
include funding provided by the EPA for the Great Lakes Restoration 
Initiative.
    NOAA appreciates the concerns raised and will continue to work to 
emphasize Great Lakes issues in national level competitions, as well as 
to ensure that competitive review panels include Great Lakes experts 
when appropriate. NOAA is working internally and externally through the 
NOAA Great Lakes Regional Collaboration Team to develop strategies to 
incorporate specific references to NOAA's freshwater, interior coasts 
and navigation, regional climate, and resource management missions in 
future grant solicitations.


</pre></body></html>
